<html>
<title> - YOSEMITE VALLEY PLAN</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]




 
                         YOSEMITE VALLEY PLAN

=======================================================================

                           OVERSIGHT HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 27, 2001

                               __________

                            Serial No. 107-8

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
71-353 DTP                  WASHINGTON : 2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001




                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. "Billy" Tauzin, Louisiana       Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              James P. McGovern, Massachusetts
Greg Walden, Oregon                  Anibal Acevedo-Vila, Puerto Rico
Michael K. Simpson, Idaho            Hilda L. Solis, California
Thomas G. Tancredo, Colorado         Brad Carson, Oklahoma
J.D. Hayworth, Arizona               Betty McCollum, Minnesota
C.L. "Butch" Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                   Allen D. Freemyer, Chief of Staff
                      Lisa Pittman, Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
                  Jeff Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                    JOEL HEFLEY, Colorado, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
Wayne T. Gilchrest, Maryland             Samoa
George Radanovich, California        Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                James P. McGovern, Massachusetts
Chris Cannon, Utah                   Anibal Acevedo-Vila, Puerto Rico
Bob Schaffer, Colorado               Hilda L. Solis, California
Jim Gibbons, Nevada                  Betty McCollum, Minnesota
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado




                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 27, 2001...................................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate to Congress from the 
      Virgin Islands.............................................     6
        Prepared statement of....................................     6
    Doolittle, Hon. John T., a Representative in Congress from 
      the State of California....................................    14
        Prepared statement of....................................    16
    Hefley, Hon. Joel, a Representative in Congress from the 
      State of Colorado..........................................     1
        Prepared statement of....................................     2
        Map of Yosemite Valley submitted for the record..........     3
        Summary of Yosemite Valley Plan submitted for the record.     4
    Radanovich, Hon. George, a Representative in Congress from 
      the State of California....................................     7
        Prepared statement of....................................     9
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, Prepared statement of....................    11

Statement of Witnesses:
    Balmain, Doug, Chairman, Board of Supervisors, County of 
      Mariposa, California.......................................    60
        Prepared statement of....................................    61
    Gilbert, Gary, Chairman, Board of Supervisors, County of 
      Madera, California.........................................    49
        Prepared statement of....................................    51
    Hardy, Ed, Owner and Operator, Bass Lake Lodge, Bass Lake, 
      California.................................................    90
        Prepared statement of....................................    92
    Oliver, Gregory J., Tuolomne County Counsel, Sonora, 
      California.................................................    63
        Prepared statement of....................................    66
    Reynolds, John J., Regional Director, Pacific West Region, 
      National Park Service......................................    21
        Prepared statement of....................................    23
    Szefel, Dennis, President, Delaware North Parks Services, 
      Inc., Buffalo, New York....................................    93
        Prepared statement of....................................    96
    Watson, Jay Thomas, California/Nevada Regional Director, The 
      Wilderness Society.........................................    98
        Prepared statement of....................................   100
    Whitmore, George W., Chairman, Sierra Club's Yosemite 
      Committee..................................................   101
        Prepared statement of....................................   103

Additional materials supplied:
    McConnell, Nancy, President, Board of Trustees/Education, 
      Mariposa County Unified School District, Letter submitted 
      for the record by The Honorable George Radanovich..........    19
    Ratzlaff, Don, Vice-Chairman, Tuolomne County Board of 
      Supervisors, Letter submitted for the record...............    67
    Wald, Johanna H., Director, Land Program, Natural Resources 
      Defense Council, Letter submitted for the record...........   112


 THE FINAL YOSEMITE VALLEY PLAN AND SUPPLEMENTAL ENVIRONMENTAL IMPACT 
                               STATEMENT

                              ----------                              


                        Tuesday, March 27, 2001

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
Room 1334, Longworth House Office Building, Hon. Joel Hefley 
[Chairman of the Subcommittee] presiding.
     Mr. Hefley. The Committee will come to order.

    STATEMENT OF HONORABLE JOEL HEFLEY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF COLORADO

    Mr. Hefley. Good morning. Welcome to the hearing today. 
This morning, the Subcommittee on National Parks, Recreation, 
and Public Lands will hear testimony on the National Park 
Service's Yosemite Valley Plan and its accompanying 
Supplemental Environmental Impact Statement.
    At this point, I would like to ask unanimous consent that 
Congressman Doolittle be permitted to sit on the dais to give 
his statement and to participate in the hearing. Is there any 
objection? Hearing none, so ordered.
    We actually shouldn't do that, Representative Doolittle, 
after you deserted our Committee to go somewhere else, but--
    Mr. Doolittle. I was kicked off, Mr. Chairman.
    [Laughter.]
    Mr. Hefley. Well, then that's rightly so. So we'll move on.
    On December 29th, 2000, the National Park Service signed 
the Record of Decision for the Yosemite Valley Plan. The Record 
of Decision, the result of a very lengthy process, will provide 
direction for managing the natural and cultural resources, 
facilities, and visitor experiences in Yosemite Valley for the 
next decade. In its final form, the plan encompasses thousands 
of pages and, if implemented, would cost a healthy $441 
million.
    For those of you who are not familiar with the Valley, it 
encompasses an area within Yosemite National Park that is a 
mile wide and seven miles long, and is visited annually by 70 
percent of the Park's visitors. It is famous for its 
campgrounds, hiking trails, waterfalls, scenic wildlands and, 
of course, the sheer walls of El Capitan. Since becoming a 
national park in 1890, Yosemite National Park has been enjoyed 
by millions of people every year, and is considered to be one 
of the crown jewels of the National Park System.
    However, according to the National Park Service, the Valley 
has become congested, especially with private automobiles. It 
is overcrowded with more than a thousand park facilities, such 
as stores, homes, garages, apartments, lodging facilities and 
restaurants. It is bisected by approximately 30 miles of 
roadway. All of these factors allegedly threaten its natural 
beauty and suggest that a plan of action is necessary.
    While many people in this room would agree that the Valley 
may be crowded during certain peak times, many would disagree 
with a number of recommendations slated for action in the 
Valley Plan. Based on the tenor of our new Interior Secretary, 
and her approach of inclusiveness, I am optimistic and hopeful 
that the Bush administration will be open minded in their 
review of this plan.
    I look forward to hearing from our witnesses, especially 
their thoughts on the transportation plan, lodging, campsite 
changes, parking relocation, and the overall effects to the 
gateway communities.
    I now recognize the gentlelady from the Virgin Islands.
    [The prepared statement of Mr. Hefley follows:]

   Statement of The Honorable Joel Hefley, Chairman, Subcommittee on 
              National Parks, Recreation, and Public Lands

    Good morning and welcome to the hearing today. This morning, the 
Subcommittee on National Parks, Recreation, and Public Lands will hear 
testimony on the National Park Service's Yosemite Valley Plan and its 
accompanying Supplemental Environmental Impact Statement.
    At this point, I would like to ask unanimous consent that 
Congressman Doolittle be permitted to sit on the dais to give his 
statement and to participate in the hearing. Is there any objection? 
Hearing none, so ordered.
    On December 29, 2000, the National Park Service signed the Record 
of Decision for the Yosemite Valley Plan. The Record of Decision, the 
result of a very lengthy process, will provide direction for managing 
the natural and cultural resources, facilities, and visitor experiences 
in Yosemite Valley for the next decade. In its final form, the Plan 
encompasses thousands of pages, and if implemented, would cost a 
healthy $441 million dollars.
    For those of you who are not familiar with the Valley, it 
encompasses an area within Yosemite National Park that is a mile wide 
and seven miles long and is visited annually by 70 percent of the 
Park's visitors. It is famous for its campgrounds, hiking trails, 
waterfalls, scenic wildlands, and of course, the sheer walls of El 
Capitan. Since becoming a National Park in 1890, Yosemite National Park 
has been enjoyed by millions of people every year and is considered to 
be one of the crown jewels of the National Park System.
    However, according to the National Park Service, the Valley has 
become congested, especially with private automobiles. It is 
overcrowded with more than a thousand park facilities, such as stores, 
homes, garages, apartments, lodging facilities and restaurants. It is 
bisected by approximately 30 miles of roadway. All of these factors 
allegedly threaten its natural beauty and suggest that a plan of action 
is necessary.
    While many people is this room would agree that the Valley may be 
crowded during certain peak times, many would disagree with a number of 
recommendations slated for action in the Valley Plan.
    Based on the tenor of our new Interior Secretary and her approach 
of inclusiveness, I am optimistic and hopeful that the Bush 
Administration will be open minded in their review of this plan.
    I look forward to hearing from our witnesses, especially their 
thoughts on the transportation plan, lodging and campsite changes, 
parking relocation and the overall effects to the gateway communities.
                                 ______
                                 
    (A map of the Yosemite Valley and a summary of the Yosemite 
Valley Plan submitted for the record follow:]
[GRAPHIC] [TIFF OMITTED] T1353.006

[GRAPHIC] [TIFF OMITTED] T1353.004

[GRAPHIC] [TIFF OMITTED] T1353.005

STATEMENT OF THE HONORABLE DONNA M. CHRISTENSEN, A DELEGATE TO 
                CONGRESS FROM THE VIRGIN ISLANDS

    Mrs. Christensen. Thank you, Mr. Chairman.
    Today, as you said, the Subcommittee will receive testimony 
on the Yosemite Valley Plan. I am assuming that's the plan over 
there. Oh, my goodness. This plan has been years, obviously, in 
the making. It's a significant document for a significant area 
of great beauty and majesty.
    As the National Park Service notes in its testimony, 
Yosemite Valley is only seven miles long and less than one mile 
wide. The floor of the Valley is further reduced by rock fall 
zones and the flood plain of the Merced River. Within this 
relatively small area, millions of people come annually to 
experience the nationally significant resources of the Valley.
    How to protect these important park resources and still 
maintain a quality visitor experience has been a concern going 
back for many years. In fact, I have been informed by staff 
that today's hearing is at least the fourth congressional 
hearing held in the last decade dealing with Yosemite Valley 
and related matters.
    Mr. Chairman, I look forward to learning more on what the 
Yosemite Valley Plan will mean for the Park resources and 
visitors. I appreciate the presence of our witnesses, including 
our former Committee member, Congressman Doolittle, here today. 
I look forward to their insights on the subject of today's 
oversight hearing.
    Thank you, Mr. Chairman.
    [The prepared statement of Mrs. Christensen follows:]

Statement of The Honorable Donna M. Christensen, a Delegate to Congress 
                        from the Virgin Islands

    Mr. Chairman, today the Subcommittee will receive testimony on the 
Yosemite Valley Plan. This plan has been years in the making. It is a 
significant document for a significant area of great beauty and 
majesty.
    As the National Park Service notes in its testimony, Yosemite 
Valley is only seven miles long and less than one mile wide. The floor 
of the valley is further reduced by rock-fall zones and the flood plain 
of the Merced River. Within this relatively small area, millions of 
people come annually to experience the nationally significant resources 
of the valley.
    How to protect these important park resources and still maintain a 
quality visitor experience has been a concern going back many years. In 
fact, I have been informed by staff that today's hearing is at least 
the fourth Congressional hearing held in the last decade dealing with 
Yosemite Valley and related matters.
    Mr. Chairman, I look forward to learning more on what the Yosemite 
Valley Plan will mean for the park's resources and visitors. I 
appreciate the presence of our witnesses here today and look forward to 
their insights on the subject of today's oversight hearing.
                                 ______
                                 
     Mr. Hefley. Thank you very much, Mrs. Christensen.
    Our first panel is--I'm sorry. Mr. Radanovich, do you have 
an opening statement?
    Mr. Radanovich. Yes, Mr. Chairman, I do, if I may take the 
time.
     Mr. Hefley. You certainly may. I'm sorry. I was about to 
overlook that.
    Mr. Radanovich. No problem.

STATEMENT OF THE HONORABLE GEORGE RADANOVICH, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. I want to thank you, Mr. Chairman, for 
holding this important hearing. I think Yosemite is one of the 
crown jewel parks in our Nation and deserves the attention that 
this does.
    I also want to thank many constituents, frankly, that are 
out here testifying, and I'm glad that you're here to give some 
input on this plan, as well as members of the National Park 
Service.
    I have been personally involved in the formulation of the 
Yosemite Plan and all of its manifestations since the 1980 
General Management Plan, and since that original plan, Yosemite 
has been studied, prodded, poked and written about by numerous 
park planners, with ideas ranging from massive bridges across 
the Valley to multi-story parking garages in the Valley itself, 
to trains, guideways, monorail--you name it, it's been 
considered for Yosemite.
    These plans are represented by what's in front of me here. 
As I was leaving my office this morning, I pulled out these 
plans that were made available to me, were sitting on my 
bookshelf, and I believe that this pile of documents 
demonstrates one of the problems with the Yosemite Valley Plan 
and the EIS. Frankly, it's just simply too much for the average 
citizen to comprehend, let alone review and digest.
    These massive piles of documents do not do one thing to 
improve the visitor experience for Yosemite Valley. I 
understand that they are part of the mandated planning process, 
that they provide a basis for actions, that they cost a lot and 
that they keep numerous graphic designers employed. But they 
serve to confuse and distract from the purpose of the Park 
Service, to be good stewards to the resources and facilities 
that it is charged to manage.
    To the substance of the plan, in sum, the implementation of 
the Yosemite Plan and the EIS will cost about $441 million in 
one-time funds, and an increase of over $10 million in annual 
spending, in annual operating funding, and large increases in 
the number of Federal employees serving the Park.
    It will do this, while at the same time reduce the services 
available to the public--the roads, the bridges, parking 
spaces, stables, camping and lodging units and convenience 
which provide service for the owners of the Park, the American 
taxpayer.
    This analysis would lead one to start the planning process 
over, but I must confess that I don't have the patience for 
this kind of paperwork. I don't think anybody wants to start 
from ground one, in a process that took over 20 years to 
develop.
    My goal is that the Park Service implement the most 
incremental, least cost, and least disruptive elements of the 
flood recovery and park improvements first, and reevaluate each 
step as the public experiences the improvements. Renovations 
and rebuilding required by the flood must be first on the list, 
and other projects that have obvious merit should be pursued.
    There are numerous projects contained in the details of 
this plan that I do support and that I want to ensure get 
accomplished as soon as feasible within the constraints of the 
law. For example, transfer of park and concessionaire 
administrative activities into the gateway communities of 
Oakhurst, Mariposa, and elsewhere.
    The old warehouse and other facilities in the Park were 
replaced in El Portal, yet the old facilities have not been 
removed and they should be removed.
    Public/private partnerships for the development of new 
employee housing in the gateway communities should move 
forward, where appropriate. Employee housing in the Valley for 
those employees who are required to be near their work was 
destroyed in the flood and needs to be replaced.
    Campgrounds that were an integral part of the visitors' 
public enjoyment of the Park were closed and have not been 
reopened since 1997. Specifically, the upper and lower river 
campgrounds, they need to be renovated, repaired and reopened. 
And then traffic patterns causing congestion and confusion for 
the visiting public have been identified and these bottlenecks 
need to be fixed.
    These projects need to be completed quickly. Funds are 
available for most of these projects as a result of the 
appropriation which Congress made for the flood recovery, from 
the flood of 1997, and from Park visitor fees retained by the 
Park, from donations made to the Park for improvements and from 
capital improvement funds contributed by the concessionaire.
    There are many elements of the plan that I do not support. 
The most important in the long run is the over-reliance of the 
plan on the success of the Yosemite Area Regional Transit 
System, also known as YARTS. This system depends upon the 
provision of some $850,000 per year of specially approved funds 
from Congress. We have not considered or approved this request, 
and until we have, I believe the Park Service must make 
available sufficient parking and related infrastructure within 
the Valley to support the public.
    We cannot support a plan that prevents the visiting public 
from enjoying their park. Eliminating parking spaces in the 
Valley will do just that. I, therefore, do not support that 
element of the plan.
    The Park Service has provided a plan that relies on YARTS 
nine months out of the year. Instead, I have asked the Park 
Service to provide an analysis of the level of parking required 
in order to meet the demands of the visiting public at least 
nine months per year without YARTS. Many of my constituents 
claim that the Park Service has already reduced the number of 
parking spaces in the Valley by as many as 3,300 spaces. I am 
not sure what the real number is, but I do know that 550 spaces 
provided in this plan are inadequate by any measure.
    Earlier I commented on the sources of funds available to 
the Superintendent to accomplish the goals of the plan. One 
concern that you will hear today is that Congress cannot 
adequately monitor the implementation of the plan because there 
are too many discretionary sources of funds available to be 
spent without further congressional review. This is true and is 
of concern that I intend to correct, with your help, Mr. 
Chairman, through continued oversight by this Subcommittee, 
through the appropriations process, and through my continued 
personal and direct involvement in the implementation of this 
plan.
    I believe the planning process, as implemented by the 
National Park Service, in this case is fatally flawed. Further 
review, in conjunction with gateway communities concerning the 
economic, infrastructure and land use impacts of the proposed 
actions needs to be accomplished before the plan is finalized.
    I recognize that Mr. Babbitt, while he was Secretary of 
Interior, committed to and accomplished a record of decision 
for this plan prior to leaving office. I believe that, in this 
case, as with other cases under the Clinton administration, the 
plan was finalized because review by the new administration 
would find that the conclusions were not supported by the 
facts.
    Since that administration would not and could not be held 
accountable as it left office, arbitrary decisions were fair 
game. We need to hold the Clinton administration accountable 
and to stay the record of decision until the Department of 
Interior has appropriate staff in place to evaluate the plan 
and its impact on the surrounding communities.
    I have asked the Secretary of Interior to take whatever 
action is necessary to accomplish this because, as you will 
hear today, a consensus has not been established in the 
surrounding communities. In fact, my constituents believe that 
they have not been heard throughout the park planning process.
    Last year, I introduced the Gateway Communities Cooperation 
Act and will shortly reintroduce it. That Act will require 
Federal land managers to consult with, assist and support local 
gateway communities that are affected by such massive planning 
efforts. The gateway communities in my district do not have the 
resources available to fully participate in such huge planning 
efforts, nor do the Federal land managers have the mandate from 
this Congress to involve their local gateways in these efforts. 
We need to correct that, and I will ask the Subcommittee to 
move the legislation so that such an oversight will never 
happen again.
    Mr. Chairman, thank you for allowing me to provide this 
input at the beginning of this hearing, and to display the 
incredible plan that we have before us. I look forward to the 
testimony of the panels.
    [The prepared statement of Mr. Radanovich follows:]

   Statement of The Honorable George Radanovich, a Representative in 
                 Congress from the State of California

    Chairman Hefley, thank you very much for the opportunity to submit 
this statement on the Final Yosemite Valley Plan and Supplemental 
Environmental Impact Statement, and the related concerns, comments and 
issues identified by gateway communities, concessionaires and 
interested parties. This plan and planning process has had a 
significant impact on my district. More importantly, the plan will set 
the direction for Yosemite Valley for the foreseeable future. That 
future is important; to the health and vitality of the communities I 
represent, and to our neighbors.
    Let me first say that Yosemite Valley is in my district, and that I 
grew up not far from that valley. I. have a direct personal knowledge 
and involvement in what happens in Yosemite and in the mutual 
dependence of gateway communities on the park, and of the park on the 
gateway communities. This interdependence cannot be overstated, and I 
think part of the controversy we will hear about today is based upon 
the concern that the Park Service does not fully embrace the importance 
of the gateway community relationship.
    Mr. Chairman, I have been personally involved in the formulation of 
the Yosemite Valley plan in all its manifestations dating back to the 
1980 General Management Plan. Since that original plan, Yosemite has 
been studied, prodded, poked and written about by numerous park 
planners with ideas ranging from massive bridges across the valley to 
multi-story parking garages in the valley itself, to trains, guide-ways 
and monorails. As I was leaving my office this morning I pulled out the 
plans that were available on my bookshelf. I believe that this pile of 
documents demonstrates one of the problems with the Yosemite Valley 
Plan & EIS - it is simply too much for the average citizen, even one 
who is directly affected by it - to review and digest.
    These massive piles of documents do not do one thing to improve the 
visitor experience in Yosemite Valley. I understand that they are part 
of mandated planning processes, that they provide a basis for actions, 
that they cost a lot, and that they keep numerous graphic designers 
employed. But they serve to confuse and distract from the purpose of 
the Park Service to be a good steward of the resources and facilities 
it is responsible to manage.
    Let's move on to the substance of the plan that this subcommittee 
is charged to review. In sum, implementation of the Yosemite Valley 
Plan and EIS will cost $441 million in one-time funds, over $10 million 
in annual operational funding, and large increases in the number of 
federal employees serving in the Park. It will do this while at the 
same time reducing the services available to the public - the roads, 
bridges, parking places, stables, camping and lodging units and 
conveniences which provide service for the owners of the park, the 
American taxpayer. This analysis would lead one to want to start the 
planning process over, but I must confess to not having the patience 
for more of this paperwork.
    My goal is that the Park Service implement the incremental, least 
cost, least disruptive elements of flood recovery and park improvements 
first and re-evaluate each step as the public experiences the 
improvement. Renovations and rebuilding required by the flood must be 
first on the list. Other projects have obvious merit, and should be 
pursued. There are numerous projects contained in the details of this 
plan that I do support, and that I want to ensure get accomplished as 
soon as feasible within the constraints of the law. Examples of this 
include:
    <bullet> LTransfer of park and concessionaire administrative 
activities into the gateway communities of Oakhurst, Mariposa and 
elsewhere;
    <bullet> LThe old warehouse and other facilities in the valley were 
replaced in El Portal, and then old facility never removed. Let's 
remove it;
    <bullet> LPublic-Private partnerships for the development of new 
employee housing in the gateway communities should move forward where 
appropriate;
    <bullet> LEmployee housing in the valley for those employees which 
are required to be near their work was destroyed in the flood in 1997, 
and needs to be replaced;
    <bullet> LCampgrounds that were an integral part of the visiting 
public's enjoyment of the park were closed, and have not been reopened 
since 1997. Specifically, Upper and Lower River Campgrounds need to be 
renovated and reopened.
    <bullet> LTraffic patterns causing congestion and confusion for the 
visiting public have been identified. These bottlenecks need to be 
fixed.
    These projects need to be completed quickly. Funds are available 
for most of these projects as a result of an appropriation which made 
by Congress for flood recovery, from park visitor fees, retained by the 
Park, from donations made to the Park for improvements and from capital 
improvement funds contributed by the concessionaire.
    There are many, elements of the plan that I do not support. .The 
most important in the long run is the reliance of the plan on the 
success of the Yosemite Area Regional Transit System (YARTS). This 
system depends upon provision of some $850,000 per year of specially 
appropriated funds from Congress. We have not considered or approved 
this request, and until we have, I believe the park service must make 
available sufficient parking and related. infrastructure within the 
valley to support the public. We cannot support a plan that prevents 
the visiting public from enjoying their park. Eliminating parking 
spaces in the Valley will do just that, and therefore I do not support 
that element of the plan. .
    The park service has provided a plan that relies on YARTS nine 
months per year. Instead, I have asked the park service to provide an 
analysis of the level of parking required in order to meet the demands 
of the visiting public at least nine months per year without YARTS. 
Many of my constituents claim that the park service has already reduced 
the number of parking places in the valley by as many as 3,300 spaces. 
I do not know what the real number is, but I do know that the 550 
spaces provided in this plan are inadequate by any measure.
    Earlier, I commented on the sources of funds available to the 
Superintendent to accomplish the goals of the plan. One concern that 
you will hear today is that Congress cannot adequately monitor the 
implementation of the plan because there are too many discretionary 
sources of funds available to be spent without further congressional 
review. This is true, and is a concern that I intend to correct with 
your help, Mr. Chairman, through continued oversight by this 
subcommittee, through the appropriations process and through my 
continued personal and direct involvement in the implementation of this 
plan.
    I believe that the planning process as implemented by the National 
Park Service in this case is fatally flawed. Further review in 
conjunction with the gateway communities concerning the economic, 
infrastructure and land-use impacts of the proposed actions needs to be 
accomplished BEFORE the plan is finalized. I recognize that Mr. 
Babbitt, while he was Secretary of the Interior, committed to and 
accomplished a Record of Decision for this plan prior to leaving 
office. I believe that in this case, as with other cases under the 
Clinton administration, the plan was finalized because review by a new 
administration would find that the conclusions were not supported by 
the facts.
    Since that administration would not and could not be held 
accountable as it left office, arbitrary decisions were fair game. We 
need to hold the Clinton administration accountable and to stay the 
Record of Decision until the Department of Interior has appropriate 
staff in place to evaluate the plan and it impacts on the surrounding 
communities. I have asked the Secretary of the Interior to take 
whatever action is necessary to accomplish this stay because, as you 
will hear today, a consensus has not been established in the 
surrounding communities. In fact, my constituents believe that they 
have not been heard throughout the park planning process.
    Last year, I introduced the Gateway Communities Cooperation Act and 
will shortly reintroduce it. That act will require federal land 
managers to consult with, assist and support local gateway communities 
that are affected by such massive planning efforts. The gateway 
communities in my district do not have the resources available to fully 
participate in such huge planning efforts, nor do the federal land 
managers have the mandate from this Congress to involve their local 
gateways in these efforts. We need to correct that. I will ask this 
subcommittee to move the legislation so that such an oversight will 
never happen again.
    Mr. Chairman, I look forward to the testimony from our panels today 
concerning the Yosemite Valley Plan and Final EIS. I believe that 
today's hearing will highlight the important role of gateway 
communities in federal planning efforts, and provide a new look at the 
future of the Crown Jewel of the National Parks, Yosemite.
    Thank you for your time.
                                 ______
                                 
    Mr. Hefley. Thank you, Mr. Radanovich.
    Is there anyone else who has an opening statement they 
would like to make?
    Mr. Souder. Mr. Chairman, I do not have an opening 
statement, but I would like to insert a statement at a later 
point. I was at Yosemite again the weekend before last and I'm 
interested in hearing the testimony today and learning from the 
witnesses.
    Thank you.
    Mr. Hefley. Without objection.
    [The prepared statement of Mr. Souder follows:]

 Statement by The Honorable Mark Souder, A Representative in Congress 
                       from the State of Indiana

    Thank you Mr. Chairman for holding this important hearing. Yosemite 
National Park is indisputably one of our world's foremost natural 
wonders. Yosemite Valley, with its towering waterfalls and massive 
granite walls, impresses visitors from all over the world, young and 
old.
    It is perhaps our greatest challenge to balance the desire of 
increasing numbers to see the greatest wonders of the world--Yosemite 
Valley, Grand Canyon, Old Faithful in Yellowstone, Glacier Bay--without 
so degrading the experience that it is no longer memorable in a 
positive sense. Visitors expect to be awed with nature, not fumes, 
smog, trash and jockeying for a view.
    But we are not arguing over pristine environments. Long ago, 
Americans decided that providing the opportunity for many to view those 
magnificent wonders superseded the desire of some to return them to 
pristine wilderness or the preserve of a privileged few. It is 
important to preserve wilderness--with limited or no access--but 
Yosemite Valley is not such a place.
    What today's hearing focuses on is the attempt to achieve a 
balance. Sometimes those on opposing sides imply the other is either 
for total elimination of human impact or for paving over the last grass 
in the Valley. The American people not only don't support such radical 
viewpoints, but they are pretty firmly in the middle: give us 
reasonable access and stop the drama. The problems addressed in this 
hearing is illustrative not only of the problem facing Yosemite 
National Park but in many--if not most--of our national parks.
    Since I joined this Subcommittee, I have visited Yosemite National 
Park twice, including just over a week ago. Over the last two years I 
have systematically been visiting our national parks to discuss 
challenges facing the parks with park superintendents and staff. My 
meetings and visits have included large and small parks, as well as 
natural and cultural parks. These include, but are not limited to, at 
least one visit to these natural parks: Yosemite, Yellowstone, Glacier, 
Mt. Rainier, Grand Canyon, Everglades, Olympic, Grand Teton, Denali, 
Kenai Fjords, Theodore Roosevelt and Indiana Dunes National Lakeshore; 
to these cultural parks: Independence, Gettysburg, Fort Clatsop, Golden 
Spike, Lincoln Home, and Mount Rushmore; and combination parks like 
Golden Gate NRA (including the Presidio) and Gateway NRA (including 
Ellis Island). What becomes apparent is that problems are not unique, 
though specific variations may be.
    Today's hearing on the Yosemite Valley Plan highlights a number of 
the major challenges. I would like to review a few of them.
    1) Traffic congestion in the most popular areas
    Yosemite, Grand Canyon and Zion are each developing plans limiting 
automobile usage. Each is different. But today's discussion on Yosemite 
highlights several points.
    a) Traffic congestion is not a year -around problem. It peaks at 
certain times--usually the summer season. Yet solutions tend to be 
restrictive of automobile use year around, or at least beyond the peak 
of the normal bell curve.
    b) The cost of mass transit alternatives is high thus tending to 
attempt to maximize (i.e. force) as many auto passengers out of their 
cars, even if it means limiting them at off-season times and by greater 
amounts than necessary.
    c) The cost of mass transit adds to pressures to reduce parking 
spaces in the sought after locations even if additional spaces could be 
allowed in management plans such as the Yosemite Valley Plan.
    d) Other options need to be pursued such as charging higher fees 
for such parking as is done at airports (e.g. high rates for close 
access, none or minimal for ``satellite lots'') Those dollars could 
then help subsidize a shorter season mass transit solution, especially 
with adequate parking spaces.
    2) Historical/cultural preservation versus natural preservation
    At fifty years cultural resources come under the Historic 
Preservation guidelines. Because this law is universal, it at times has 
lead to the unintended consequence of letting structures deteriorate 
that may have been worthy of preserving because scarce dollars and 
resources must be spent on less significant structures. It also leads 
to conflict such as at Gettysburg, where a truly significant historic 
structure sits on one of the nation's most culturally significant 
pieces of land.
    a) At Yosemite one such issue that appears to be resolved is the 
preservation (through moving) the historic superintendent's office 
which sits on a flood plain, and was seriously flooded. It clearly 
needed to be preserved--its historic significance is directly related 
to Yosemite Park's history.
    b) There is a debate about the usage of other buildings in Yosemite 
Village. These buildings are of also great significance to the Park's 
history. Hopefully creative solutions can be found similar to these 
being pursued at Grand Canyon Village and Longmire at Mt. Rainier 
National Park.
    c) There is a debate about a number of historic footbridges. This 
is the type of debate that needs some serious re-evaluation of the 
current system (though at least the current law forces such a debate, 
not just a tear-down). The bridges apparently alter the natural flow of 
the Merced River, a National Scenic River. Of all the cultural 
resources in our natural Parks, a strong argument can be made that 
structures that epitomize the ``National Park'' look are the most 
important to preserve. Those include the great historic inns like Many 
Glacier Lodge, El Tovor, Old Faithful and Ahwanee; the works of 
Underwood and Coulter, the landscaping of Olmsted. But the broadest 
application is the WPA ``park look''. Bridgework is one of the best 
examples of this type of architecture. The Yosemite Valley Plan 
proposes to remove one, and study the impact. But once again, the key 
point here is that we need to develop and approach that combines 
historic significance, natural importance of the impacted area, and 
visitor impact (which at a minimum, should break ``ties'').
    3) National Scenic River and other environmental guidelines
    Let me state this clearly: I support the goals of the National 
Scenic River legislation. It has been and will continue to be a vital 
way to continue to clean up our most scenic rivers. The challenges are 
many. Obviously, a scenic river that has been highly developed along 
its river banks is going to be treated differently than in a wilderness 
area. The debates in Yosemite about the Merced River are interesting 
because they are not as not as clear cut. The Merced is gorgeous as it 
meanders through the Valley, and then cuts its way out.
    a) But the Merced River is already significantly altered. Today's 
visitors who enter Yosemite Park have no desire to repeat the 
experiences of John Muir. Few had the time to wander then and few do 
now. To access the road at the El Portal entrance, the Merced River was 
``controlled''. It still has enough force (and speed) to alter its 
riverbed during the last major flood, but it is significantly altered. 
The goal should be minimal further alteration, but the Park Service 
should be commended for its attempts to improve the safety of the road 
with minimal river damage. The small environmental groups that are 
suing to stop such improvement should be accountable to lawsuit if 
someone is hurt or killed because of their grandstanding.
    b) It is not an easy question as to removing culturally significant 
structures to let the Merced River discover its ``natural'' course in 
the Valley. Moving the Superintendent's residence makes sense because 
the flooding damages the building. The riprap of the disputed bridges 
may alter the flow but the question here is destruction of a structure 
that is not endangered. Perhaps, all things considered, the first 
bridge should be removed as a trial, but visitor usage should also be a 
factor.
    4) Closing the horse trails in Yosemite Valley
    Once again, this issue is debated in other areas as well. Clearly 
horseback riding is a historic usage within a National Park. In fact, 
other than hiking, it is probably the oldest. (And few, if any, of the 
earliest hikers didn't have a horse or mule.) Banning horseback riding 
would be akin to banning camping. It is not like the firefalls at 
Yosemite that delighted visitors for years, nor is it like feeding the 
bears. They may have been traditions but were ``artificial'' creations 
for entertainment (and did impact natural behavior). This is also not 
snowmobiling, air overflights, or engine -powered motorcraft--about 
which there is much legitimate despite.
    But just because horses are allowed, does not mean that they need 
to be allowed everywhere in the park. It is an especially thorny issue 
when people are packed into a small area of the park, like in Yosemite 
Valley. As a general rule, it seems that when one visitors experience 
negatively impacts a large number of visitors, changes are in order. 
With a limited number of valley trails, mutual enjoyment is difficult. 
Therefore, as long as the service is provided and not reduced, and 
scenic alternatives are found, Valley limitations seem to make sense.
    5) Numbers of lodging and camping sites
    There is a clear trend toward reducing overnight accommodations 
inside our national parks. This clearly is not responding to visitor 
demand: it flies in the face of it. It is one thing to argue that 
additional accommodations should not be added, and should instead be 
added in gateway communities (often in national forests). It seems like 
that whenever a Park develops a plan, they universally have a proposal 
to reduce overnight accommodations. Not only is it not visitor 
requested, it is, at most for negligible environmental gain.
    Moving campground spaces at Yosemite and other parks because of 
issues like rock slides or flooding may be needed but then attempting 
to maintain the number should be undertaken. (At Yosemite, to pre-flood 
levels).
    6) Gateway communities
    Nearly every park has inevitable conflicts with the gateway 
communities. From my experience, each park superintendent spends a lot 
of their time working with these communities (in disproportion to their 
numbers--visitors and taxpayers, being far larger constituencies). 
Furthermore, gateway community leaders almost always say to the 
superintendent (or the Park Service) is unresponsive if they don't get 
their way.
    But gateway communities do have a vital interest in each park and, 
quite frankly, are part of the ``National Park experience'' for most 
Americans. To not work with them would be shortsighted and counter-
productive for visitors and those of us who fund the National Parks. 
Issues include lodging, food services, recreation, and wildlife issues 
(e.g. wolves, elks, bears) just to name a few.
    As a business person with a background in retailing, it is amazing 
to me to note the often limited vision of the gateway community 
business leaders. While visitors may prefer, when given the choice, to 
stay overnight inside the park, it benefits gateway communities if the 
Park Service limits overnight accommodation, for example. It is 
obviously clear that all across America excellent accommodations--along 
with other visitor services like food, shopping, entertainment (e.g. 
IMAX theaters and museums as well as supplemental visitor centers) and 
recreation- are booming in gateway communities. It is not clear that 
the National Park Service has diminished interest in visiting the parks 
by limitations on visitor services. But it is a delicate balance. The 
criteria to be evaluated at parks like Yosemite include: Does a 
proposed transportation system create a disadvantage for one gateway 
community over another? At what point do rising fees discourage visits? 
(And which visitors, day, overnight or once-in-a-lifetime)? From the 
gateway merchants perspective--can visitors be enticed into extending 
their stay by having more entertainment options at the edges of the 
parks? From a business standpoint, that is their best financial 
opportunity.
    7) Employee and Concessionaire Housing
    This is a critical issue in nearly every park. Some is sub-
standard. Some is far away, making transportation costs increasingly 
prohibitive for many park employees. The Yosemite Valley plan proposes 
to move some employee housing to El Portal at the edge of the Park. 
They have already moved- logically -park services that don't need to be 
in the valley to El Portal. Some of the moves make sense, even if it is 
also understandable that people would prefer Valley housing. But for 
those who must commute in, transfer costs are serious. Furthermore, 
inside parks if more and more employees are removed it is going to be 
an increasing problem to provide adequate schooling for the children of 
remaining employees without resorting to lengthy bus journeys.
    8) Demonstration Fees
    Two points-they should be made permanent and superintendent should 
be given more flexibility to utilize them. Excellent visitor friendly 
projects have been developed in most parks, including Yosemite. 
Analysis should be made about using fees for personnel but should only 
be done after careful debate about consequences.
    9) Private support groups like the Yosemite Fund
    The Yosemite Fund, and groups like it, are critical to the 
preservation of our parks. In Congress we need to stimulate further 
charitable giving through the tax code. While I was recently in 
Yosemite, I visited a Yosemite Fund Session with scientific researchers 
who study all the aspects of Yosemite's natural history. It is a living 
laboratory for Yosemite Park and university researchers. The Yosemite 
Fund is working with researchers to make sure the research is 
coordinated with what is most needed to make wise decisions.
    I also met with major Yosemite Fund donors who are working to raise 
over ten million dollars to redo the chaotic Yosemite Falls visitor 
area. We need to constantly thank those thousands of families who give 
additional dollars to the park they love. Those contributors should not 
be viewed as a lessening of the obligation of the general taxpayer, but 
rather a resounding vote of the confidence by citizens in the priority 
of that particular park. One way to determine whether a park has public 
support or was a ``pork barrel'' project of a Member of Congress (or a 
President) is whether it has support public financial support. The 
concept of ``crown jewels'' is hotly debated, but the size and 
membership diversity of some parks non-profit groups (often multiple 
ones) proves the point. Yosemite and Yellowstone, Independence Hall and 
Gettysburg, to name a few, are in fact, different than your average 
park.
                                 ______
                                 
    Mr. Hefley. Our first panel will be made up of Mr. 
Doolittle, from the 4th District of California, a district 
which encompasses about half of the Park. Is that correct, Mr. 
Doolittle?
    Mr. Doolittle. That's right, Mr. Chairman. Between Mr. 
Radanovich and me, we encompass the entire Park. I have the 
high country and he has the Valley.
    Mr. Hefley. I see. Well, we would recognize you then for 
your statement.

STATEMENT OF THE HONORABLE JOHN T. DOOLITTLE, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Doolittle. Thank you very much, Mr. Chairman, 
distinguished members. I appreciate the opportunity to rejoin 
you today for this hearing. Yosemite is obviously a vital 
national treasure, and it's a privilege to represent a portion 
of it.
    I would like to specifically express my thanks to my 
colleague, Representative George Radanovich. His district, as 
we mentioned, together with mine, do encompass the Park, and he 
has displayed tireless efforts to maintain continued public 
access. Those have been very well received throughout our 
shared region. I know that the Tuolumne County Counsel, Gregory 
Oliver, is here as well, and I especially appreciate him making 
the long trip to Washington to represent the views of my 
constituents, and you will hear from him on the third panel, I 
believe.
    As we all know, Yosemite National Park has long been an 
international travel destination, drawing millions of tourists 
every year to marvel at breathtaking waterfalls, Giant 
Sequoias, and plentiful wildlife. I have long appreciated the 
beauty Yosemite has to offer, and have made it a priority to 
preserve this national treasure for future generations to 
enjoy.
    However, I believe very strongly that we should seek to 
accomplish that objective without compromising the visitor 
experience and without unnecessarily impacting the economies of 
the communities that lie at the gateway to the Park. It is in 
these two/ areas that the Valley Plan falls woefully short.
    First, the plan, as Mr. Radanovich mentioned, has 
unnecessarily and unfortunately decreased the amount of parking 
spaces in the Valley. You know, this reminds me, this is kind 
of a ``Jerry Brown'' approach to transportation. You just don't 
build freeways and somehow we're going to solve the problem. 
Mr. Chairman, this is a problem. Taking out those parking 
spaces is something I am strongly opposed to.
    Now, there is a congestion problem at times in the Valley, 
and it's a heavy congestion problem. Those problems are not 
good for the Park or for the visitors. However, I want to 
emphasize congestion, at that level, only exists a few days per 
year, and for those days, a more efficient traffic management 
strategy is needed. But permanently reducing the number of 
parking spaces would only result in unnecessarily hampering the 
ease of visitation for many day-use travelers during times of 
the year when traffic volume is low. As such, I will continue 
to seek alternatives that reduce congestion while preserving 
auto touring as a viable means for all to visit the Park.
    I don't know how many of our members have actually been to 
Yosemite but, obviously, it's possible to enter one way and 
leave another, and to cross the mountains in the process. It's 
a great way to see features of Yosemite without having to make 
that your end destination. We want to preserve that. But if 
there's no place for you to park once you drive into the Park, 
you're not going to be able to see the Park. You'll just have 
to keep on going. I think that's a great injustice to the day-
use visitors.
    Second, Mr. Chairman, I object to the Plan's severe 
reduction in the number of overnight accommodations under the 
guise of flood management. As one who has been very supportive 
of the Park's efforts to obtain Federal funds to repair damage 
resulting from the 1997 floods, it is disheartening to see 
those appropriations being used to impede the visitor's ability 
to enjoy what is perhaps the Park's greatest appeal--one's 
ability to spend the night under the stars in one of the most 
beautiful places in the world.
    Third, although Housekeeping Bridge will remain under the 
Plan to provide access across the Merced River, the removal of 
Sugar Pine and Stoneman Bridges remains in the Plan.
    Now, maybe this is just nostalgia on my part, but when we 
used to go camping in the Valley, we would camp on one side of 
the Merced River and cross Stoneman Bridge to reach Camp Curry, 
which had the store with the candy and, you know, all the 
``fun'' stuff. It's a marvelous old bridge. It looks like some 
of the beautiful stone work you see on the GW Parkway. It's all 
nicely assembled. Those two bridges are a great part of the 
culture and the history of Yosemite Valley, and I think it 
would be a travesty to cause those to be removed. So I join 
many of my constituents in objecting to the elimination of 
these historic and valued attributes of Yosemite.
    Fourth, I am very much opposed to the removal of horse 
stables from the Valley and the elimination of commercial trail 
rides. As one who has personally utilized these stables, I can 
attest to the enjoyable and historical experience they provide 
to many of the Park's visitors. I might add, I still remember 
how sorry I felt after my eight-hour trip up and eight-hour 
trip down--I think it was eight hours--to get to the back of 
Half Dome. But horses belong in the Valley. It would be a shame 
to force them out. I think diversity in the type of experience 
visitors can enjoy has the effect of spreading out congestion 
in the Valley, which would otherwise be more concentrated under 
this restrictive Plan.
    Finally, I am concerned with the manner in which the 
Clinton administration force-fed this plan to the people of 
this country. Former Interior Secretary Babbitt's refusal to 
extend the diminutive public comment period of a plan that has 
been 20 years in the making was very disappointing. 
Furthermore, I received a copy of the Merced River Plan Record 
of Decision, a plan critical to the implementation of the 
Yosemite Valley Plan, a mere four days prior to the end of the 
public comment period for the Valley Plan. Needless to say, 
ample time for both my constituents and me to fully digest and 
comment on the Plan was effectively denied.
    Overall, Mr. Chairman, I believe that the Yosemite Valley 
Plan significantly limits the ability of visitors to enjoy the 
Park. When this ability is eroded, the value of the Park, as 
well as the economies of the gateway communities, is 
compromised. This result is unnecessary, and I encourage Park 
officials to develop a more appropriate balance between visitor 
experience and protection of the Park. I am further encouraged 
that the new Bush administration has signaled a greater 
willingness to work with communities when developing policies 
that impact them on such a significant level.
    I thank you, Mr. Chairman, for holding this important 
hearing, and I thank our witnesses for their contributions and 
their interest in preserving the beauty of and the continued 
access to Yosemite National Park. I look forward to the 
testimony.
    [The prepared statement of Mr. Doolittle follows:]

   Statement of The Honorable John T. Doolittle, a Representative in 
                 Congress from the State of California

    I would like to thank Chairman Hefley for holding this hearing on 
this very important matter, the Yosemite Valley Plan. Also, I would 
like to express my thanks to my colleague, Congressman George 
Radanovich. His district together with mine contains Yosemite National 
Park, and his tireless efforts to maintain continued public access have 
been well received throughout our shared region. I know that Tuolumne 
County Counsel, George Oliver, is here as well, and I especially 
appreciate him making the long trip here to represent the views of my 
constituents.
    As you all know, Yosemite National Park has long been an 
international travel destination, drawing millions of tourists every 
year to marvel at breathtaking waterfalls, Giant Sequoias, and 
plentiful wildlife. I have long appreciated the beauty Yosemite has to 
offer, and have made it a priority to preserve this national treasure 
for future generations to enjoy. However, I believe very strongly that 
we should seek to accomplish that objective without compromising the 
visitor experience and unnecessarily impacting the economies of the 
communities that lie at the gateway to the Park. It is in these two 
areas that the Valley Plan falls short.
    First, the Plan has unnecessarily and unfortunately decreased the 
amount of parking spaces in the Valley. I am well aware that at times, 
Yosemite Valley experiences heavy traffic congestion, and that such 
congestion is neither good for the Park or for the visitor. However, 
congestion of this level only exists a few days per year, and for those 
days, a more efficient traffic management strategy is needed. But 
permanently reducing the number of parking spaces would only result in 
unnecessarily hampering the ease of visitation for many day use 
travelers during times of the year when traffic volume is low. As such, 
I will continue to seek alternatives that reduce congestion while 
preserving auto touring as a viable means for all to visit the Park.
    Secondly, I object to the Plan's severe reduction in the number of 
overnight accommodations under the guise of flood management. As one 
who has been very supportive of the Park's efforts to obtain federal 
funds to repair damage resulting from the 1997 floods, it is 
disheartening to see those appropriations being used to impede the 
visitor's ability to enjoy what is perhaps the Park's greatest appeal - 
one's ability to spend the night under the stars in one of the most 
beautiful places in the world.
    Third, although Housekeeping Bridge will remain under the Plan to 
provide access across the Merced River, the removal of Sugar Pine and 
Stoneman Bridges remains in the Plan. I join many of my constituents in 
objecting to the elimination of these historic and valued attributes of 
Yosemite.
    Fourth, I am very much opposed to the removal of horse stables from 
the Valley and the elimination of commercial trail rides. As one who 
has personally utilized these stables, I can attest to the enjoyable 
and historical experience they provide to many of the Park's visitors. 
Diversity in the type of experience visitors can enjoy has the effect 
of spreading out congestion in the Valley, which would otherwise be 
more concentrated under this restrictive Plan.
    Finally and most importantly, I am concerned with the manner in 
which the Clinton Administration force-fed this plan to the people of 
this country. Former Interior Secretary Babbitt's disgraceful refusal 
to extend the diminutive public comment period of a plan that has been 
20 years in the making is nothing but a total affront to our democratic 
system. Furthermore, it is absolutely appalling that I received a copy 
of the Merced River Plan Record of Decision - a plan critical to the 
implementation of the Yosemite Valley Plan - a mere four days prior to 
the end of the public comment period for the Valley Plan. Needless to 
say, ample time for both my constituents and me to fully digest and 
comment on the Plan was effectively denied.
    Overall, I believe that the Yosemite Valley Plan significantly 
limits the ability of visitors to enjoy the Park. When this ability is 
eroded, the value of the Park, as well as the economies of the gateway 
communities, is compromised. The result is unnecessary, and I encourage 
Park officials to develop a more appropriate balance between visitor 
experience and the protection of the Park. I am further encouraged that 
the new Bush Administration has signaled a greater willingness to work 
with communities when developing policies that impact them on such a 
significant level.
    Again, I thank the Chairman for holding this very important 
hearing, and I thank these panels of witnesses for their contributions 
and great interest in preserving the beauty of, and continued access 
to, Yosemite National Park.
                                 ______
                                 
    Mr. Hefley. Any questions for Mr. Doolittle?
    Mr. Souder. Mr. Chairman, I have one.
    Mr. Hefley. Yes. You're recognized for five minutes.
    Mr. Souder. Mr. Doolittle, obviously, since the upper part 
of the Park is closed during the winter, the eastern gateway, 
Tioga Pass and that area in your district, would be most 
heavily impacted by this.
    Do you have any visitation figures for how many people 
would stay at the gateway community and then come into the Park 
and exit at another point?
    Mr. Doolittle. You know, I don't have that at my 
fingertips, but I will provide them for the record, because the 
figures illustrate just how significant having the road open is 
to our gateway communities. It means--as I recall, it's 
hundreds of thousands of dollars a day when people have the 
ability to go through the Park. So every day beyond Memorial 
Day that that road isn't open is of great concern to us.
    Mr. Souder. The time to enter from the east side, going 
across Columbia Meadows and down into the Valley is about how 
long?
    Mr. Doolittle. You know, I have not entered the Park ever 
from the east side, but I believe that that would be, well, a 
good hour or more, probably, an hour-and-a-half.
    Mr. Souder. And then it's similar if you exited one of the 
other directions, you're 45 minutes to an hour?
    Mr. Doolittle. Yes. It would be more like an hour or so, I 
think.
    Mr. Souder. Okay. I thank the gentleman.
    Mr. Hefley. Thank you. Any further questions?
    With that, Mr. Doolittle, I do hope you will stay with us 
and participate fully in the hearing.
    Mr. Hefley. The next panel will be Mr. John Reynolds, 
Regional Director, Pacific West Region, National Park Service, 
San Francisco, California.
    At this point I would like to ask Mr. Radanovich to take 
the gavel and to chair the hearing. The Valley is in his 
district; he has a deep and abiding love for Yosemite National 
Park, and an interest in this Plan. So I would like, Mr. 
Radanovich, if you would care to, to come and chair the 
Subcommittee.
    Mr. Radanovich. [Presiding.] Thank you, Mr. Chairman.
    I think we will call the next panel up, but first, let me 
do one quick housekeeping thing. I do have a letter from the 
Mariposa County Unified School District that has some concerns 
regarding the Plan, and I would ask unanimous consent that it 
be included in the record. Hearing no objection, I will go 
ahead.
    [The letter follows:]
    [GRAPHIC] [TIFF OMITTED] T1353.013
    
    [GRAPHIC] [TIFF OMITTED] T1353.014
    
    Mr. Radanovich. Let's go ahead and start then with our 
first panel. That is John Reynolds, who is the Regional 
Director of the Pacific West Region of the National Park 
Service in San Francisco.
    John, welcome. We're glad that you were able to come 
testify today, and we look forward to your statement and 
follow-up questions.

STATEMENT OF JOHN J. REYNOLDS, REGIONAL DIRECTOR, PACIFIC WEST 
REGION, NATIONAL PARK SERVICE; ACCOMPANIED BY DAVID A. MIHALIC, 
             SUPERINTENDENT, YOSEMITE NATIONAL PARK

    Mr. Reynolds. Thank you, Congressman Radanovich, and thank 
you, Chairman Hefley. It's my pleasure to be here.
    My name is John Reynolds. I'm the Regional Director of the 
Pacific West Region of the National Park Service. I am here 
today to report on the Yosemite flood recovery efforts, the 
Yosemite Valley Plan, and how it relates to the flood recovery 
efforts.
    A major flood occurred at Yosemite National Park in 
January, 1997, causing significant damage throughout the Park. 
In July 1997, Congress appropriated $186 million for flood 
recovery repairs, with the proviso that these repairs be 
carried out to help implement the Park's 1980 General 
Management Plan. An additional $11 million of funding is 
available from the Federal Lands Highway Program, for a total 
flood recovery program of $197 million.
    We are on track with the flood recovery program. A 
substantial portion has been completed. Thirty-two miles of 
damaged roads throughout the Park have been repaired, and six 
miles of the El Portal Road has been completely reconstructed. 
One hundred-and-thirty eight miles of back-country trails have 
been reconstructed, 25 trail bridges have been repaired or 
rebuilt, and seven miles of paved bike paths have been 
reconstructed. The Park sustained substantial damage to the 
valley water, wastewater and electrical systems, and they have 
been repaired.
    Seventy-seven million dollars has been obligated to date. 
Of the balance, $106 million is for flood-affected facilities 
that are included in the Yosemite Valley Plan, with the 
remainder for flood damage repairs to infrastructure elsewhere 
in the Park, outside of Yosemite Valley.
    At the end of last year, I approved the Yosemite Valley 
Plan and Supplemental Environmental Impact Statement. This plan 
will implement many of the goals of the Park's 1980 General 
Management Plan, and will ensure Congress' direction that flood 
appropriations be used for this purpose. The 1980 plan 
established the broad goals to reclaim priceless natural 
beauty, to allow natural processes to prevail, to promote 
visitor understanding and enjoyment, to markedly reduce traffic 
congestion, and to reduce crowding. The Yosemite Valley Plan 
was guided by these goals.
    Since 1980, additional studies and analyses have been 
conducted, particularly related to natural processes, visitor 
enjoyment, transportation, and housing. In the early 1990's, 
work on specific improvement plans for housing in the Yosemite 
Valley and the Yosemite Falls area was started. These efforts 
took on greater urgency following the flood of 1997, with the 
need to replace visitor facilities damaged or destroyed by the 
flood. The flood reconstruction plan for Yosemite Lodge, in 
conjunction with other pre-flood plans, spurred litigation 
against the National Park Service over concerns about 
fragmented planning. This litigation resulted in the decision 
to create one comprehensive and integrated Yosemite Valley 
Plan.
    We will soon begin to obligate the balance of the flood 
recovery funds on those portions of the Yosemite Valley Plan 
that were affected by the 1997 flood. Campgrounds will be 
restored or relocated. Lodging units lost to the flood will be 
replaced at Yosemite Lodge and Curry Village. New facilities 
will be designed and located where they will not experience 
damage in future floods. Other projects include natural 
resource restoration and improved road circulation to reduce 
congestion and conflicts with people walking or riding 
bicycles.
    Beyond flood recovery, the Yosemite Valley Plan also 
identifies many important projects that would require 
additional funding and further approval from Congress and the 
administration before they could proceed. For these projects, 
we will do additional regulatory compliance that will involve 
extensive community and public review and input, specifically 
including the gateway communities.
    In the Yosemite Valley Plan, we commit to fulfilling our 
housing needs first in local communities. We have authority to 
create public/private partnerships to build and operate housing 
outside the Park. We intend to use private fundraising, where 
appropriate, such as that we are doing with the Yosemite Falls 
project. We would need to seek additional funding and approval 
before we could provide out-of-valley parking areas and 
associated shuttle systems.
    There are exciting opportunities underway by several of the 
local counties near the Park to develop regional transit that 
has dramatic potential for lessening the amount of capital 
expenditures called for in this Plan. Park visitors staying in 
nearby communities, leaving their cars in the motel lot and 
taking regional transit, could lessen the need to develop out-
of-valley parking and associated business systems in Yosemite.
    Yosemite Valley is only seven miles long, and less than one 
mile wide. The floor of the Valley is further constrained by 
rockfall zones on both sides, and the flood plain of the Merced 
Wild and Scenic River down the middle. Through the Yosemite 
Valley Plan and extensive public involvement and studies, we 
have addressed issues concerning space for campgrounds, tent 
cabins, historic hotels, roads, bike paths, parking lots, 
Housekeeping Camp and employee housing, while also providing 
for and conserving the very natural scenery that draws people 
to this very special park.
    For the draft plan, testimony was received at 14 public 
meetings throughout California. Public meetings were held in 
Denver, Seattle, Chicago, and Washington, D.C. We held over 60 
informal open houses and 59 walking tours to help people see, 
on the ground in the Valley, what the Plan proposed. We made 
150 presentations to interest groups and service clubs. This 
resulted in over 10,200 comments that were used to modify the 
Plan into the final Plan.
    While the majority of commenters acknowledge that 
recreational opportunities should continue to be available for 
Yosemite Valley visitors, people differ, obviously, in their 
opinions of what sort of activities should be allowed and how 
they should be managed. While these choices are difficult, I am 
pleased to report that traditional activities will, for the 
most part, continue at levels that fit within the rockfall 
hazard and flood plain that constrain us in Yosemite.
    Mr. Chairman, that concludes my remarks. I will be happy to 
answer any questions you or members may have.
    As you know, I have with me Superintendent Dave Mihalic of 
Yosemite, and I would appreciate your permission to invite him 
to the table with me, so that we may all benefit from the most 
knowledgeable answers to your questions as possible.
    Thank you for the opportunity to appear here today, sir.
    [The prepared statement of Mr. Reynolds follows:]

Statement of John J. Reynolds, Regional Director, Pacific West Region, 
         National Park Service, U.S. Department of the Interior

    Good morning Mr. Chairman and members of the subcommittee. My name 
is John J. Reynolds and I am Regional Director of the Pacific West 
Region of the National Park Service.
    I am here today to report on the Yosemite flood recovery efforts, 
the Yosemite Valley Plan and how it relates to the flood recovery 
efforts, and future projects that will require us to come back to 
Congress for more discussion.
    As you may recall, a major flood occurred at Yosemite National Park 
in January 1997 causing significant damage throughout the park. The 
damage was so severe that Yosemite Valley was closed to the public for 
three and one-half months and, in fact, reopened to the public four 
years ago this month. In July 1997, Congress appropriated $186 million 
for flood recovery repairs, with the proviso that these repairs be 
carried out to help implement the park's 1980 General Management Plan. 
An additional $11 million funding is available from the Federal Lands 
Highway Program, for a total flood recovery program of $197 million.
    I am pleased to report that since then, we are on track with the 
flood recovery program. A substantial portion of the flood recovery 
program has been completed, resulting in restoration of many different 
types of public services. For example, 32 miles of damaged roads 
throughout the park have been repaired and six miles of the El Portal 
Road, one of three major access roads to Yosemite Valley has been 
completely reconstructed. This road not only connects Highway 140 and 
Mariposa to the valley, but also provides the connection to the park's 
primary administrative and maintenance center in El Portal. Moreover, 
138 miles of backcountry trails have been reconstructed, 25 trail 
bridges have been repaired or rebuilt, and seven miles of paved bike 
paths have been reconstructed. The park sustained substantial damage to 
the valley water, wastewater and electrical systems, which has been 
repaired. This vital infrastructure is critical to supporting both park 
operations and visitor facilities.
    As of February 28, 2001, $77 million has been obligated. Of the 
balance, $106 million is for flood-affected facilities that are 
included in the Yosemite Valley Plan, with the remainder for flood 
damage repairs to infrastructure elsewhere in the park, outside of 
Yosemite Valley. More information on these projects can be found in the 
Flood Recovery Quarterly Report, which we routinely provide to 
Congress.
    At the end of last year, I approved the Yosemite Valley Plan and 
Supplemental Environmental Impact Statement. This plan will implement 
many of the goals of the park's 1980 General Management Plan and will 
ensure Congress'' direction that flood appropriations be used for this 
purpose. The 1980 plan established the broad goals to reclaim priceless 
natural beauty; allow natural processes to prevail; promote visitor 
understanding and enjoyment; markedly reduce traffic congestion; and 
reduce crowding. The Yosemite Valley Plan was guided by these goals.
    Since 1980, additional studies and analyses have been conducted, 
particularly related to natural processes, visitor enjoyment, 
transportation, and housing. In the early 1990's work on specific 
improvement plans for housing, Yosemite Valley, and the Yosemite Falls 
area was started. These efforts took on greater urgency following the 
flood of 1997 with the need to replace visitor facilities damaged or 
destroyed by the flood. The flood reconstruction plan for Yosemite 
Lodge, in conjunction with the other pre-flood plans, spurred 
litigation over concerns about fragmented planning. The litigation 
resulted in the decision to create one comprehensive and integrated 
Yosemite Valley Plan.
    With the completion of this plan for Yosemite Valley, we are now on 
track for completing the remainder of the flood recovery program. We 
will soon begin to obligate the balance of the flood recovery funds on 
those portions of the Yosemite Valley Plan that were affected by the 
1997 flood. For example, campgrounds will be restored or relocated to 
areas identified in the plan that are better able to sustain their 
impacts or do not, in themselves, cause impacts to the Merced Wild and 
Scenic River. Lodging units lost to the flood will be replaced at 
Yosemite Lodge and Curry Village. As detailed in the Flood Recovery 
Action Plan, new facilities will be designed and located where they 
will not experience damage in future floods of similar magnitude. Other 
projects include natural resource restoration and improved road 
circulation, to reduce congestion and conflicts with people walking or 
riding bicycles.
    Beyond flood recovery, the Yosemite Valley Plan also identifies 
many important projects that would require additional funding and 
further approval from Congress and the administration before they could 
proceed. For many of these projects, we will do additional regulatory 
compliance that will involve extensive public review and input, 
including input from the gateway communities. Some of these projects 
include moving additional employee housing and services out of Yosemite 
Valley.
    In the Yosemite Valley Plan, we commit to fulfilling our housing 
needs first in local communities. We have authority to create public-
private partnerships to build and operate housing outside the park. We 
intend to use private fundraising, where appropriate, such as what we 
are doing with the Yosemite Falls Project. We would need to seek 
additional funding and approval before we could provide out-of-valley 
parking areas and associated shuttle systems. However, there are 
exciting opportunities underway by several of the local counties near 
the park to develop regional transit that has dramatic potential for 
lessening the amount of capital expenditures called for in this plan. 
Park visitors staying in nearby communities, leaving their cars in the 
motel lot, and taking regional transit could lessen the need to develop 
out-of-valley parking lots and associated shuttle bus systems in 
Yosemite. In fact, motels in gateway communities could offer their 
guests a choice in how to visit the park.
    Mr. Chairman, Yosemite Valley is only seven miles long and less 
than one mile wide. The floor of the valley is further constrained by 
rockfall zones on both sides and the floodplain of the Merced Wild and 
Scenic River down the middle. Through the Yosemite Valley Plan and 
extensive public involvement and studies, we have addressed issues 
concerning space for campgrounds, tent cabins, historic hotels, roads, 
bike paths, parking lots, Housekeeping Camp, and employee housing, 
while also providing for and conserving the very natural scenery that 
draws people to the park.
    During the public comment period for the draft plan, testimony was 
received at 14 public meetings throughout California. Public meetings 
were held in Denver, Seattle, Chicago, and Washington, DC. In Yosemite 
Valley, we held over 60 informal open houses and 59 walking tours to 
help people see on the ground what the plan proposed. And we made 150 
presentations to interest groups and service clubs. This resulted in 
over 10,200 comments that were used to modify the draft and make 
changes in the final plan in response to public input.
    We have found that people are passionate in their opinions of what 
should, or should not happen in Yosemite, and their input is important. 
While the majority of commenters acknowledge that recreational 
opportunities should continue to be available for Yosemite Valley 
visitors, people differ in their opinions of what sort of activities 
should be allowed and how they should be managed. While these choices 
are difficult, I am pleased to report that traditional activities will, 
for the most part, continue at levels that fit within the rockfall 
hazard and flood plain that constrain us in Yosemite Valley.
    We are fortunate that with the funding opportunities of the flood 
recovery appropriations, the Fee Demonstration program, private 
donations, public-private partnerships, and future line item projects, 
we can implement the plan and restore natural processes and visitor 
services that are vital to the very values people come to Yosemite to 
enjoy--the meandering Merced River, the views of the thundering water 
falls and shadowed granite walls, the lush meadows and the wildlife 
that makes this valley its home.
    That concludes my remarks, Mr. Chairman. I will be happy to answer 
any questions that you or the members of the subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. Without objection for others to speak on 
your behalf, I don't see any dissent on that. So ordered.
    John, thanks for your testimony. The way I'm going to 
handle this, I'm going to ask a couple of questions and then 
we'll go quickly down. I would ask for--You know, typically the 
thing is five minutes per person. I want to make sure that 
everybody who has a question gets answers, but I don't want to 
take up all the time initially, either. So we're going to pass 
this baton along rather quickly, and we're going to go more 
than one round. If you don't get every question asked your 
first go around, you will have a second round. I just want to 
make sure everybody has a chance to participate.
    If you would set the clock to three minutes, then we'll go 
ahead.
    My first question, John, is that, as you know, the budget 
request for this is $441 million. In the flood of 1997, there 
had already been appropriated some $200,000 for improvements to 
the Park. Much of that was spent on Highway 140, getting it 
repaired and up and running, which leaves a balance of about 
$106 million that's already available to you to begin spending 
on this plan, in addition to gateway receipts that add up to 
about $40 million.
    Can you list for me specifically what you have the green 
light on, to go ahead and begin spending on, and what you 
intend to spend money on, given that appropriation already?
    Mr. Reynolds. Yes, sir. We would begin immediately on guest 
lodging and campground replacement and restoration; replacing 
the existing shuttle fleet with a fleet that is much more 
environmentally friendly; construct a transit center; 
reconstruct trails, bridges and utilities; and reconstruct 
concession employee housing so that the concessionaire can 
operate in a more effective manner.
    Mr. Radanovich. Did you mention also the campgrounds, the 
upper and lower river campground projects as well?
    Mr. Reynolds. As you know, sir, the upper and lower river 
campgrounds are called for in the Plan to be restored to their 
natural environment. They are in the natural waterway and 
floodway of the Merced Wild and Scenic River. They have been 
held in place so far by riprapping along much of the bank, on 
the upper side of the river.
    We are not, under the constraints of the Wild and Scenic 
Rivers Act; we may not continue--we are not allowed to continue 
to protect that landscape in that manner. So as part of both 
the mission of the National Park Service and the requirements 
of the Wild and Scenic Rivers Act, we would restore the natural 
environment of those two campgrounds. Work is called for in the 
1980 plan to provide campsites, additional campsites, in other 
parts of the Park.
    Mr. Radanovich. And that is not lodging facilities outside 
the Park to account for any loss of campground spaces or 
anything like that; that is, actual campground spaces may not 
be in the Valley itself but somewhere in the Park?
    Mr. Reynolds. Yes, sir, that's correct.
    Mr. Radanovich. What would be an example of some of these 
projects that are part of the Plan that would require future 
appropriations for outside that $140 million that's available 
to you now?
    Mr. Reynolds. Can I ask Dave to address that in detail, 
sir?
    Mr. Radanovich. Sure.
    Mr. Mihalic. Mr. Chairman, I think that the question is 
which ones are not yet funded, that are part of the Plan?
    Mr. Radanovich. Yes, that would require future 
appropriation from the Congress.
    Mr. Mihalic. A good example of that would be Mr. 
Doolittle's concern over the historic bridges, which are called 
for removal in the Plan. Those are not yet--those do not have 
funding appropriated for them.
    Another example might be the satellite and out-of-valley 
parking. That does not have funding. In fact, the Plan, before 
we would actually construct those, calls for further 
environmental review, public input, and a traffic management 
study that we would do in order to best be able to build those 
appropriately.
    Mr. Radanovich. Okay. Thank you.
    I'm going to defer to Mrs. Christensen, and we'll have more 
questions. I do want to make the rounds for everybody first 
before we answer any more.
    Mrs. Christensen.
    Mrs. Christensen. Thank you.
    I'm sort of concerned about the discrepancy and whether 
there was enough public comment, and your statement about all 
the outreach that you made and the number of hearings and so 
forth that you had.
    Do you feel that all of the communities that were involved 
were reached through the various outreaches that were made by 
the Park Service? Because we're hearing on the other side that 
the communities have not been properly consulted.
    Mr. Reynolds. Congresswoman, I would never decide that I 
should speak for those communities. It was obviously our intent 
and we tried very, very hard to include those communities. I 
think, obviously, if they feel that they need additional ways 
in which we can communicate, it is up to us to meet with them, 
to find ways with them to do so.
    We have started something that I don't think we've done 
anywhere else with Mariposa County, which is now starting its 
general plan, and Superintendent Mihalic and the Park are 
working with the county now to try to come to a way where we 
can do our plans for El Portal, which is within Mariposa 
County, and the Mariposa County plan as one document that 
serves us all and as one process led by the county and 
participated in by us that results in that kind of thing.
    So I think your question is a question that is one that is 
very, very important. We felt very strongly that the design of 
our involvement system would include the counties. The counties 
I think would say that they would have liked additional and 
different ways to be involved.
    Mrs. Christensen. One of the concerns also is about the 
lodging and whether the new Plan allows for enough 
accommodation for visitors and so forth. In your plan, do you 
think there's enough lodging, both within and outside the Park 
to accommodate the usual number of visitors that would come to 
Yosemite?
    Mr. Reynolds. Congresswoman, in no park has it ever been 
the intent of the Park Service to accommodate all the demand. 
Instead, we've tried to accommodate that which is necessary and 
appropriate, as the law says. Our intent has always been, and 
continues to be, to provide the maximum amount of access to 
people.
    When the 1980 plan was approved, we expected some 
development of overnight lodging to take place outside the 
Park, because we put limits on the amount in the Park, and 
called for further reductions. We were overwhelmed by the--I 
mean, in terms of the emotion--by the amount of overnight 
accommodations that has taken place outside the Park to serve 
the needs of visitors, so that more people can come and stay in 
the Yosemite area in the local economy. We expect the same 
thing to continue to happen.
    So I think whether or not visitors can have access to the 
Park and enjoy the Park is very well taken care of, and will be 
further taken care of by local private interests.
    Mrs. Christensen. Thank you.
    Mr. Chairman, I will stop here and allow others to ask 
questions.
    Mr. Radanovich. All right. Thank you.
    My Chairman, Mr. Hefley.
    Mr. Hefley. Thank you, and I will try to be brief.
    You have two charges as the Park Service. One of them is to 
protect the resource and the other one is to provide for the 
enjoyment of the public to enjoy that resource.
    Why in the world would the Plan call for destroying these 
historic bridges, which are one of the things that people do 
remember when they leave the Park, in addition to the waterfall 
and other things, and what is your plan for the horses, which 
has been a part of the Park experience for, gosh, who knows, 
generations, I suppose. It's kind of part of the western 
experience that people enjoy, even if they don't ride the 
horses anywhere, to see the horses in the park as part of the 
western experience.
     What are your plans for the horses and why would it call 
for destroying the bridges?
    Mr. Reynolds. Mr. Hefley, may I ask Mr. Mihalic to give you 
a good, detailed answer? And if you would like to come back to 
me, I would be happy to respond.
    Mr. Mihalic. Mr. Chairman, it's an excellent question. With 
respect to the bridges, as you know, with our mission, we are 
required to do two things, not one or the other.
    With the Merced River having been designated a wild and 
scenic river under the Wild and Scenic Rivers Act, we were 
confronted with the challenge of how to allow the river to be 
free-flowing, as required by the Wild and Scenic Rivers Act, 
yet constrained by these bridges that were put in that cause 
the river to act in an unnatural way, and sometimes even during 
the flooding, act as dams.
    What the Plan calls for is for the first bridge, the Sugar 
Pine Bridge, to be removed, and because of controversy, we know 
that the river will then react in a different way. The Plan 
then calls for us to do a hydrologic study to determine whether 
the other bridges need to be removed.
    With respect to the horses, the Plan calls for the removal 
of the commercial horse stable. The government horse stables 
are also in the Valley. We're taking those stables out. The 
commercial trail rides have been in conflict with other 
visitors with respect to hikers, day hikers and backpackers 
using the same trails. The trails that we're talking about 
receive literally thousands of people on those trails a day out 
of the Valley. With respect to the public input, we believe 
that having the commercial trail rides will reduce that 
conflict.
    It is important to note that private horse users, day 
users, people who bring their horses into the Valley and wish 
to ride in the Valley, that will still be possible and trails 
will still be open. It's only the commercial aspects that we're 
calling to be removed.
    Mr. Reynolds. May I also add that the rest of the Park, the 
entire rest of the Park, is still open to horses, as it is 
today, under this plan.
    Mr. Hefley. Thank you very much.
    Mr. Radanovich. Thank you.
    Mr. Kildee, any questions?
    Mr. Kildee. Thank you. I will be very brief. Thank you, Mr. 
Chairman.
    If the flood of 1997 had not occurred, would your plan for 
this Valley been significantly different than what it is now, 
or how different would it have been, perhaps, from the 1980 
plan that had been developed for the Valley?
    Mr. Reynolds. Sir, thank you. I don't believe, in having 
participated extensively in both efforts, I don't believe it 
would have been much different today. The reason for that is 
we've learned, since the 1980 plan, about the actual extent of 
the dangerous rockfall zone and the actual location of the 
flood plain. Even if the flood hadn't occurred, there are other 
floods that have been very, very near to the same volume and 
aerial extent. So I think we would have been faced with exactly 
the same constraints that we had as a result of the flood.
    I think what the flood did was give us the opportunity and 
the direction by the Congress to take that new knowledge into 
account and create a plan and get on with doing it. So I think 
the answer is it would not have been significantly different, 
sir.
    Mr. Kildee. In general, do we have to be careful with our 
national treasures like this, to make sure that the reason that 
attracts people to these places is we do not at the same time 
destroy the very thing they came to see.
    Mr. Reynolds. Yes, sir, I think that's the charge of the 
National Park Service and why it's so much fun to work there.
    Mr. Kildee. Thank you.
    Thank you very much, Mr. Chairman.
    Mr. Radanovich. The gentleman from Indiana, Mr. Souder.
    Mr. Souder. Thank you. It's good to see you again, Mr. 
Mihalic. I appreciated your hosting me while I was there, to 
explain and help me understand some of the concerns.
    I have a quick question about the bridges. Are the bridges 
historic structures?
    Mr. Mihalic. Mr. Souder, yes, they are. They are designated 
under the National Historic Preservation Act, because of their 
age, as historic bridges.
    Mr. Souder. It is suggested that, in trying to reconcile, 
that there's a third thing in addition to the fact that we have 
this dilemma, with different places where we have a historic 
structure on historic natural ground and which takes 
preeminence, but visitor enjoyment is also a third charge of 
the National Park Service. So you're really trying to balance 
multiple things.
    In trying to sort through the parking question, is 550 the 
maximum amount allowed under the Plan?
    Mr. Mihalic. Mr. Souder, yes, 550 is the amount called for 
under the Plan.
    Mr. Souder. Could that be altered? Are there variables in 
the plan that would allow that to go up, or is that fixed?
    Mr. Mihalic. Mr. Souder, the Plan, as you know, includes an 
environmental impact statement. As part of the environmental 
impact statement process, we looked at an area in which the 
day-use parking of 550 cars would go. It's important to note 
that the total amount of parking in the Valley is actually over 
2,000 cars. The remainder of that are for the Housekeeping 
Camp, the campgrounds, the lodge, Curry Village, the Ahwahnee 
Hotel. Everyone going there will have a parking place as well. 
The 550 figure to which you refer is just for the day-use 
parking lot.
    In that area, we actually did an analysis that we could 
probably fit as many as maybe half again as much as the 550, 
maybe 800 vehicles, in that area. It is also important to note 
that if we were to try to reverse the figure in terms of 
reliance on buses, that that figure would probably be closer to 
1,200 cars for day-use parking.
    Mr. Souder. Could you explain that last statement again? In 
other words, if you used buses, you would have fewer, longer-
term people in the park. Therefore, your day-use availability 
of spaces would be higher; is that what you're saying?
    Mr. Mihalic. Mr. Souder, the concern of Mr. Radanovich that 
he mentioned was that he would like to see less reliance on the 
out-of-valley parking and the bus system that would serve that 
parking. The number that it would take to make the out-of-
valley shuttle only about three months of the year would be 
around 1,200 cars for day-use parking.
    Mr. Souder. Thank you.
    Mr. Radanovich. The chair recognizes Ms. McCollum from 
Minnesota.
    Ms. McCollum. Thank you, Mr. Chairman.
    Mr. Reynolds, if I'm understanding your testimony 
correctly, part of the contributing factor to the floods were 
some of the man-made structures that were placed in the Park; 
is that correct?
    Mr. Reynolds. Yes, that's correct, particularly in the case 
of some of the bridges.
    Ms. McCollum. So part of the management plan was looking at 
reducing potential flooding in the future by removing some of 
these obstacles--and I understand you still have some hydraulic 
studies that are going to progress forward, to see where or not 
some of the structures should be removed. But the decision to 
remove them would be to lessen the threat of flooding in the 
future; is that correct, Mr. Reynolds?
    Mr. Reynolds. It would be to--that's generally correct. It 
would be to reduce the aerial extent of the floods above the 
bridge, above the bridges, and let the natural flow of the 
water take place.
    Ms. McCollum. Mr. Chair and Mr. Reynolds, I read in one of 
the pieces of information that I have that you have about four 
million visitors a year, is that correct, Mr. Reynolds?
    Mr. Reynolds. It has actually been as high as four million. 
I think last year it was about 3.7.
    Ms. McCollum. Mr. Chair, could someone from the Park 
Service tell me, in the next ten to twenty years, what do you 
think, based on trending that you did in your Plan, what do you 
think you might have for annual visitors?
    Mr. Reynolds. I think we would have to come back to tell 
you exact numbers, but with the population increases in 
California and the continuing trends toward travel from all 
over the United States and all over the world, I think the 
pressures to visit national parks everywhere, including 
Yosemite, is just going up.
    Ms. McCollum. Thank you, Mr. Chair. That information coming 
at a future time is fine.
    [The response to the aforementioned question follows:]

    In response to a question asked by Ms. McCollum to John 
Reynolds concerning visitation trends at Yosemite:
    While specific visitation projections for the next ten or 
twenty years are not available, we expect visitation to the 
park to continue increasing, based on the anticipated growth of 
California's population and trends toward increased travel to 
national parks from within the United States and abroad.

    Ms. McCollum. I haven't had an opportunity to be there, 
gentlemen, but the Yosemite Valley, along with the congestion, 
often has a smog core to it. Could you tell me about the air 
quality in the Park, if that's ever been a concern?
    Mr. Reynolds. It has been a concern, from two sources. The 
first source is within the Park itself, and it consists of 
automobile exhausts and campfire smoke, if you will. At some 
times of the year, it could be from natural or prescribed 
fires.
    The second source is out of the Park and is increasing. The 
recent studies show that everything in the Sierras, all plant 
materials in the Sierras below 6,000 feet--and the Valley is 
just about 4,000 feet--all plant materials in the Sierras are 
being damaged, about 29 percent of the plant materials in the 
Sierras below 6,000 feet.
    Ms. McCollum. Mr. Chair, if I could just make sure that I 
understand the testimony, if I could do a follow up. Mr. 
Reynolds, the cars that are going through on a heavy day use 
are contributing to the lack of air quality, the potential smog 
quality, for people that are hikers who could be suffering from 
asthma, respiratory disease?
    Mr. Reynolds. In the Valley itself. The intent of the Plan, 
of course, is to reduce the adverse air quality within the 
Valley from emissions produced inside the Park.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Radanovich. The gentleman with whom I share the Park 
with, Mr. Doolittle. John?
    Mr. Doolittle. Thank you, Mr. Chairman.
    The bridges, tell me about the flooding problem. Well, 
before we get into that, what was the bigger factor, the 
flooding issue or the incompatibility of the Wild and Scenic 
River status that dictated the selection of a plan that removes 
these two bridges?
    Mr. Reynolds. From my point of view--and if you would like 
to have Dave answer as well, because we might get a more full 
answer here--but from my point of view, it is the combination 
of the two together. Had we not had the Wild and Scenic River 
mandates, I'm sure we would have had a much more difficult time 
making this decision.
    Nonetheless, that being said, as we understand natural 
systems better and better from better science, I'm sure we 
would have had the same kind of discussions and probably come 
to the same conclusion. But I think that focusing in on the 
Wild and Scenic River helped us very much to focus in on this 
issue.
    Dave, do you want to add more to that?
    Mr. Mihalic. Mr. Chairman and Mr. Doolittle, it's one of 
the most difficult parts of not just the bridge question but 
almost all the questions in the Valley, because our mission 
from Congress is to conserve the scenery and the natural and 
historic objects and the wildlife therein. So it's very 
difficult to come to an either/or conclusion.
    In this particular instance, the Wild and Scenic Rivers Act 
has specific language that says that it shall take precedence 
over other law. In order to keep the bridges, which are 
obviously anchored on either side of the river, from washing 
away during flood events, the river has been riprapped and the 
channel has been kept in the bridges upstream, and then there's 
been scouring downstream, which has caused the erosion to occur 
below the bridges. In essence, what we've had to do is 
constrain the river to fit where the bridges are.
    It's a very difficult issue. It's obviously as much a 
science issue as well as an emotional issue. I think we came 
down on the side of trying to retain those natural features and 
those natural processes in the Valley that the public does come 
to see, and that's why we had originally proposed in the draft 
plan the removal of three of the bridges. We said we will 
remove the first bridge, do a hydrologic study, and then see 
what happens after that.
    Mr. Doolittle. Let me just observe that certainly a 
different approach has been taken on other rivers. The American 
River, below Nimbus Dam to the confluence of the Sacramento, is 
a wild and scenic river. There are, I believe, close to half a 
dozen bridges that traverse it. The river itself is impounded 
by levees on both sides that are about 20, 25 feet high. No one 
has ever suggested that we remove any of the bridges.
    You know, in the case of Yosemite, I think you have erred 
in the wrong direction by taking out those bridges.
    Thank you, Mr. Chairman.
    Mr. Radanovich. You're welcome.
    Tom Udall from New Mexico.
    Mr. Udall of New Mexico. Thank you, Mr. Chairman.
    Mr. Reynolds, it seems to me one of the issues here is the 
impact on the Valley communities, the community outside of 
Yosemite Valley. In looking at this and hearing your testimony 
and the questions of others, it seems like what you're doing is 
actually a ``win win'' for the communities outside the Valley, 
in the sense that you're moving parking spaces, many of them, 
to outside the Valley. So if there are parking spaces outside 
the Valley, those individuals will park and shop in those 
communities and be out there and then be able to take a shuttle 
in.
    The same thing is true, I think, for the concessions and 
the hotel space. There are many new hotels being built, I 
think, hotel rooms in the outside community. So there is more 
of an opportunity for those people to spend time there.
    Then the ``win'' on the Park side is having people come 
into the Park and really enjoy the experience. It seems to me 
that you're reaching a pretty good compromise here.
    But could you give me your comments on that, in terms of 
looking at both sides of this?
    Mr. Reynolds. Yes, sir. Thank you for the question.
    Obviously, as I came to the time to sign or not sign the 
Record of Decision, I had to think about that very issue as 
well as the rest of the issues that have been talked about 
here. We believe, of course, we're headed there. I think a lot 
of people actually believe that we're headed there, too.
    I think the real issue, in relationship to the communities 
here, and particularly as we have found out in the last several 
months as we've gone into very detailed discussions with 
Mariposa County, it's how we go about creating an understanding 
between both of us and the need to raise our ability, to 
improve our ability to do that, which I think many of the 
counties are coming to.
    I think that's one of the reasons that Dave came to the 
Park almost two years ago, was to increase the relationship 
between the Park and the communities prior to the time the 
decisions were made. I would point to the recent developments 
with Mariposa County to indicate how much we might be able to 
do that.
    I think it's a difficult question. I think it's a question 
of agencies in transition, plus I think it's a question of 
communities becoming much, much more concerned with their 
relationship with their Park areas nationwide, not just in 
Yosemite.
    Mr. Udall of New Mexico. Could you tell us briefly about 
the fee demonstration program, how that operates and how those 
monies are to be used?
    Mr. Reynolds. Yes. If it's all right with you, I'm going to 
have Dave do that because he can illustrate with exact examples 
from Yosemite as opposed to some more general things I might be 
able to cover.
    Mr. Mihalic. Mr. Chairman, Mr. Udall, the fees called for 
in this Plan, we've actually been banking our fee revenue. We 
get about $12 million a year and we want to apply it toward 
this Plan.
    Some examples of visitor facilities that would be funded by 
the Plan would be everything from fixing up some of the water 
and sewage treatment plants and the utilities that support 
those visitor services, to some of the campground and road 
projects and other restoration projects, and a lot of the 
research that is needed to be done before we can actually do 
the environmental compliance.
    Mr. Reynolds. I might add to that, sir.
    As you probably recall, we have fee demonstration authority 
from the Appropriations Committee. The Park keeps 80 percent of 
the fees that it collects in the Park to use for projects, and 
those are primarily headed toward addressing the backlog of 
infrastructure and resource projects within the Park.
    Mr. Udall of New Mexico. Thank you both very much. Thank 
you, Mr. Chairman. I have additional questions, but I will do 
them on the next round.
    Mr. Radanovich. We'll make sure we get to them all.
    Mr. Reynolds, I grew up next to Yosemite, and always the 
common wisdom was don't go to Yosemite between Memorial Day and 
Labor Day because it was crowded, that school was out and there 
were a lot of people visiting. I know this plan attempts to 
address that problem.
    By the way, the only time it ever got on national TV, that 
Yosemite had traffic problems, was either Memorial weekend of 
the 4th of July or Labor Day. I think it created a problem that 
in some ways could have been easier dealt with, rather than 
this image that Yosemite has gridlock traffic 9 to 12 months 
out of the year.
    In the development of this Plan, I know there is a direct 
relationship between YARTS, the busing system that would bus 
people from points in the Valley, but also points in the 
outlying communities into the Park and back. There is a direct 
relationship between that and the amount of parking spaces that 
this record decision has identified as being sufficient to meet 
the demands for visitorship in Yosemite. You have settled on 
550 spaces, but that includes the operation of YARTS for a 
nine-month period.
    I have always been a supporter of YARTS, but I have always 
perceived it as being there to make the need when traffic was a 
problem, when visitorship was at an excess, and that, to my 
knowledge, would be a three-month period between Memorial Day 
and Labor Day weekends.
    Superintendent, you alluded a little bit earlier that 
there's a direct relationship between the amount of time that 
YARTS operates and how many spaces are required.
    If YARTS were to operate on a three-month period, just so 
that I understand it completely, was it said there would be 
1,200 spaces required in the Park, different from the 550 that 
are there now?
    Mr. Mihalic. Actually, Mr. Chairman, I may have misspoken 
and I apologize if I didn't say it quite correctly.
    It is not so much the YARTS regional transit system, but 
the Plan proposes three satellite out-of-valley parking areas--
    Mr. Radanovich. Correct.
    Mr. Mihalic. --which we would have to run an additional 
shuttle bus service from that satellite parking into the 
Valley. It would be that shuttle system that would work nine 
months out of the year.
    What we have said is, if YARTS is successful, YARTS is the 
regional transit system, then we may not have to build or run 
such a separate shuttle system. It may be that YARTS could 
either do it under contract, or YARTS' regular normal regional 
service may actually serve that need. Therefore, that aspect of 
the Plan wouldn't have to be built, which would substantially 
reduce the $441 million capital cost of the Plan.
    Mr. Radanovich. Satellite parking aside, my question is, if 
YARTS were to run for three months, from Memorial Day to Labor 
Day, what would be, in your view, the necessary amount of 
parking spaces in the Valley, not including the satellite 
parking spaces, that would meet visitor demand?
    Mr. Mihalic. From the studies--and we did extensive 
transportation studies with transportation engineers. We worked 
with Caltrans. We had other reviews of those studies. In order 
to get it to three or four months, that summer period of which 
you speak, we believe that you would need around 1,200 spaces 
for day users in the Valley.
    Mr. Radanovich. So for a three-month operation of YARTS, 
you would need 1,200 spaces, not the 550 that were called for 
in the Record of Decision?
    Mr. Mihalic. That's correct.
    Mr. Reynolds. Sir, if I may add, partially just for the 
record, I think that the--Well, let me start over.
    There are two trends that have taken place since the 1980 
plan came out which are essential in understanding the 
transportation issues. One is, the percent of the visitation to 
the Park that is day use has gone way, way up. In addition to 
that, the percent of the time that the Park has heavy 
transportation issues has also gone way, way up. So visitation 
has changed from primarily overnight use to primarily day use, 
corresponding in large part to the increases in population at 
the California location. And it has spread through the year 
farther.
    So the plan, just for the record, calls for eight months, 
and for transportation four months. That was decided based upon 
when the largest amount of transportation need was, because of 
the trends in the way use is going. If California continues to 
develop in the way that we all think it is, electricity aside 
for the moment, we expect that the amount of time that the 
Valley is heavily used and the percent of day-use visitation 
will continue to go in the same way they have been. So that's 
why there's a lot of difference between the 1980 plan and this 
Plan here.
    Mr. Radanovich. I think the debatable part is that by 
using--The plan overly relies on the busing system, YARTS, in 
order to meet that demand. It's the perception of some that the 
overdependence on YARTS is another means of just basically 
keeping people out of the Park, because YARTS, although it's 
been on a test pilot program for the last year, has not 
necessarily proven that it's going to be able to meet the 
visitorship demands that are required on the Park. That's my 
big issue with this plan, that it's been overly relied on.
    As to the cost of also maintaining a bus system into the 
Park, do you have information you can provide to me that would 
show the cost of operating YARTS on an eight-month, 550 parking 
space scenario, and also a three- or four-month operating 
scenario at 1,200 spaces?
    Mr. Reynolds. We would be glad to provide that. In 
addition, you might be interested to know that if we did build 
a 1,200 space site, it would probably be in the east Valley, 
where there are no utilities, no electricity, no previous 
development. You might be interested in the comparison cost to 
build and operate that as well.
    Mr. Radanovich. If you could separate out operating costs 
with development costs, that would be fine.
    Mr. Reynolds. Absolutely.
    [The response to the aforementioned question follows:]

    In response to questions asked by Mr. Radanovich to John 
Reynolds concerning costs for an out-of-valley shuttle system:
    The operating cost for an out-of-valley shuttle system 
based on 550 day-use parking spaces would be approximately $7.4 
million annually. An out-of-valley shuttle system is not 
required if 1,200 day-use parking spaces are provided.
    Development costs for an out-of-valley shuttle system 
include construction of parking lots, utilities, water and 
wastewater systems, and visitor information facilities at each 
of three parking areas (Badger, El Portal, and Hazell Green). 
In addition, development costs include purchase of fleet 
vehicles, as well as construction of storage and maintenance 
facilities. The estimated costs are $7.6 million for Badger, 
$6.1 million for El Portal, and $14.2 million for Hazell Green. 
A private developer is expected to cover the majority of 
development costs for Hazell Green.

    Mr. Radanovich. I'm sorry that Mrs. Christensen is not 
here. I'm going to advance to Ms. McCollum.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Reynolds, back again to the parking. Some of the 
parking areas you are eliminating, were they destroyed during 
the flood?
    Mr. Reynolds. I don't--I would not say there's any 
significant day-use parking areas that were destroyed by the 
flood. They are, instead, dispersed around the Valley and this 
brings them together.
    Ms. McCollum. Okay, thank you. I just wanted to be clear 
that I had some information on that.
    For me, I am struggling with--you can look at cost benefit 
analysis and hard, cold cash, or you can look at cost benefit 
analysis of maybe doing some transit and transportation for not 
having ongoing, continuing maintenance of parking facilities. 
So when you provide to the Chair here the cost of building the 
parking lots, could you also include your best estimates for 
what it's going to cost for repaving and replenishing and 
taking care of these parking lots on an ongoing and continuing 
basis? Because quite often we fail to do that.
    Could you tell me a little more about what you have done to 
monitor air quality inside of the Park and what might happen if 
we don't do something about automobile emissions going into the 
air, how it might impact people being able to camp and have 
fires in the Park? Is there something maybe you can point me to 
or let my staff know about air quality that is in the plan?
    Mr. Reynolds. I think--First, in answer to your first 
question about cost, the answer is yes, just for the record. 
Second, I think it would be far more instructive for us to get 
good information to you rather than for us to give you sort of 
an overview that wouldn't teach any of us very much, if that's 
all right with you. We can provide it for the record and to 
your staff.
    Ms. McCollum. That's what I said. You can provide it to my 
staff or in the documentation. Thank you.
    [The response to the aforementioned question follows:]

    In response to questions asked by Ms. McCollum to John 
Reynolds concerning road maintenance and air quality:
    Specific maintenance costs for the roads and parking lots 
associated with the shuttle system have not been determined. 
Although implementation of the Yosemite Valley Plan will reduce 
the number of automobiles, the number of buses will increase. 
The heavier weights will initially cause greater wear and tear 
on park roads, primarily on older asphalt. As roads are 
upgraded to accommodate the heavier bus traffic, they will be 
better able to withstand the loads. Once the roads have been 
upgraded, it is not expected that there will be significant 
differences from current maintenance costs. Similarly, parking 
lots for the shuttle system will be constructed to a standard 
appropriate for the types and numbers of vehicles that will use 
them. Once constructed, cyclic maintenance costs are expected 
to be consistent with current costs.
    The Final Yosemite Valley Plan/Supplemental Environmental 
Impact Statement included air quality analyses for each 
alternative considered. The document concluded:
    LCompared with Alternative 1 (existing condition), 
Alternative 2 (preferred alternative) would produce moderate 
adverse impacts on nitrogen oxides emissions, moderate 
beneficial impacts on carbon monoxide and particulate matter 
emissions, and minor beneficial impacts on volatile organic 
compounds emissions with the use of diesel fuel in shuttle 
buses through 2015. There would also be a moderate, beneficial 
impact on sulfur dioxide emissions. Alternative 2 would achieve 
a major reduction in PM 10 emissions associated With reductions 
in vehicle miles traveled and road dust. In comparison with 
diesel fuel for shuttle buses under Alternative 2, the use of 
fuel cells would result in lower vehicle traffic emissions for 
all pollutants by 2015. Emission reductions under Alternative 2 
would be the greatest for all pollutants with fuel cell 
technology in the shuttle bus fleet. With the use of diesel, 
propane, or compressed natural gas in shuttle buses, emissions 
of three of the four pollutants would be reduced under 
Alternative 2.
    LAir emissions associated with construction and demolition 
projects would be minor and occur over a relatively short-term 
period. (See Vol. IB, p. 4.2-125).

    Mr. Radanovich. Mark?
    Mr. Souder. Thank you, Mr. Chairman.
    First I would like to note for the record one last comment 
on the bridge question and the wild and scenic river.
    Clearly, a wild and scenic river in a park needs to be more 
sensitively treated than outside of a park. At the same time, 
this has always been a dilemma with Yosemite, because when you 
come in from Congressman Radanovich's home town, clearly the 
wild and scenic river has been partially filled in and 
riprapped because of the road. In fact, the National Park 
Service is in a fairly--hopefully it will be worked out soon--
but a contested suit over the last part of the road, where your 
car practically gets destroyed with the lack of width and the 
potholes in the road. So, in that situation, I think the Park 
Service is doing the absolutely right thing, to just widen it 
and do minimal damage to the river, but accommodate visitors. 
It's a combination of historic structures, the visitor, and the 
wild and scenic river. In fact, this isn't <plus-minus>a pure 
wild and scenic river, or people wouldn't be able to get into 
the Park. They would be doing like John Muir did, going on 
mules and trying to go up the side of the hills to get in.
    A second thing, I would appreciate you providing some 
clarity for the record in an additional supplemental statement, 
because I have the Park Service data--and we're going to hear, 
I'm sure, additional data. But what was the number of lodging 
units pre-flood, now in your proposed post-flood? Because I 
have here the number of lodging units would change from 91 to 
61, but I assume that's from current to post-flood as opposed 
to pre-flood. And similarly for camping, which your statement 
says is currently 465, the draft would take it to 500, and I 
wanted to see a pre-flood number with that as well.
    One other question I want to make sure I get in here. This 
bell curve that goes up in the middle months--and we had a 
question about whether the shuttle would be financially 
feasible, and you were going to provide that data. Has there 
been discussion about that peak period, charging for some of 
the day parking and helping fund a shuttle by the people who 
are willing to pay for the parking? Because many people, 
particularly those who have driven from long distances, may be 
willing to pay that extra. It would be a small percentage of 
their cost, whereas those who are day users, in fact, if you 
could reduce the shuttle cost, might feel differently and would 
still accomplish some of the same goals.
    Mr. Reynolds. Could Dave answer these?
    Mr. Souder. Yes.
    Mr. Reynolds. Thank you.
    Mr. Mihalic. Mr. Chairman and Mr. Souder, with respect to 
the camping, there were about 800 campsites pre-flood. The 
draft called for about 465 sites. As a result of public input 
and public comment, we revised that in the final Plan to around 
500 sites, again, the numbers mostly being in the River's 
campground area that we spoke of earlier, that would not be 
retained in the Valley. But those numbers could be provided for 
elsewhere in Yosemite National Park from the general management 
plan that proposed other areas.
    With respect to the actual number of lodging units, I would 
feel more comfortable getting back to you with exact numbers 
rather than do it off the top of my head, if that's okay with 
you, sir. And...
    [The response to the aforementioned question follows:]

    In response to questions asked by Mr. Souder to John 
Reynolds and David Mihalic concerning the number of lodging 
units and campsites in Yosemite Valley:
    Prior to the 1997 flood there were approximately 800 
campsites in Yosemite Valley. At present, there are 475 
campsites, and the Yosemite Valley Plan calls for an additional 
25 sites for a total of 500.
    With respect to lodging, before the 1997 flood there were a 
total of 1,510 lodging units available in Yosemite Valley, 
spread among Housekeeping Camp, Curry Village, Yosemite Lodge, 
and the Ahwahnee. At present, there are 1,260 lodging units 
available in the valley. The Yosemite Valley Plan calls for a 
total of 961 lodging units. It should be noted that, in 
comparison to the existing conditions, the mix of 
accommodations in Yosemite Valley will be geared more toward 
affordable economy lodging units.
    A full description of the lodging and camping scenarios can 
be found in Volume IA of the Yosemite Valley Plan l 
Supplemental EIS.

    Mr. Souder. ...whether or not you had looked at the parking 
fees.
    Mr. Mihalic. With respect to market and stuff like that, we 
did not consider that in the Valley Plan itself. We have talked 
about using either the market or that type of differential 
pricing as a possibility when we do the traffic management plan 
that the Yosemite Valley Plan calls for us to do, and look at 
ways of either utilizing the fee structure to fund the shuttle 
system, or to use it in a way to manage demand, such as demand 
for airport parking is used, whether you park in the long-term 
lot and take the shuttle, or you park up close to the terminal.
    Mr. Souder. Mr. Chairman, I have two groups waiting outside 
that I need to see. Can I ask one more question now, and then I 
will come back a little bit later.
    Mr. Radanovich. Sure. Go ahead, Mark.
    Mr. Souder. And this may require additional data as well 
for the record.
    Mr. Reynolds, you said day use numbers had gone up 
substantially. I wondered whether or not that day use number is 
up--In other words, is it because there is not overnight 
capacity? In other words, is that day use up mostly in the 
summer periods when, in fact, there may be minimal capacity for 
overnight lodging, and in a day use figure, do you figure in 
people who may come in one day, come back out to a gateway 
community, and come back in the next day?
    Mr. Reynolds. I will provide the information. But, in 
general, I would like to say--I was talking about the 
percentage that has gone up. The visitation in the Park has 
only increased slightly over time, but the percentage 
difference--Part of it is because the external community is 
providing so much overnight accommodations these days, that 
that contributes, of course, to the percent that's day use.
    Mr. Souder. Because, in fact, if the number of campground 
spaces go from 800 down to 465, and some lodging after flood, 
your day use percentage would go up because they wouldn't have 
an alternative.
    Mr. Reynolds. Right. I would be glad to provide some 
information, and if we need to talk about it, we can do that, 
too.
    Mr. Souder. Thank you.
    Mr. Reynolds. Thank you, sir.
    [The response to the aforementioned question follows:]

    In response to a question asked by Mr. Souder to John 
Reynolds concerning lodging capacity and day-use visitation:
    In 1980, visitation to Yosemite National Park was 
approximately 2.5 million people, the majority of whom stayed 
overnight in the park. In recent years, visitation has varied 
between 3.6 million and 4.3 million, although no additional 
overnight accommodations were provided inside the park. In 
response to the increased demand for overnight accommodations, 
hotels, motels, bed and breakfasts, campgrounds, and other 
visitor services have been provided by the private sector in 
the gateway communities. Damage caused by the 1997 flood 
resulted in a reduction in the amount of overnight 
accommodations in the park, placing additional demand for 
services on the gateway communities. As the number of visitors 
staying outside of the park in the gateway communities 
continues to increase, the percentage of park visitors that are 
day-users will increase accordingly. Visitors who stay in 
lodging outside the park in the gateway communities or 
elsewhere are counted as day-use visitors each time they enter 
the park

    Mr. Radanovich. Mr. Udall.
    Mr. Udall of New Mexico. Thank you, Mr. Chairman.
    Back to the fee demonstration issue. My understanding is 
that the fee demonstration project was started as a result of 
trying to allow you to do projects and the need for money. 
Could you give us a little background on that?
    Mr. Reynolds. Gee, I can't remember what year we started 
the fee demonstration program, but Congress authorized us to do 
a fee demonstration program and relieved us of having the 
Congress setting the fees park by park by park, and also 
relieved us of having to send the fees back to the general 
treasury.
    The idea of the demonstration program is to try a lot of 
different things in a lot of different places. There's a 
hundred different fee demonstration projects within the 
National Park System, some multi-park, and to be able to show 
what we accomplished because we were able to get the money 
directly, rather than have it go back to the general treasury.
    In general, it has been an incredible boon to the National 
Park Service. Although the backlog figures, as we all know, are 
still very high for maintenance and resource issues, they would 
be higher had it not been--much higher, had it not been for the 
fee program. It's been extremely successful in the National 
Park System.
    Mr. Udall of New Mexico. Thank you, Mr. Reynolds. My point 
there--and I'm not asking you to comment on this--is that I 
have heard rumors and comments that this administration, in 
terms of pulling together the budget, may well try to move some 
of that fee demonstration money into other areas, other than 
specifically back to the National Parks, as 80 percent of it is 
supposed to go. That is something that would concern me a lot, 
because I think we have, as you pointed out, huge maintenance 
needs and resource needs that this program provides for. So I 
think we need to keep that money right where it is.
    Back to the automobile usage and parking spaces and all of 
that. Is there a big need for having an automobile after you 
get into the Valley there? Are we talking about hiking huge 
distances or something, or are we talking about a fairly narrow 
area where the ability to use an automobile is very limited?
    Mr. Reynolds. The Valley is seven miles long and one mile 
wide. It is generally flat. It's a marvelous place to bicycle 
and walk. Increasing numbers of users particularly want to 
bicycle. So our proposals are to try to make the Valley more 
tranquil and make the Valley quieter, have less intrusion of 
automobiles, and have as many or more people than we do today 
enjoying the Park, at a pace in which they can take in the 
grandeur, take in the sublimity of that place that doesn't 
exist anyplace else in the world.
    Mr. Udall of New Mexico. Thank you, Mr. Reynolds. I applaud 
you for that part of the plan. I think that's a very important 
thing you're doing. I think the idea of reducing automobile 
usage and trying to get the experience of the visitor to be 
heightened, and doing that with walking and bicycles and those 
kinds of things, I think makes a real difference. I think those 
of you who have worked on that plan have thought this out well 
and I applaud you on that.
    Thank you, Mr. Chairman.
    Mr. Radanovich. You're welcome.
    Mr. Doolittle?
    Mr. Doolittle. Thank you.
    Does it concern either of you gentlemen that the Merced 
River Plan was released for comment just, I believe, four days 
before the end of the comment period on the Valley Plan?
    Mr. Reynolds. Well, if it--I don't have the schedules in 
front of me, but as I recall, there was more time than that. 
But I would have to check. Obviously, if there were just four 
days, I would probably have to be concerned.
    Mr. Doolittle. Because the two plans are closely 
intertwined, are they not?
    Mr. Reynolds. Absolutely. As a matter of fact, the Yosemite 
Valley Plan is constrained by the Merced River Plan.
    Mr. Doolittle. The facts that I have before me indicate 
that my assertion about that is, indeed, correct. I would 
appreciate your looking into it and submitting for the record 
what the answer is. If it should be different than that, then--
I understand there wasn't much time. If four days is not right, 
I don't believe there were very many days between the release 
for inspection by the public of the Merced River Plan and the 
end of the comment period for the Valley Plan.
    Mr. Reynolds. We would be glad to provide that.
    [The response to the aforementioned question follows:]

    In response to a question asked by Mr. Doolittle to John 
Reynolds concerning the timing of the Final Merced River Plan 
and the Yosemite Valley Plan:
    The Final Merced River Plan was available by mail and on 
the park's website on June 20, 2000. The comment period on the 
Draft Yosemite Valley Plan closed on July 14, 2000.
    While the Final Merced River Plan was being printed during 
the spring of 2000, the park actively provided information to 
the public about its contents. At each of the 19 formal public 
meetings on the Draft Yosemite Valley Plan during May and June 
2000, and at the 63 open houses held throughout the public 
comment period, information regarding the Final Merced River 
Plan was made available to the public.

    Mr. Reynolds. In addition, as you well now, the Yosemite 
Valley Plan was started long before the Merced River Plan was 
finished, and so--
    Mr. Doolittle. It must have been in the works for 20 years, 
right?
    Mr. Reynolds. Well, this particular piece. Actually, as 
others here in this room know, it has been a lot longer than 20 
years.
    Mr. Radanovich. Wasn't the plan created before Yosemite was 
created? Forgive me, John--
    Mr. Reynolds. No. As a matter of fact, just as an aside, 
Yosemite never had a long-range plan approved for it until 
1980, so it came about originally in 1864, so that's a long way 
to have any rational piece of paper in front of you.
    Mr. Doolittle. It's my understanding there was a 90-day 
comment period on the draft, and then a 90-day comment period 
on the final. Is that correct?
    Mr. Reynolds. Yes, sir.
    Mr. Doolittle. For a plan that you have said was even 
longer than 20 years--and I thought 20 years sounded pretty 
long--does that strike you as unnecessarily brief, given the 
severe potential impacts this plan can have on everything, from 
the visitor experience, to the quality of the resource 
management, to the impact on the gateway communities?
    Mr. Reynolds. Well, sir, obviously my answer has to be no, 
and it's twice as long as the norm is in the regulation. But, 
on the other hand, I would agree with you, that the public, in 
all of its forums, should have ample time. We believe that 
there was, and we made a tremendous effort to get out and to be 
able to talk to people in their communities.
    I would have to say that yes, we did provide a lot of 
opportunity for people to be involved.
    Mr. Doolittle. If your research confirms that there was a 
very brief period between the release of the Merced River Plan 
and the close of the comment period on the Valley Plan, would 
you support a reopening of the Valley Plan for an extended 
comment period?
    Mr. Reynolds. No, sir, I would not.
    Mr. Doolittle. Would you support reopening of the Plan 
under any circumstances?
    Mr. Reynolds. No, sir, I would not. And the reason is that 
I believe there is lots and lots in this Plan that is both 
funded and agreed to by a lot of people.
    Mr. Doolittle. Sir, didn't you indicate earlier that you 
would be concerned if there were only a few days between the 
release of the Merced River Plan and the close of the comment 
period? I thought I understood that manifestation of concern.
    Mr. Reynolds. I did. But I--
    Mr. Doolittle. But it wasn't that strong a concern 
apparently.
    Mr. Reynolds. But I would also take into account how much 
people had the opportunity before the Yosemite Valley Plan was 
finalized to take into account what happened.
    If I may continue, the reason I would not reopen it is 
because I think there's lots of things that a lot of people 
agreed to, and there is some money to be able to do those 
things right away.
    If we stop, nothing will happen in Yosemite for probably 
another 10 years. The current condition that exists there today 
will be the status quo for that time.
    Mr. Doolittle. Oh, I have other questions, but my time is 
up.
    May I just ask this one. Air quality is one of the concerns 
advanced for restricting the cars, is that right?
    Mr. Reynolds. Yes.
    Mr. Doolittle. Could you confirm, then--with reference to 
the Merced River Plan, I am told that the Plan deleted air 
quality as an outstanding resource value. True or false?
    Mr. Mihalic. Mr. Doolittle, I think we'll have to get back 
to you exactly. But as an outstanding resource value for the 
River, the Wild and Scenic Rivers Act specifically speaks to 
issues in which the value is directly related to the River, and 
if I recall, between the draft and the final, air quality was 
deleted as an outstanding resource value for the Merced River.
    In other words, the Merced River was not designated a wild 
and scenic river because of air quality. What that doesn't 
imply is that it somehow is not an outstanding resource value, 
in a sense, for the Valley or for our planning efforts for 
Yosemite National Park.
    Mr. Doolittle. Well, I'll close with this. I would just 
observe, Mr. Chairman, that the deletion of air quality as an 
outstanding resource value has the effect to advance forward 
this mass transit plan. Those buses will be belching diesel 
fumes, because that's the available technology. That's a far 
dirtier quality of air than would be coming out of automobiles. 
It's important that air quality be deleted as an outstanding 
resource value from this plan in order to allow the mass 
transit to move forward.
    I would just submit that this whole thing has been 
manipulated by the Park Service to promote these buses. I would 
like to say more about it and ask more questions, but I'm out 
of time. I thank you.
    [The response to the aforementioned question follows:]

    Response to a question asked by Mr. Doolittle to John 
Reynolds concerning the decision not to use air quality as an 
outstanding resource value in the Merced River Plan:
    Air quality was not included in the Merced River Plan as an 
Outstandingly Remarkable Value because it does not meet the 
criteria for such. In accordance with the Interagency Wild and 
Scenic Rivers Coordinating Council Reference Guide (joint 
document prepared by the Bureau of Land Management, National 
Park Service, U.S. Fish and Wildlife Service, and the U.S. 
Forest Service) in order to be considered, two vital questions 
must be answered to establish the criteria for selection of 
Outstandingly Remarkable Values:
    <bullet> LIs the value river-related or river-dependent?
    <bullet> LIs the value rare, unique, or exemplary in a 
regional or national context?
    Air quality does not meet the criteria for being included 
as an Outstandingly Remarkable Value, and was not included in 
the original 1987 Wild and Scenic River designation..

    Mr. Radanovich. Thank you, Mr. Doolittle.
    Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman.
    I want to go back a bit to traffic, realizing that at least 
half of the emissions, half of the air quality, is affected by 
automobile emissions, but there is also a matter of a lot of 
congestion and traffic congestion.
    What would be the level of traffic congestion in the 
Yosemite Valley on a typical summer day?
    Mr. Reynolds. That is kind of--I don't know how to 
characterize this so that it's understandable.
    Mrs. Christensen. Even though it's a seven-mile long area, 
there is an area that is probably more likely to get a lot of 
traffic, a particular area.
    Mr. Reynolds. Obviously, there are locations within the 
Valley that exhibit congestion, severe congestion, more so than 
other locations in the Valley. It is the intent of this Plan to 
not only eliminate those but to create a situation where 
additional places in the Valley do not become severely 
congested.
    Mrs. Christensen. But in reducing the amount of traffic, 
that would really enhance or improve the visitor experience, 
would it not? Isn't that what you're getting towards, instead 
of having a lot of traffic going through, wouldn't reducing the 
traffic really--For an area where most people can walk or bike 
or so forth, does it enhance it or does it go against the 
visitor experience?
    Mr. Reynolds. We believe it enhances it tremendously.
    Mrs. Christensen. Thank you. I think that answers my 
question.
    Mr. Radanovich. Thank you very much.
    To address a number of things that have been said in the 
past, this air quality thing is not relevant, I think, to this 
Plan, at least in my opinion, because so much of the air 
pollution that might happen in Yosemite comes from everywhere, 
from San Francisco and all points in between, meaning the Bay 
Area, the Central Valley. The trade winds, on inversion days, 
bring all that smog up against the west side of the Sierras.
    This Plan is really six of one and half-dozen of the other 
as far as air quality is concerned in the Park, don't you 
think? Give me some reason to think otherwise.
    Mr. Mihalic. Mr. Chairman, I think Mr. Doolittle's concerns 
are certainly valid. If we meant to imply that air quality 
wasn't a concern of ours, then we misspoke, because--
    Mr. Radanovich. No, I know that air quality is a concern, 
but this Plan doesn't address that, unless its campfires.
    Mr. Mihalic. This plan does address air quality because of 
the issues of the foothill communities, which are both in your 
district and Mr. Doolittle's district, the counties that will 
become nonattainment areas.
    One of the official air quality monitoring sites for 
Mariposa County is--
    Mr. Radanovich. --is Yosemite Valley.
    Mr. Mihalic. --is in Yosemite Valley. So if we can reduce 
air quality in Yosemite Valley, it obviously will be of benefit 
to the remainder of the county. And since both Tuolumne County 
and Mariposa County are both going to be treated as one air 
quality district, we believe--
    Mr. Doolittle. Mr. Chairman, did the witness mean if they 
can improve air quality or reduce air quality? The bus plan 
will reduce air quality, I believe, but I think you meant to 
say if you can improve it.
    Mr. Mihalic. That's what I did mean to say, Mr. Doolittle. 
Thank you.
    Mr. Reynolds. And I might clarify that the buses that we 
are specifying are California standard buses for the future 
standard. They are the cleanest buses in the world. They are 
not the traditional bus that exists today.
    Mr. Radanovich. But to say that the Yosemite Plan improves 
air quality in the Park and enhances the visitor experience I 
think is a real stretch, mainly because the bulk of the air 
quality issues are a result of Bay Area pollution, air 
pollution, and Central Valley.
    I mean, if you're going to address it, unfortunately, you 
have to address that in order to make this work. I mean, that's 
just my comment.
    Mr. Reynolds. First, within the Valley, we can improve the 
air quality in the Valley by reducing the number of miles 
traveled, with high technology buses. So we can improve the air 
quality of the Valley.
    Mr. Radanovich. But it will never have a significant 
impact, I think, on the air quality because you can't deal with 
Bay Area and Central Valley pollution.
    Mr. Reynolds. Nonetheless, we are required by law to 
reduce--
    Mr. Radanovich. Right, I understand. But to say this is a 
big improvement in air quality for the Park I think is a bit of 
a stretch.
    Mr. Reynolds. It is an improvement. I will leave out the 
word ``big''.
    Mr. Radanovich. Let's have a discussion about bridges now. 
There are three bridges that are planned to be removed, 
according to this Plan; am I right?
     Mr. Mihalic. Mr. Chairman, there were three proposed in 
the draft plan. There is only one bridge proposed in the final 
plan, with a hydrologic study to look at the effects of, once 
the first bridge is removed, then determining about the other 
bridges.
    Mr. Radanovich. And that would be Stoneman?
    Mr. Mihalic. The bridge to be removed is Sugar Pine Bridge, 
which would be the farthest bridge upstream, and then Stoneman 
would only be removed if the hydrologic study determined that 
it would be necessary to meet the requirements of the Wild and 
Scenic Rivers Act.
    Mr. Radanovich. Now, to my knowledge--is it Sugar Pine 
Bridge, did you say, Dave?
    Mr. Mihalic. Yes, Mr. Chairman.
    Mr. Radanovich. This is a bridge that is not on a road any 
more, right?
    Mr. Mihalic. That's correct, Mr. Chairman.
    Mr. Radanovich. What's the point of keeping the bridge?
    Mr. Mihalic. Well, the point would be one of two points. As 
Mr. Doolittle rightfully points out, it is a historic bridge, 
and under the National Historic Preservation Act, has historic 
values which we are required to look at, just as we look at any 
other values. Right now it is part of the trail system, and we 
believe we could actually reroute the trail around fairly 
easily to get around that bridge. It is part of our trail 
system. It is not part of the road system.
    Mr. Radanovich. Then the other bridge was the foot-bridge 
that went from across the River from Housekeeping. Is that not 
a part of the final ROD?
    Mr. Mihalic. The bridge from Housekeeping was part of the 
draft plan, and as a result of public input, we determined that 
we would not remove it as part of the final Record of Decision.
    Mr. Radanovich. Is it possible to use the money that's been 
appropriated already to restore Stoneman Bridge to where it was 
prior to any flooding? As you know, the way Stoneman Bridge is 
set up, there is the arch where the river runs through, and 
then there's two passageways for pedestrians on each side, 
which is now part of the river, because the river is flooded 
and the banks have not been restored to pre-flood stages.
    Can you use part of that money to restore the bridge for 
the use that it was originally intended?
    Mr. Reynolds. I think we're looking at each other because I 
think you know more than we do in this case.
    Mr. Radanovich. It would just be pushing the bank back up 
to the river. I think the problem--
    Mr. Reynolds. I would like to provide an official answer 
for the record. But I think the answer is no, because of the 
impact on a free flowing wild and scenic river.
    [The response to the aforementioned question follows:]

    Response to a question asked by Mr. Radanovich to John 
Reynolds concerning the Stoneman Bridge:
    At Stoneman Bridge, the Merced River has widened to the 
point where the bridal paths that passed through the arches on 
either side of the bridge have been inundated. This widening 
has been caused by ongoing and gradual changes in the dynamics 
of the river, rather than as a result of the 1997 flood. 
Following the flood, the damage assessments identified bridge 
abutment damage at Tenaya, Sugar Pine, and Ahwahnee Bridges, 
but did not note any damage at Stoneman Bridge. Therefore, no 
flood recovery funding was requested for Stoneman Bridge.

    Mr. Radanovich. Has there been any studies to split 
Stoneman Bridge and just lengthen it, in order to save the 
bridge?
    Mr. Reynolds. No, there has not been.
    Mr. Radanovich. Part of the problem with Stoneman Bridge is 
the bridge itself, and that the river, if left alone, would go 
around the bridge and make it an island. The other part is that 
it's a vital link to a part of the northside drive, which a lot 
of people don't want to see removed, and that's part of what 
the controversy is.
    But there isn't that type of controversy on the Sugar Pine 
Bridge to the north. That literally is a bridge that--it's part 
of the walkway system, but it's not being used by automobiles 
right now, right?
    Mr. Reynolds. Correct, sir.
    Mr. Radanovich. With regard to consultation, it has always 
been my opinion that, in this process of public hearings, I 
think they began to do a lot of good. I think some of the far 
flung ideas for solutions to the Yosemite traffic problem were 
vetted properly and I think the Park Service learned a lot from 
these public hearings, and also the outlying communities did.
    I thought that it was hastened, though, by the end of the 
Clinton administration in their desire to want to have a Record 
of Decision by the time the administration ended. I think it 
would have been better served had this public hearing process 
gone on for perhaps another six months to a year. I think we 
could have gotten to some better solutions.
    Now, you are not beholding to the prior administration. I 
guess what I want is some idea from you as to whether or not 
you think this project was hastened and improperly drawn to a 
conclusion by the end of this last administration.
    Mr. Reynolds. I am probably a bad person to ask, sir, 
because I have been, as you know, involved in the planning and 
decision making for the Yosemite Valley for 25 years. So I 
think if there's anyone that wanted to have a very good 
process, that included lots and lots of people and took into 
account the best information we had available and get a 
decision so we could start spending the flood money, it was me. 
It was me.
    So I didn't feel a particular lot of pressure from the 
Secretary. I mean, he never came and told me, ``John, you had 
better damn well have this thing done.'' But I wanted it done 
pretty badly. I also wanted to have what I considered to be a 
very open process, with lots and lots of public involvement.
    Mr. Radanovich. Mr. Mihalic, would you care to respond?
    Mr. Mihalic. Mr. Chairman, I think obviously there would be 
opinions that would differ on whether to stretch the planning 
out further or bring it to some conclusion. The very good thing 
about having a deadline--and I'm reminded that this process 
started long before I got to the Park--the very good part about 
having a deadline was that it did focus people's attention, it 
kept people engaged, for the time period since the flood in 
1997 until the end of December of 2000, when the Record of 
Decision was signed, everybody who had an interest in Yosemite 
was heavily involved and engaged, not necessarily full time, 
but certainly fully engaged in the planning process. I think it 
actually gave us a better plan as a result.
    My concern is that if we keep it up as it was prior to the 
flood, where planning just happened every now and then and 
never came to conclusion, we would never get to a final plan.
    Mr. Radanovich. Thank you very much.
    Ms. McCollum, did you have any questions?
    Ms. McCollum. Mr. Chairman, I know you were moving on to 
bridges, but in the Yosemite Final Plan, it does--and I won't 
get into all that, Mr. Chair--there is some serious discussion 
about air quality in here, ozone. We have done much, probably 
because of the stringent laws that California has passed, in 
going from 1995, 11 days exceeding the California standard, to 
1997, which is the last date on here, three days of the 
standard.
    Congressman Doolittle, I certainly agree with you, that 
buses do pollute. But I think if we were to look on the basis 
for California emission standards, one bus versus 40 cars going 
through, I think we would start seeing an analysis that would 
show we're better off with more condensed people making fewer 
trips.
    Mr. Chair, I also would like to ask the Park Service if 
they would be kind enough--When I was asking for the 
maintenance on the parking lots, I forgot to ask for your 
maintenance on roads, too, and the contributing factors, or 
what you might see in road savings by having fewer vehicles 
going on your Park roads. If you could provide that to me, also 
at your convenience, I would appreciate it.
    Mr. Reynolds. We will do so.
    Ms. McCollum. Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you.
    Mr. Udall.
    Mr. Udall of New Mexico. Thank you, Mr. Chairman.
    Just to follow up on Ms. McCollum's question here on the 
buses, for the record, could you tell me--are you talking about 
future buses that are going to be the latest California buses, 
and could you tell us about that bus, the pollution, and what 
it runs on?
    Mr. Reynolds. Dave can, sir.
    Mr. Udall of New Mexico. Okay. Thank you.
    Mr. Reynolds. I'm glad we have him here today.
    Mr. Udall of New Mexico. So am I.
    Mr. Mihalic. Mr. Chairman and Mr. Udall, the bus issue, as 
has been pointed out, the Plan does discuss air quality quite 
extensively.
    With respect to the buses, in almost all of the measurable 
areas of air quality, the Plan will call for reductions in 
those various parameters of air quality, overall.
    The buses we're speaking to are actually two different 
kinds of buses. The buses that we are moving forward now to 
replace the existing shuttle fleet in the Valley, which are 
diesel buses, they are diesel buses of old technology, we--
    Mr. Udall of New Mexico. So that have extensive particulate 
emissions and all the--
    Mr. Mihalic. They're horrible, sir.
    Mr. Udall of New Mexico. And the smoke that you see on the 
freeways and all that with diesels, the same kind of thing?
    Mr. Mihalic. Exactly.
    Mr. Udall of New Mexico. And you're replacing those?
    Mr. Mihalic. We're replacing those. It will take--with the 
Federal procurement process, it will take about two years to 
get either alternative fuel or a hybrid fuel type of vehicle, 
hybrid meaning either a very small gas or diesel engine that is 
very efficient, that then drives a generator for electric 
powered buses, or something similar in terms of alternative 
fuels. Those are in the Valley where it's flat.
    The buses that will have to come from outside the Park into 
the Valley, if we had fuel cell technology, we would make a 
huge difference. But that's years away. We could either wait 
for that technology to happen, or what we have proposed is 
that, with the clean diesel standards that California has 
proposed, that any buses that would be used in shuttle systems 
would meet those clean fuel standards. But it would have to be 
diesel at this point because they're going from 1,000 feet up 
to 4,000 feet. As Mr. Reynolds said, the Valley floor is about 
4,000 feet, so it's constantly going uphill and then back 
downhill. That would have to be diesel technology, but it would 
be the best available. We would hope the future diesel 
technology for California standards will be the best in the 
Nation.
    Mr. Udall of New Mexico. Go ahead, Mr. Reynolds.
    Mr. Reynolds. I believe the new California standards go 
into effect in 2004, if I'm not mistaken, so all diesel in 
California will have to move to the new standard.
    Mr. Udall of New Mexico. So we're talking about not only 
improving air quality, in terms of changing over to these 
buses, but we're probably talking about lowering the noise 
level, too, with the noisiness that diesels have compared to 
these newer technologies you're talking about.
    Mr. Reynolds. For the shuttles in particular inside the 
Valley, yes.
    Mr. Udall of New Mexico. Okay. Thank you.
    Thank you, Mr. Chairman.
    Mr. Radanovich. You're welcome.
    I'm going to ask a couple more questions, and then we'll 
move on to the next panel. One thing I wanted to mention, I 
have a memo dated August 4, 1999, from then Secretary of 
Interior Bruce Babbitt, to members of the National Park 
Service, which was a comment that was a reaction from a Federal 
court ruling that enjoined the Park from doing any further work 
on the planning effort because of an issue with the Merced 
River.
    In that the Secretary states, ``Bob Anderson has advised me 
that it is still possible to complete a final Valley EIS by the 
end of FY 2000, and I have directed him to see that these 
interim deadlines are met and that the ROD is signed prior to 
the end of the Clinton administration.'' So it really was the 
goal, I think, of this past administration to get this thing 
done, whether it was done in a timely manner or not.
    Two more questions and then I'll be done. You mentioned the 
upper and lower river campgrounds being in the flood plain. 
Does that mean that both campgrounds are entirely within the 
flood plain?
    Mr. Reynolds. Yes, sir, that's correct.
    Mr. Radanovich. So the entire campgrounds are included in 
that?
    Mr. Reynolds. Yes, sir.
    Mr. Radanovich. The other question I have, the Park Service 
and concessionaire housing continue to be an area of concern to 
employees in Yosemite. Congress has authorized the Park to 
contract for off-site housing for employees in 1996.
    What progress has been made in that effort, and what do we 
need to do to encourage movement toward the public-private 
partnership?
    Mr. Reynolds. Well, I think both of us should answer that. 
The first thing I would say is, the more encouragement that you 
and the Committee and anybody else can give us, the better off 
we're all going to be.
    The Park Service has not made significant strides in 
implementing that part of the law. Knowledge in Yosemite about 
ways in which that might happen is probably higher than 
anyplace else in the Park System. The need to drive us, for 
both of us to drive ourselves and you to drive us to implement 
that experience, to find ways to do it, would be extremely 
helpful.
    Now, in terms of a more technical response, let me ask Dave 
if he would like to say a few words, if I may.
    Mr. Mihalic. Mr. Chairman, the bill that Mr. Reynolds 
refers to is the 1996 National Park Service Omnibus Act, which 
did provide special authorities. I don't know if a final 
decision has been made, but we believe that Yosemite will be 
one of the test cases for the National Park Service for having 
this type of housing.
    We have broached the subject with county officials, and 
everybody is very favorable to us doing that. One of the things 
that would be helpful is if we could participate in the 
Mariposa County general plan, which as you know, this plan 
deals only with the Yosemite Valley, which is part of the 
larger Yosemite National Park. We are constrained, in terms of 
solving our problems within Park boundaries. Nonetheless, many 
of our problems, housing and moving office space out of the 
Park, would probably be more efficient if we did it outside the 
Park. The best opportunity to do that would be to participate 
with the county.
    However, right now, while we have the authority to do that, 
we don't have the funding to participate.
    Mr. Radanovich. Thank you.
    Mr. Reynolds. May I also add, sir--I hope I'm not 
interrupting you--both the General Services Administration and 
the U.S. Forest Service have authorities that we do not have, 
that we're exploring the ability to use, in either housing or 
office space outside of the Park itself.
    Mr. Radanovich. Okay. Thank you.
    I want to thank you both very much, Mr. Reynolds and 
Superintendent Mihalic, for testifying here.
    Mr. Reynolds. Mr. Radanovich, may I just say thank you very 
much for this hearing. We have appreciated it very much and we 
appreciated the questions and the atmosphere in which we were 
asked to respond. Thank you, sir.
    Mr. Radanovich. You're welcome. And thanks for being here.
    Mr. Radanovich. Our next panel includes Mr. Gary Gilbert, 
who is Chairman of the Board of Supervisors for Madera County, 
California; Mr. Doug Balmain, Chairman of the Board of 
Supervisors for Mariposa County; and Mr. Gregory Oliver, who is 
the Tuolumne County Counsel, from Sonora, California.
    Welcome, gentlemen. I'm sorry it took so long to get to 
you. There is just a lot of questions about this Park that need 
to be asked and answered.
    Mr. Gilbert, if you would like to begin, what we will do is 
hear testimony from each of you and then questions will be from 
me alone, it looks like. I'm kind of the ``Lone Ranger'' up 
here right now. Perhaps some other members will come back. But 
you each have five minutes to read and/or summarize your 
comments.

  STATEMENT OF GARY GILBERT, CHAIRMAN, MADERA COUNTY BOARD OF 
                SUPERVISORS, MADERA, CALIFORNIA

    Mr. Gilbert. My name is Gary Gilbert, and I am Chairman of 
the Madera County Board of Supervisors. I would like to also 
thank you, Mr. Chairman and distinguished members of your 
Committee, for this opportunity to discuss the Yosemite Valley 
Plan.
    The word ``implementation'' implies the Valley Plan has 
been developed through a legally-mandated process and 
administered with integrity. Our Congressman, Congressman 
Radanovich, has recently stated, ``the preparation of this 
plan, in fact, the entire planning process, has been fatally 
flawed.'' Our written testimony will further support his 
statements.
    Today, you're going to hear varying points of view, but 
Madera County comes before you representing the gateway 
community of Oakhurst and other small communities on Highway 
41. We have no conflicts of interest. Madera County's budget 
does not contain any Park pass-through taxes. We have no well-
placed individuals in government agencies, and we receive no 
donations from special interests.
    The Yosemite Valley Plan and the Merced River Plan were 
negotiated by Secretary Babbitt from a prior position of 
political power and special interests. As legally mandated, the 
public participated in that process. Major funding had already 
been allocated and the agendas had been aligned.
    The 1997 flood request was misrepresented to Congress. More 
than $123 million was for nonflood projects. The 1997 
Congressional Report further documented that the Park Service 
is using the occasion of the flood to advance an entirely 
separate agenda other than flood restoration.
    That separate agenda can be traced to a 1994 transportation 
study. It focused on Yosemite and it mainly focused on mass 
transit tourism. Secretary Babbitt again, from his position of 
power, referred to the flood as a ``heaven sent'' event and 
implemented his agenda that will forever change the way the 
American public accesses our national park.
    In 1997, an MOU between the Department of Interior and 
Transportation again targeted not only Yosemite, but the Grand 
Canyon and Zion for mass transit tourism. In 1998, Congress 
passed TEA-21. Again, funding is provided in that legislation 
for Yosemite National Park for development of a regional 
transportation system.
    Your Resource Committee documents confirm that one of the 
shortcomings of NEPA is the sham of public participation when 
decisions have already been made. That was exactly the 
environment in which both the Merced River and Yosemite Valley 
Plans were prepared.
    In 1987, Congress designated the Merced River wild and 
scenic. That designation required the Park Service to develop a 
river management plan within three years. Thirteen years later, 
and only after a court order, Yosemite National Park finally 
complied. That plan was assembled in three months. It lacked 
scientific credibility and is currently in litigation.
    It is impossible to make informed decisions on the proposed 
projects in the Valley Plan without a clear understanding of 
the River Plan. Yet, the Valley Plan was at the printers before 
the public comment period for the River Plan had even closed. 
The Record of Decision for the River Plan was made in November 
of 2000, well beyond the close of comment on the Valley Plan. 
Again, a sham of public participation. The goal was to get the 
River Plan Record of Decision completed before the Clinton 
administration left office. Such political manipulation and 
control of time lines have no place in safeguarding the future 
of Yosemite.
    The Valley Plan acknowledges underrepresentation of low 
income and non-Anglo visitors. There is a lack of appropriate 
studies, and the Plan assumes that these visitors will use 
inexpensive methods of visitation, such as day use, camping, 
and tent/cabin rentals and concludes that the Plan may impact 
and perhaps displace this population.
    The Plan further targets day visitors for inconvenient bus 
rides, with additional expenses, with an increased dependence 
upon the concessionaire, with the removal of nearly 300 
campsites, 400 tent cabins, and that's on top of a higher gate 
fee.
    Do you ever wonder what the largest percentage of visitors 
to Yosemite National Park is and their annual income? It's over 
$100,000 per year.
    The Yosemite Valley Plan is a framework of open-ended 
documents. It promises to embark on a resource inventory and 
monitoring program within the next five years, it will have an 
inventory monitoring, and within the next five years it will 
have carrying capacities, and in the next five years it will 
design a traffic system.
    The Valley Plan's transportation element proposes an urban 
design bus system, complete with massive park-and-ride lots, 
more than 500 daily round trip buses--and that's one diesel bus 
arriving every 1.4 minutes during the peak period---a 22-bay 
transit center in the heart of Yosemite Valley, as well as 
other out-of-place infrastructure. This remote staging option 
was dismissed by the Park Service consultants in the 1994 
study. Yet, it's the centerpiece for this Valley Plan.
    The prior administration's political legacy and abuse of 
power will cause irreparable damage to the environment, waste 
hundreds of millions of taxpayers' dollars, gamble with the 
economic vitality of our gateway communities, and ultimately 
restrict the freedom of Americans to access and enjoy their 
park.
    As a Committee, you are faced with the challenge of sorting 
out the truth. We would respectfully request that: as a 
Committee, that no funding be appropriated for the 
implementation of this Yosemite Valley Plan, or YARTS, the 
Yosemite Area Regional Transportation System; set aside and 
rescind this Valley Plan; redo the Merced River Plan in full 
compliance with the protective mandate of the Wild and Scenic 
Rivers Act; schedule follow-up hearings in our local 
congressional districts to more fairly and fully understand the 
impacts of this Park's planning process, and finally, return 
the leftover flood money, $110 million, that was never used for 
damage caused directly by this disaster to the U.S. Treasurer.
    Thank you very much.
    [The prepared statement of Mr. Gilbert follows:]

Statement of Gary Gilbert, Chairman, Madera County Board of Supervisors

    Mr. Chairman and distinguished members of the committee, thank you 
for this opportunity to represent the concerns of the people of Madera 
County with respect to the Yosemite Valley Plan.
    Your written communication refers to implementation of the Valley 
Plan. We believe any discussion of implementation is premature. 
Instead, we request that the committee thoroughly investigate the 
flawed process by which this Plan was developed, calling into question 
the validity of the Plan itself. Charged with oversight of the National 
Park Service, the National Environmental Policy Act (NEPA) and thus the 
Council on Environmental Quality (CEQ) which NEPA created, the 
committee is in a unique position to recommend that this Yosemite 
Valley Plan be rescinded before the magnificent splendor that is 
Yosemite National Park is destroyed forever.
    In testimony today, we urge the following:
    --No funding be appropriated for this Yosemite Valley Plan
    --Set aside/rescind this Yosemite Valley Plan
    --All excess flood funding ($110 million) be returned to the U.S. 
Treasury
    --Redo the Merced River Plan in full compliance with the protective 
mandate of the Wild and Scenic Rivers Act, thus creating a solid 
foundation for all future plans`
    --Schedule follow-up hearings in the local districts to more fairly 
and fully understand the impacts of park planning
    Former Interior Secretary Bruce Babbitt commented to the 
Commonwealth Club (3/27/00) that ``the problem with Yosemite--it's got 
too damn many friends; I wish about 95% of them would go home and shut 
up.'' We always wondered what it would take to be among the favored 5%. 
Campaign contributions?? Special interest trade-offs?? Political 
paybacks?? Instead we trust that the Bush administration and members of 
this committee have the courage and integrity to examine the truth and 
respond to the American people with the respect they deserve.
    As Congressman Radanovich has publicly stated in the press, ``the 
preparation of the plan, in fact the entire planning process, has been 
fatally flawed.'' We could not agree more.
                    97 flood request misrepresented
    When Congress passed Public Law 105-18 in June of 1997 awarding a 
$187,321,000 flood recovery package to Yosemite National Park, it was 
with the understanding that it would be used ``--for ``construction'' 
for emergency expenses resulting from flooding and other natural 
disasters--'' Yet then-Superintendent B.J. Griffin testified at the 
subcommittee El Portal Oversight Hearing (3/22/97) that more than $123 
million was for pre-flood projects.
    And as stated in the ``Trip Report for Field Hearing on Yosemite 
Floods and to Conduct a review of the $200 million Emergency 
Supplemental Request for Appropriations for Yosemite'' prepared for 
this committee (3/26/97) by a member of your professional staff:
          "According to the transmittal by the White House to Congress, 
        `Each request has been kept to the absolute essential level and 
        is limited to the amount necessary to restore damaged 
        property--that is, damage caused directly by the disaster--to 
        its pre-damaged condition.' This is not true with respect to 
        the request for Yosemite Park. In addition, the National Park 
        Service has stated that its recovery proposal is guided by 
        three principles: (1) the 1980 General Management Plan, (2) 
        protection of park facilities from a similar level of flooding 
        in the future, and (3) reduction of the development footprint 
        in Yosemite Valley. These statements are also not accurate."
          "It is also clear that the National Park Service is using the 
        occasion of the flood to advance an entirely separate agenda 
        from flood restoration."
    Apparently, such controversial warning signs were pushed aside in 
favor of the political capital that could be gained in solidifying 
funding to repair one of the world's treasures; you trusted that the 
funds would be used with integrity. But the ``red flags'' that were 
courageously raised in that congressional report have come back to 
haunt all of us; they are the centerpiece of why we're here today and 
they have fueled the controversy that has surrounded the Yosemite 
planning process for the past four years.
    Congress, in its haste to do good things, awarded money IN ADVANCE 
for projects that were not part of any publicly approved plan--for 
example, removing Upper and Lower Rivers Campgrounds (utilities still 
intact), closing/rerouting Northside Drive, relocating concession 
employee housing, constructing new/upgraded (more expensive) lodging, 
rebuilding/widening El Portal road under the guise of repairs, an 
overblown multimillion dollar mass transit plan, and more. In fact, 
closing down the Rivers Campgrounds, closing Northside Drive, and mass 
transit tourism were integral parts of the ``Alternative Transportation 
Modes Feasibility Study'' (1994) prepared by consultants BRW/Dames and 
Moore for the National Park Service. Such projects had nothing to do 
with ``emergency expenses resulting from flooding and other natural 
disasters'' but instead were identified as critical to the consultant's 
idea of a master transportation plan for the park.
    In a desperate attempt to stop the Park ``spending spree,'' 
lawsuits and injunctions were filed by the public with the court 
ultimately ordering that all Yosemite Valley projects be placed under 
one comprehensive planning process. Now four years later and with 
Secretary Babbitt's endorsement, the Park Service claims to have $110 
million ``left over'' from the flood money (and more than $60 million 
in gate fees) to begin implementing the Yosemite Valley Plan. Yet 
something as basic as the sewage infrastructure, which was severely 
damaged in the flood, is in such disrepair and so poorly maintained 
that the California Regional Water Quality Control Board has voted to 
begin fining the National Park Service for their negligence in the 
never-ending sewage spills, the only apparent recourse in dealing with 
a nonresponsive federal agency.
    Taxpayers, terribly concerned about damage caused by what was 
promoted as a 100-year flood fully endorsed a flood repair package; but 
instead they ran head on into Park Service bureaucrats flush with cash, 
now armed to implement an agenda dictated from Washington, D.C. As 
Interior Secretary Babbitt told the Sacramento Bee: ``It was a heaven-
sent event, tantamount to Hercules cleaning out the Aegean stables.'' 
Eager to implement a long-elusive valley decongestion plan that the 
Carter administration had unveiled back in 1980, the post-flood 
generosity of Congress now made Secretary Babbitt's goal a reality. But 
the public trust has been betrayed.
                            a top-down plan
    From the onset, the Yosemite Valley Plan has been dictated from 
Washington, D.C. As Secretary Babbitt told supporters in his 
Commonwealth Club presentation (3/27/00), ``I immersed myself in this 
issue of the future of Yosemite very shortly after I went to Washington 
in 1993.--
    Actively involved in gaining endorsement of the Flood Recovery 
Package, Secretary Babbitt was soon a co-signer with Secretary Rodney 
Slater as part of a Department of Interior/Department of Transportation 
Memorandum of Understanding orchestrated by President Clinton (November 
1997); the MOU specifically targeted three parks for vehicle reduction 
and mass transit implementation--the Grand Canyon, Zion, and Yosemite. 
This action was nothing more than an executive order, a federal 
mandate. The public never had any say.
    Then in May of 1998, Congress passed the Transportation Equity Act 
for the 21st Century (TEA 21)--a comprehensive bill which funded 
various surface transportation programs at a total of $217 billion over 
six years. This bill opened up a tremendous number of additional 
funding opportunities to the National Parks ($165 million annually) and 
specifically referenced development of ``a regional transportation 
system as well as in-park transit and intermodal transportation 
circulation plans'' at Yosemite National Park. Shortly thereafter, DOT 
shared full-time staff on site at Yosemite specifically charged with 
implementing a transit program.
    To further support and reinforce planning decisions, the Department 
of Interior and the National Park Service released a flurry of new and 
revised Director's Orders. And though mass transportation is the 
foundational element of the Yosemite Valley Plan and therefore opened 
to comment through the required public hearing process, the funding and 
the political agendas had already aligned. According to House 
documents, at a full Resources Committee hearing on March 18, 1998, the 
administration admitted that it had ``not well implemented'' NEPA and 
testified to some of the shortcomings including ``the sham of public 
participation when decisions have really been made already.'' This 
Yosemite Valley Plan and the Merced River Management Plan appear to be 
casualties of that administration.
    As stated in the Los Angeles Times (11/14/00), ``Babbitt personally 
intervened in the drafting of the final report. He has said he regards 
the Yosemite Valley Plan as central to the Clinton administration's 
environmental legacy.--
    The top-down effort was not lost on the press as a host of articles 
reflected Babbitt's involvement in their headlines: ``Interior to 
develop plan for reducing crush of cars, air pollution at Yosemite 
(Washington Times, 12/8/98); ``White House Tries Again to Restore 
Yosemite'' (New York Times, 11/12/00); ``Government Acts to Reduce 
Yosemite Traffic'' (Associated Press, 11/14/00); ``Babbitt Releases 
Plan for Yosemite'' (Washington Times, 11/15/00); ``Feds want fewer 
cars, rooms in Yosemite National Park'' (San Francisco Examiner, 3/28/
00); ``New Plan To Reduce Traffic at Yosemite; Babbitt wants satellite 
parking lots outside valley'' (San Francisco Chronicle, 3/25/00); et 
al.
    Current Interior Secretary Gale Norton in testimony (3/18/98) 
before the House Committee on Resources Oversight Hearing on the 
National Environmental Policy Act stated the following: ``The original 
goal of NEPA and of many other environmental statutes was to forge a 
federal-state partnership in protecting the environment. In NEPA, state 
and local governments were to have an essential part in determining the 
environmental and societal impacts of federal actions.'' ``--after NEPA 
declared national environmental policy, Congress intended and wrote the 
concept of ``state primacy'' into all subsequent major federal 
environmental statutes.'' ``The federal agencies--often pay lip service 
to state primacy, but in practice, the agencies have mastered the art 
of ``mission creep,'' using their budgets and authorities to 
micromanage the 50 states. That approach is not just bad policy: it 
defies the will of Congress as expressed in NEPA and the subsequent 
environmental statutes.'' ``To return to the original intent of 
Congress in NEPA and so many other environmental statutes, I (Gale 
Norton) recommend--Congress should require that agencies consult at an 
early stage with state and local governments in developing 
environmental impact statements. It should be clear in NEPA that an 
environmental impact statement is not adequate if it does not address 
fully state and local concerns.--
    As part of an administration that espouses the value of local and 
state participation during the formulative stages of federal decision-
making, we urge you to aggressively investigate options for rescinding 
or indefinitely tabling this Plan that represents nothing more than 
Secretary Babbitt's ``top down'' personal attempts at a legacy.
                   wild and scenic river implications
    In 1987, the Merced River was designated a Wild and Scenic River. 
The National Park Service had three years from that date to develop a 
Comprehensive Management Plan that would protect the river corridor. In 
July of 1999, as part of litigation on the Highway 140 construction 
project, Judge Anthony Ishii ordered the Park Service to refrain from 
releasing any more planning documents until a Merced River Management 
Plan had been prepared. The Park Service told the judge it would need 
one year to comply; litigants stated they did not believe one year was 
sufficient time to create a valid plan that would fulfill the 
protective mandate of the Wild and Scenic Rivers Act, and encouraged 
the National Park Service to request additional time.
    One month later (8/4/99), Secretary Babbitt circulated a memo 
stating that the Merced River Plan must be completed by July 12, 2000 
and ``I have directed him (Bob Anderson) to 'see that the Record of 
Decision for the Yosemite Valley Plan is signed prior to the end of the 
Clinton Administration.' I will need your cooperation and help in 
making sure that the work gets done in a timely fashion. Please ensure 
that we have adequate financial and personnel resources working on 
these initiatives to meet our objectives."
    In releasing the Draft Merced River Plan in January 2000, 
Superintendent David Mihalic explained in his cover letter:
          ``The Merced River Plan is a `foundational plan.' By that I 
        mean it provides a foundation and a direction for future 
        actions. You will find that this plan does not spell out 
        specific actions that may occur in the future, but through 
        various zoning options in the alternatives, provides a 
        direction for the specific action that will follow. For 
        example, the upcoming draft Yosemite Valley Plan--is a plan 
        that may call for a specific `action,'but only as permitted by 
        the zoning proposed in this document."
    The enabling authority of the resource-based Merced River Plan 
raises numerous concerns with respect to development of the follow-on 
Yosemite Valley Plan:
        Timelines determined by Election Cycle/Political Agendas
    Public comment on the draft Merced River Plan was scheduled from 
January 7, 2000 through March 24, 2000. The following Monday (3/27/00), 
Secretary Babbitt released the five-volume, 2300 page draft Yosemite 
Valley Plan for public comment through July 7.
    --In order to comply with such a timeline, the follow-on Yosemite 
Valley Plan would have had to be at the printers as much as 4-6 weeks 
previous, during the public comment period for the ``foundational'' 
Merced River Plan. Therefore, the public comments for the River Plan 
could not have been considered when developing the draft Yosemite 
Valley Plan. It appears that public comment on the Merced River Plan 
was merely an exercise in futility--just a check off on a NEPA list of 
requirements--since apparently the draft Valley Plan was already 
completed.
    --An effective, adequate public comment period for the Yosemite 
Valley Plan cannot be achieved until the public knows the full 
parameters, effects and impacts of the Merced River Plan. How can the 
public or even the Park Service make fully informed decisions or 
comments on a follow-on plan that is directly affected by a 
foundational plan not yet completed?
    --All of the land-use zoning for the Valley is prescribed in the 
River Plan, yet the Record of Decision for the River Plan wasn't final 
until November of 2000. What planning department in the country 
conducts project review and approval (i.e., Yosemite Valley Plan) 
without a legal zoning map? A valid River Plan needed to be completed 
before starting on a draft Yosemite Valley Plan.
                     Lack of Scientific Credibility
    No less than 12 major reports prepared for Congress over the past 
40 years have criticized the National Park Service for its lack of 
science-guided resource protection. As recently as February 1997, the 
General Accounting Office testified to Congress that ``although NPS 
acknowledges, and its policies emphasize, the importance of managing 
parks on the basis of sound scientific information about resources, 
today such information is seriously deficient.'' ``At California's 
Yosemite National Park, officials told us that virtually nothing was 
known about the types or numbers of species inhabiting the park, 
including fish, birds, and such mammals as badgers, river otters, 
wolverines, and red foxes.'' ``This lack of inventory and monitoring 
information affects not only what is known about park resources, but 
also the ability to assess the effect of management decisions.'' 
(National Parks: Park Service Needs Better Information to Preserve and 
Protect Resources, GAO/T-RCED-97-76)
    --The Merced River Plan is supposed to be a scientifically based 
resource preservation plan. What role did scientists play in its 
development? Though park scientists admitted involvement in a technical 
review, they were not members of the planning team. Raised as a concern 
by the public, their names suddenly appeared in the final plan on the 
``list of preparers.--
    --The 1500-page draft Merced River Plan was developed in three 
months. The Wild and Scenic Rivers Act requires detailed knowledge of 
the Outstandingly Remarkable Values (ORVs) as inventoried on a mile-by-
mile basis along the River. Such documentation serves as the foundation 
in determining classifications, establishing boundaries and preparing 
management prescriptions for the various river segments. Yet the 
follow-on Yosemite Valley Plan now proposes an Inventory and Monitoring 
Program within five years of the Valley Plan Record of Decision. Such 
data should have been an integral part of the foundational Merced River 
Plan; therefore, the Merced River Plan is an invalid document.
    --Why was Air Quality removed as an ORV in the Merced River Plan? 
The recently approved 2001 NPS Management Policies state: ``The 
National Park Service will seek to perpetuate the best possible air 
quality in parks because of its critical importance to visitor 
enjoyment, human health, scenic vistas, and the preservation of natural 
systems and cultural resources.'' ``The Park Service will assume an 
aggressive role in promoting and pursuing measures to protect these 
values from the adverse impacts of air pollution. In cases of doubt as 
the impacts of existing or potential air pollution on park resources, 
the Service will err on the side of protecting air quality and related 
values for future generations.'' (Chapter 4.28) Currently, both 
Mariposa County and Tuolumne County are nonattainment counties. Was Air 
Quality dropped as an ORV to accommodate the elephant chain of diesel 
shuttle buses projected during peak season (500+ roundtrips daily) as 
would be proposed in the follow-on Yosemite Valley Plan, thus 
exacerbating the situation.
                   Lack of Carrying Capacity Studies
    The Wild and Scenic Rivers Interagency Guidelines (1982) refer to 
carrying capacity as the ``quantity of recreation use which an area can 
sustain without adverse impact on the outstandingly remarkable values 
and free-flowing character of the river area, the quality of recreation 
experience, and public health and safety.'' The Guidelines further 
state that ``studies will be made during preparation of the management 
plan and periodically thereafter to determine the quantity and mixture 
of recreation and other public use which can be permitted without 
adverse impact on the resource values of the river area. Management of 
the river area can then be planned accordingly.--
    --According to the most recent release of the Merced River Plan 
(February 2001), ``the Visitor Experience and Resource Protection 
(VERP) framework is a tool developed by the National Park Service to 
address user capacities--and to meet the requirements of the Wild and 
Scenic Rivers Act.'' Yet the follow-on Yosemite Valley Plan ``proposes 
to fully implement a Visitor Experience and Resource Protection (VERP) 
study and program within five years of the Record of Decision for the 
Final Yosemite Valley Plan.'' Isn't such research required as part of 
determining the management prescriptions/zoning in the Merced River 
Plan that would ultimately enable Valley Plan projects? Consequently, 
the Merced River Plan is an invalid document.
                           Summary Statement
    A legally adequate Merced River Comprehensive Management Plan must 
be in place affirmed with a Record of Decision before scoping can begin 
on a draft Yosemite Valley Plan. Limited participation in the Merced 
River Plan review process resulted in only 2,500 comments, indicating 
the public did not fully understand that the River Plan would 
ultimately amend the General Management Plan, rezone the Valley floor, 
and become the enabling authority for the follow-on Draft Yosemite 
Valley Plan. Politically charged timelines suggest that the Merced 
River Plan was designed to accommodate an already completed Yosemite 
Valley Plan rather than vice versa. Therefore, we urge the committee to 
request that the National Park Service redo a valid Merced River Plan.
                        $441 million for what???
    The draft Yosemite Valley Plan came with a $343 million price tag, 
but only a few months later the final document suddenly increased to 
$441 million (one-time development costs). Thousands of pages and 
10,000 public comments later, the increased price tag appeared to be 
the only major change between the draft Valley Plan and the final 
Valley Plan, indicative of a predetermined agenda.
    Referred to as an ``implementation plan,'' the Plan in actuality 
resembles a loosely bound framework of open-ended projects with no 
design-level specifics and suggesting further environmental compliance. 
Not only was the public unable to evaluate the full extent of the 
collective impacts of the various ``design/build'' projects since no 
site-specific details were available, but it would appear that any cost 
estimate for such projects is purely hypothetical--a guesstimate at 
best. Additionally, the Park Service projects a $10 million increase in 
its annual operating budget for the transportation component alone (see 
Special Note below).
    As responsible stewards of taxpayer dollars, we urge you to reject 
any request for funds to support implementation of this Yosemite Valley 
``Plan.'' The dollar amounts appear to be premature and without 
substance. We've already seen how the National Park Service manipulated 
the flood request; ``fool me twice, shame on me.--
    (Special Note: According to park officials at Alaska's Denali 
National Park, the Park Service implemented a transit system at Denali 
in 1972 to ``minimize the impacts of increased traffic.'' ``The system 
was provided free to riders from 1972 through 1994. The bus system cost 
federal taxpayers about $1.6 million annually. The bus system subsidy 
amounted to 22% of the Park's operating budget, and as the price of 
running the system increased, the Park had to reduce other services to 
visitors as well as reduce the number of buses and the distance they 
travel. National Park Service funding was no longer able to cover the 
costs of such services and still provide necessary visitor services and 
adequate protection of park values. Park visitors were being asked to 
share in the costs associated with their visit through increased 
fees.'' Turned over to the concessionaire, bus tickets now cost $30-$40 
per adult depending on distance traveled. Should this same scenario 
occur at Yosemite, it would effectively price out most Americans; 
Valley Plan research documents that the statistically typical visitor 
to Yosemite has a yearly income of over $100,000--evidence that park 
policies are already contributing to economic discrimination.)
              ``assembly-line tourism'' is not ``access''
    Obsessed with mass transit and increasing throughput by moving 
visitors as though on a conveyor belt, the Clinton/Babbitt regime 
sought to control the way Americans experience our national parks. 
Couched as ``environmentally responsible,'' their perceived solution 
lacks scientific credibility and, in the words of environmental icon 
David Brower, will cause ``irreparable damage to the environment.--
    This Yosemite Valley Plan continues on the Clinton/Babbitt course 
as it proposes to follow the example of our large cities with massive 
park and ride lots, an urban-designed transit system with more than 500 
daily round trip shuttles projected during peak season, a 22-bay 
Transit Center as the ``point of arrival'' denigrating the glorious 
shadow of Half Dome in the heart of Yosemite Valley, faster and wider 
roads and other assorted infrastructure to accommodate the 45-foot 
over-the-road diesel behemoths--in effect, an assault on personal 
freedom and individual responsibility and anathema to the treasured 
``up close and personal'' national park experience. In their rush to 
implement such a system, park officials have ignored the advice of 
their own traffic committee which functioned during the ``80s; 
additionally, they've displayed no interest in simple, low-cost, low-
impact suggestions that would facilitate traffic management. Preferring 
more draconian measures, remodeling the valley to provide the visitor 
with a more costly, more controlled, and more commercialized experience 
appears to be the goal and most certainly would be the outcome.
    The Valley Plan's transportation component also flies in the face 
of what the Park's own consultants advised in the congressionally 
mandated 1994 Alternative Transportation Modes Feasibility Study. The 
Study states that ``locating staging areas in remote locations would 
influence the following quantifiable aspects of visitor use and park 
management:--
    --Parking Demand. The time required to travel to and from the 
Valley on buses would lengthen the time visitors spend making a visit 
to the Valley and would result in a need for additional parking spaces.
    --Shuttle System Fleet. More distant staging areas would require 
larger bus fleets to transport Valley visitors to and from the staging 
area.
    --Shuttle System Operating Costs. Larger fleets and longer travel 
distances required for remote staging would require greater levels of 
funding for operations.
    --Delays to Through Visitors. Visitors traveling to the Valley as 
part of longer trips which involve stops in other areas of the park or 
which involve entering Yosemite at one location and leaving from 
another would be inconvenienced by the need to travel to and from the 
valley by bus and then travel much of the same route in a private 
vehicle to complete their park visit.
    --Remote staging areas would limit visitors'' ability to stop at 
features along the park roads for sightseeing and other activities.
    --Potentially higher levels of particulate and nitrogen oxide (NOx) 
emissions would be generated by high volumes of bus travel on park 
roads.
    --Increased noise levels on park roads and in the Valley would be 
associated with high volumes of bus travel.
    ``The cost, visitor confusion, visitor delay, information 
challenges, and management difficulties associated with operating 
remote valley staging areas would be substantial. In return, the 
benefits would be minor, consisting of moderate decreases in vehicle 
traffic along sections of park road that are not congested. Perhaps the 
greatest drawback of remote staging would be the loss of visitors' 
personal freedom to experience portions of Yosemite at their own pace 
and in their own way.'' And yet this is exactly the option proposed in 
this Yosemite Valley Plan.
    A recent letter to the editor perhaps states it best: ``The whole 
concept of elimination of individual ownership and use, in favor of 
group use, is at the base of many of the Park Service plans. For 
example, the massive invasion of the visitors, foreign and domestic, by 
controlled means through the use of the tour bus is creating a faceless 
user who no longer feels a personal connection between himself, his 
family and these pristine areas. He is fed our national parks much like 
the Monterey Aquarium--behind the glass wall of Park Service policy. In 
a controlled environment, he will be shown and told what the Park 
Service thinks is appropriate at the time. The loss of personal pride 
in our national parks will ultimately be devastating.--
    Threatening to ``close the gate'' as the alternative, we urge the 
National Park Service and the Department of Interior to focus instead 
on resolving a host of internal management and performance issues. 
Congress has commissioned numerous studies through the General 
Accounting Office that document ``significant problems and weaknesses 
in the management of Interior's programs----problems that are ``the 
result of serious deficiencies in organizational structure, information 
systems, and the management controls that provide oversight and 
accountability'' (Major Management Challenges and Program Risks: 
Department of the Interior, 01/01/99, GAO/OCG-99-9).
    We urge Congress to exercise its jurisdictional oversight as 
representatives of the citizenry who own the national parks and other 
public lands. To allow further restrictions, regulations, and increased 
fee assessments on the American taxpayer, albeit endorsing the mantra 
that ``people'' are the problem rather than placing the responsibility 
squarely where it belongs--on the land management agencies, is 
criminal. Americans have a right to access their national parks in the 
manner they so choose, while still preserving the integrity of the 
Park, and deserve better than to be placed on a conveyor belt like a 
can of beets. As elected officials, we all have a responsibility to 
fiercely protect that right and privilege.
           economic impacts of ill-conceived planning process
    In response to a 1980 General Management Plan directive, 
restaurants, lodging and other services began investing along gateway 
corridors outside the park, thereby enabling park administrators to 
avoid further commercial development in Yosemite Valley. Yet nowhere in 
the General Management Plan or in the core principles that govern the 
actions of the Park Service is there any acknowledgement of, or concern 
for, the mutually dependent relationship that has subsequently evolved 
between the park and the gateway communities as a result of that 
directive. It is that apparent lack of concern that is particularly 
troubling to Madera County.
    Heavily dependent on the tourist dollar, the fledgling communities 
along the Highway 41 corridor are all too familiar with the extreme 
fluctuations that occur based on the park press release, policy or 
disaster of the day. Any rise or fall in visitation directly impacts 
business income and job generation, and consequently the economic 
vitality of the area.
    Visitation over the past five years has steadily dropped from a 
high of 4.1 million visitors in 1996 to 3.5 million visitors in 2000. 
The Park Service is projecting another 2% drop in 2001. And even those 
numbers are suspect. The current method of relying on an underground 
mechanical ``counter'' that (when operable) is unable to delineate 
between visitors, employees and vendors other than by formula needs to 
be reexamined for validity. Since a major part of park planning efforts 
appear to be based on annual visitation numbers, it is critical that 
those numbers be clearly defined.
    The proposed urban-designed mass transit system that threatens to 
eliminate automobile touring in Yosemite Valley is the biggest gamble 
yet. Client surveys and park studies already predict busing will 
degrade the visitor experience--bad news for any economy based on 
tourism. In fact, from the moment the draft Yosemite Valley Plan was 
released, local businesses began receiving telephone calls from 
potential visitors asking if they had to ride a bus to get into the 
park--and the plan hasn't even been implemented yet. As proposed in 
this Valley Plan, guests of any lodging facility outside the park are 
considered ``day visitors.'' Such visitors will directly incur 
increased economic hardship and inconvenience resulting from mandatory 
bus travel.
    Another part of the Yosemite Valley Plan is the Park's stepchild, 
YARTS, the Yosemite Area Regional Transportation System. Heavily funded 
by the National Park Service as well as through the Department of 
Transportation and TEA 21, this effort has been promoted as the answer 
to economic vitality in the gateway communities. Nothing could be 
farther from the truth. In reality it has enabled the Park and the 
concessionaire to move out into our communities further controlling our 
visitors and the manner in which they access the Park. Though promoted 
as a ``voluntary alternative,'' YARTS is the vehicle for helping the 
Park incrementally achieve the stated 1980 General Management Plan goal 
of removing all cars from the Yosemite Valley. Once day visitor parking 
has been completely eroded, bus transportation will be the only means 
of access. But it's important to note that the 1980 Plan is 20 years 
out of date. Since 1980 there have been a host of environmental 
regulations as well as advances in technology that have mandated 
cleaner air and resulted in near-zero emissions in autos; the same can 
not be said of buses. Consequently, the 1980 goal must be reevaluated. 
Nonetheless, the Yosemite Valley Plan continues to parrot a 
predetermined agenda for buses regardless of the environmental and 
socioeconomic consequences. YARTS and the Valley Plan are one in the 
same, so when we urge no funding for the Yosemite Valley Plan--included 
in that request is no funding for YARTS.
    To date, the park has avoided conducting a socioeconomic analysis 
of day visitors to determine what eliminating cars and mandating buses 
will really cost the gateway communities. In fact, the Yosemite Valley 
Plan doesn't even recognize gateway communities, instead focusing on 
the ``local communities'' of El Portal, Foresta, Wawona, Yosemite 
Village, and Yosemite West--communities that, for the most part, can 
only be accessed inside park gates. The tourist dependent towns of 
Oakhurst, Mariposa, and Groveland are now included as part of a 
regional economy that the park claims will benefit from an increase in 
construction jobs as part of the numerous development projects planned 
inside the park. Such an ``analysis'' is of little use to the local 
lodge owner or restaurateur who invested his/her savings in a gateway 
business trusting that such an effort would help park administrators 
avoid further commercial development inside the Park.
    Adding insult to injury, Superintendent Mihalic told the press 
shortly after his arrival that ``if there's ever a conflict on his 
watch between what's best for Yosemite and these so-called ``gateway 
communities,'' the park will win every time.'' The small town character 
of healthy, vibrant gateway communities are the first stop on the way 
to a pleasurable visit to Yosemite; the warmth and energy of our 
people, the attractiveness of our businesses, low crime rate, and an 
environment that mirrors the Park set the stage for a quality visitor 
experience. It is important that the Park take pride in the gateway 
communities just as our communities take tremendous pride in the Park. 
What has made this Yosemite Valley Plan such a flashpoint is that 
residents recognize the tremendous environmental damage that will occur 
inside as well as outside the park as it is converted from a nature 
center to a profit center; dealing with a nonresponsive but highly 
political and arrogant bureaucracy, that is funded by a never-ending 
supply of tax dollars, with large corporations poised to displace small 
local businesses, in a system that offers no recourse other than 
litigation. This is not the American way.
                                summary
    In closing, thank you for your leadership in conducting this 
hearing on the Yosemite Valley Plan. But we strongly urge you to 
continue your investigation, coming to our districts and talking with 
the numerous folks who could not be here today but who certainly have 
important contributions to make. It would be especially beneficial to 
hear from Friends of Yosemite Valley; this grassroots organization has 
consistently and articulately raised concerns about the environmental 
destruction inherent in both the Merced River Plan and the Yosemite 
Valley Plan and is currently pursuing litigation in a system that 
offers no recourse to Park Service decisions. It would be beneficial to 
visit with our Visitors Bureaus and Chambers of Commerce, the folks who 
assist the visiting public day after day. It would be beneficial to 
speak with our law enforcement and emergency personnel and hear their 
perspectives on public health and safety as well as fire management in 
a region where private and public lands are intermingled. It would be 
beneficial to hear from our civic groups who provide endless hours of 
volunteer labor in support of every worthwhile cause, making our 
gateway communities better places to live. It would be beneficial to 
visit with our citizens as well as folks in neighboring counties to 
hear their concerns. Making a decision in Washington, based upon five 
minutes of testimony, is unfair to Yosemite and unfair to the American 
people. Please consider scheduling follow-up hearings in our districts.
    As a committee you have an invaluable opportunity to revisit a 
decision that was made in haste four years ago, in the midst of an 
emergency; we ask you to exercise courage and integrity as you provide 
oversight with respect to funds not yet expended in the name of flood 
recovery. We further request your intervention in a planning process 
that has gone awry. The ``legacy'' plans that are before you today will 
cause irreparable damage to the environment, waste hundreds of millions 
of taxpayer dollars, gamble with the economic vitality of our gateway 
communities, and ultimately restrict the freedom of Americans to access 
and enjoy their park.
    As stated earlier, we urge the committee to consider the following:
    --No funding be appropriated for this Yosemite Valley Plan (and 
YARTS)
    --Set aside/rescind this Yosemite Valley Plan (and YARTS)
    --All excess flood funding ($110 million) be returned to the U.S. 
Treasury
    --Redo the Merced River Plan in full compliance with the protective 
mandate of the Wild and Scenic Rivers Act, thus creating a solid 
foundation for all future plans
    --Schedule follow-up hearings in the local districts to more fairly 
and fully understand the impacts of park planning
                                 ______
                                 
    county of madera participation in the yosemite planning process

SCOPING, Yosemite Valley Plan; January 25, 1999
    --Concern about visitor demographics and access; requested Park 
immediately investigate the socioeconomic impact of its decisions in 
determining policy to ensure that such policies are not and will not be 
discriminatory.
    --Concern about preservation of the environment should the Park 
introduce a mass transit system both in Yosemite Valley and the 
outlying areas.
    --Concern about economic vitality in the gateways; requested Park 
commission an independent study that will analyze the economic impact 
of Park policies on the gateway communities

PUBLIC COMMENT, Merced River Plan; February 29, 2000
    No alternatives acceptable in draft Plan; requested full compliance 
with WSRA Federal Register Guidelines as well as conformity with the 
NPS Natural Resource Challenge Initiative.
    --Define visitor experience
    --Scientific credibility compromised as result of politically 
charged timelines
    --Lack of carrying capacity studies
    --Boundary/classification/management prescription concerns
    --Air Quality removed as an ORV
    --Concerns about process of plan development

PUBLIC COMMENT 1, Yosemite Valley Plan; June 13, 2000
    Unanimously rejected Draft Yosemite Valley Plan
    --Status of Merced River Management Plan unknown
    --Status of Yosemite Valley Plan scoping comments submitted by 
Madera unknown
    --Planning assumptions not supported by sound scientific study
    --Lack of project design-level specifics; numerous issues ``beyond 
scope--
    --Concerns about transportation component

PUBLIC COMMENT 2, Yosemite Valley Plan; June 27, 2000
    Submitted two-part strategy: preparation of scientific body of 
knowledge in advance of Plan development with five-year ``temporary'' 
plan for Yosemite Valley in the interim.

APPEAL TO CONGRESS, SECRETARY NORTON, PRESIDENT BUSH; February 13, 2001
    --Request that no funding be appropriated for this Yosemite Valley 
Plan
    --Request that this Yosemite Valley Plan be rescinded/tabled 
indefinitely pending further investigation
    --Volunteered to host local forum with broad-based participation to 
develop strategy for future plan development

COPIES AVAILABLE UPON REQUEST:
    Board of Supervisors, Madera County
    209 West Yosemite Avenue
    Madera, CA 93637
    Phone: 559-675-7700
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Gilbert.
    Mr. Balmain, welcome.

  STATEMENT OF DOUG BALMAIN, CHAIRMAN, BOARD OF SUPERVISORS, 
            COUNTY OF MARIPOSA, MARIPOSA, CALIFORNIA

    Mr. Balmain. Good afternoon, Mr. Chairman. My name is Doug 
Balmain, and on behalf of the Mariposa County Board of 
Supervisors, I would like to thank you for the opportunity to 
testify.
    Mariposa County has closely followed the Yosemite Plan 
process. While we regret the lack of opportunity for effective 
input during the development of the Yosemite Valley Plan, the 
County recognizes that the implementation phase of the Yosemite 
Valley Plan provides opportunities for our community to join 
the National Park Service to address numerous elements of the 
plan.
    There are many planning and implementation issues that are 
of mutual concern to the County of Mariposa and the National 
Park Service, most notably the following: providing sufficient 
alternative parking and overnight accommodations outside 
Yosemite Valley; appropriate relocation of employee housing and 
worksites from the Yosemite Valley to gateway communities 
within Mariposa County; providing responsible and sustainable 
management of solid waste, and providing regional 
transportation sufficient to attain the goals of the Valley 
Plan and meet the needs of the County.
    Other current planning efforts between the County and the 
National Park Service include a comprehensive update of our 
County general plan in anticipation of opportunities presented 
by the Valley Plan, and the development of a new University of 
California, Merced campus, near the western border of Mariposa 
County. The National Park Service has also joined the county in 
developing waste recycling programs and an innovative 
composting project that will revolutionize the management of 
our solid waste. This is an extremely important project for the 
County and the Park.
    The County has planned and subsidized a regional 
transportation program serving Yosemite National Park for the 
last 10 years, most recently in the form of the Yosemite Area 
Regional Transportation System, or YARTS. The town of Mariposa 
affords good opportunities for developing Park and 
concessionaire administrative offices, visitor centers, and 
employee housing. Developable land exists with expansion 
capabilities, and with utility and transportation 
infrastructure.
    Although encouraged by the aforementioned opportunities, 
the County of Mariposa is discouraged by the potential 
reduction of parking spaces in Yosemite Valley. The County does 
not believe the elimination of parking spaces is necessary to 
achieve the primary goals of the Yosemite General Management 
Plan or the Valley Plan. Rather than reducing the supply of 
parking spaces, the County suggests reducing the demand for 
such parking spaces by making bus transportation more 
attractive.
    The County is also discouraged by the potential removal of 
transportation infrastructure in Yosemite Valley, such as roads 
and historic bridges. These improvements are not only used for 
recreational access, but they are also needed for emergency 
vehicles.
    The County of Mariposa requests the following of this 
Committee and Congress: Encourage the participation of Mariposa 
County in the implementation of the Valley Plan elements that 
impact gateway communities, and encourage additional funding to 
the Park Service for joint planning efforts with the County, 
supplementing a regional transportation system, and addressing 
K-12 education and other socioeconomic concerns in communities 
within or adjacent to the Park.
    The County of Mariposa offers the following to this 
Committee and Congress: The County will continue to include the 
participation of the National Park Service in the development 
of the County general plan update, to prepare for potential 
relocation of Park offices and residences.
    The County will continue to partner with the National Park 
Service to improve visitor experience, while still maintaining 
the integrity of Yosemite National Park.
    With these joint planning efforts, the County can 
incorporate into the County's general plan the accommodations 
needed to relocate Park offices and residences in the County of 
Mariposa.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Balmain follows:]

 Statement of Doug Balmain, Chairman, Board of Supervisors, County of 
                          Mariposa, California

    The County of Mariposa wishes to extend their gratitude to the 
Subcommittee for inviting our community and requesting our testimony at 
this hearing. Mariposa County has been closely following the Yosemite 
Valley Plan process. While we regret the lack of opportunities for 
effective input during the development of the Yosemite Valley Plan, the 
County recognizes that the implementation phase of the Yosemite Valley 
Plan provides opportunities for our community to join the National Park 
Service to address numerous elements of the Plan. Particularly, 1) the 
relocation offices and housing out of the Park and into other 
communities in Mariposa County, 2) the development of a premier 
regional transportation system, 3) the development of a jointly 
operated visitor centers, and 4) the continued partnership to develop a 
very innovative, sustainable solid waste management system, and other 
infrastructure to serve the Park and its gateway communities.
    The entire Yosemite Valley is geographically located within the 
boundaries of the County of Mariposa. The Park gateway communities of 
El Portal, Wawona, Fish Camp, Buck Meadows, Foresta, Yosemite West, 
Midpines, and Mariposa are all located within the jurisdiction of the 
County of Mariposa. There are no incorporated cities. The County spans 
1,463 square miles, half of which is Federal entitlement lands managed 
by the National Park Service, Bureau of Land Management, and the Sierra 
and Stanislaus National Forests. The permanent residential population 
of the County is 16,150 persons. The daily population, including 
visitors, during the summer is over 34,000 persons.
    The town of Mariposa rests 32 miles from the Park's western 
boundary. It is the County seat and the County's largest community with 
a residential population of 1,800. Regional government administration 
and Park tourism are the economic foundation for the town. It offers a 
hospital, airport, high school, middle school, elementary school, 
senior center, fairgrounds, the California State Mining and Mineral 
Museum, new public library, regional shopping, residential utilities 
and services, and ample visitor accommodations.
    There are many planning and consequent implementation issues that 
are of mutual concern to the County of Mariposa and the National Park 
Service, most notably the following:
    <bullet> LProviding sufficient alternative parking and overnight 
accommodations outside Yosemite Valley.
    <bullet> LAppropriate relocation of employee housing from Yosemite 
Valley to gateway communities within Mariposa County.
    <bullet> LAppropriate relocation of employee work sites from 
Yosemite Valley to gateway communities within Mariposa County.
    <bullet> LConsideration of socio-economic impacts of employee 
relocation. Particularly, potential development of or access to 
governmental and private sector services, health care, schools, 
transportation and recreation.
    <bullet> LAppropriate relocation of visitor centers from Yosemite 
Valley to gateway communities within Mariposa County.
    <bullet> LPreservation of Historic Structures.
    <bullet> LConformance with the ``Merced Wild and Scenic River 
Plan.--
    <bullet> LAppropriate phasing of Valley Plan elements and projects.
    <bullet> LFunding timelines, restrictions, and amounts for 
implementation of the Valley Plan.
    <bullet> LProviding responsible and sustainable management of solid 
waste.
    <bullet> LProviding regional public transportation sufficient to 
attain the goals of the Valley Plan and meet the needs of the County.
    The County of Mariposa and National Park Service are working 
towards an unprecedented approach to solving planning issues in areas 
of solid waste management, transportation, and where both agencies have 
joint jurisdiction. This effort, made possible by both the Valley Plan 
and Merced River Plan Records of Decision, creates a model for the 
National Park Service with other gateway communities both here at 
Yosemite National Park and around the country.
    If successfully funded and implemented, this program would provide 
some surety for our citizens owning property within the park boundaries 
or dependent on park approvals. In addition, it provides surety for the 
National Park Service about the type of development the County will 
permit on lands adjoining or within Yosemite National Park. The Valley 
Plan opened the door for this effort.
    Other current planning efforts between the County and National Park 
Service include a comprehensive update of the County General Plan in 
anticipation of the opportunities presented by the Valley Plan and 
development of a new University of California campus (UC Merced) near 
the western border of Mariposa County. The National Park Service has 
also joined the County in developing waste recycling programs and an 
innovative composting project that will assist in the management of our 
mixed solid waste. It is important to the Park and County for the 
National Park Service to be able to continue in these efforts.
    The County has planned and subsidized regional transportation 
programs serving Yosemite National Park for the last ten years, most 
recently in the form of the Yosemite Area Regional Transportation 
System (YARTS) demonstration project. The County has partnered with the 
Park and neighboring counties to plan and fund YARTS to assist 
transporting visitors and park employees to and from Yosemite Valley. 
This effort has greatly reduced the number of private vehicles entering 
the valley. The demonstration period is soon closing and YARTS will be 
expanding services to increase its use and further decrease the number 
of vehicles entering the valley.
    The currently successful working relationship between the National 
Park Service and the County of Mariposa will certainly help address the 
known limitations and opportunities for key relocation elements of the 
Valley Plan. Known limitations for potential development in the 
communities of El Portal, Wawona and Foresta are of great concern for 
the County.
    The town of Mariposa may afford good opportunities for developing 
Park and concessionaire administrative offices, visitor centers and 
employee housing. Developable land with expansion capability, existing 
utility and transportation infrastructure, proximity to services and UC 
Merced, and opportunities for cost sharing exist. Employees residing in 
Mariposa can have access to museums, art studios and performances, 
social groups, greater breadth of educational and activity programs for 
children, and governmental services.
    Although encouraged by all the aforementioned opportunities, the 
County of Mariposa is discouraged by the potential reduction of parking 
spaces in Yosemite Valley. The County does not believe the elimination 
of parking spaces is necessary to achieve the primary goals of the 
Yosemite General Plan or Valley Plan. Rather than reducing the supply 
of private automobile parking, the County suggests reducing the demand 
for such parking by making public transportation the preferred access 
choice. Further development of the existing regional transportation 
system, greater marketing of the service, and other incentives can 
accomplish this.
    The County is also discouraged by the potential removal of 
transportation infrastructure in Yosemite Valley, such as roads and 
bridges. These improvements are not only used for recreational access, 
but they are also needed for emergency vehicle access, bicyclists and 
pedestrian use. The Valley Plan goals of reducing the impact of 
vehicles can still be met with better traffic management. In addition, 
the County's desire and responsibility for providing public safety and 
effective emergency response can also continue. We are all well aware 
of Yosemite Valley's proneness to rockslides and exposure to floods and 
wild land fires.
    The County of Mariposa requests the following of this Committee and 
Congress:
    <bullet> LEncourage the participation of Mariposa County in the 
implementation of all Valley Plan elements that impact gateway 
communities. Support the participation of the National Park Service in 
the County's General Plan update process.
    <bullet> LEncourage additional funding to the National Park Service 
for joint planning efforts with the County for Wawona, El Portal, and 
Foresta, supplementing a regional transportation system serving Park 
visitors and employees, and addressing K-12 education and other socio-
economic concerns in communities within or adjacent to the Park.
    <bullet> LDecrease regulatory restrictions to the National Park 
Service so they may partner with the County in accommodating the 
relocation of offices, residences, visitor centers and transportation 
infrastructure outside Park boundaries. Provide exceptions to the 
``rules and regulations'' that traditionally prohibit more feasible 
investments than what the National Park Service is sometimes limited 
to.
    <bullet> LEncourage the completion of flood recovery projects in 
Yosemite Valley before embarking on many other elements of the Valley 
Plan.
    The County of Mariposa offers the following to this Committee and 
Congress:
    <bullet> LThe County will continue to include the participation of 
the National Park Service in the development of the County General Plan 
Update, to prepare for potential relocation of Park offices and 
residences.
    <bullet> LThe County will plan for any pressures to increase 
overnight visitor accommodations outside the Park resulting from the 
implementation of the Valley Plan.
    <bullet> LThe County will make available staff with expertise in 
transportation planning, land use planning, building development 
services, and environmental health services to assist the National Park 
Service in executing key relocation elements of the Valley Plan, 
particularly employee housing, visitor centers and administrative 
offices.
    The County of Mariposa will continue to partner with the National 
Park Service to improve visitor experience while still maintaining the 
integrity of Yosemite National Park. With a joint planning effort, the 
County can incorporate into the County General Plan update the 
accommodation of relocated Park offices and residences in the County of 
Mariposa. The County will continue to partner with the National Park 
Service to further develop a premier regional transportation system so 
that the elimination of vehicle parking spaces is not necessary to 
achieve Valley Plan goals.
    With full County of Mariposa support and participation, sufficient 
funding to the National Park Service, and regulatory flexibility, the 
Valley Plan will be successfully implemented with broad-based 
satisfaction.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Balmain.
    Mr. Oliver.

STATEMENT OF GREGORY J. OLIVER, ESQ., COUNTY COUNSEL, TUOLUMNE 
                       COUNTY, CALIFORNIA

    Mr. Oliver. Thank you. Good afternoon, Mr. Chairman. My 
name is Gregory Oliver, and I am the County Counsel for the 
County of Tuolumne, California.
    I would like to begin by thanking Congressman John 
Doolittle for securing my opportunity to address this 
Committee. With over 57 percent of Yosemite National Park 
located within the boundaries of the County of Tuolumne, the 
county obviously has a major stake in the outcome of the 
Yosemite Valley Plan.
    The county appreciates the Subcommittee soliciting comments 
on the implementation of the Valley Plan. Our county's comment 
is simple. Please do not implement the Yosemite Valley Plan 
until the county's concerns have been adequately addressed.
    One of the most fundamental areas of concern to the county 
is how conversion from traditional, family-oriented, private 
vehicles, auto touring to mass tourism will affect the natural 
and socioeconomic environments of the County of Tuolumne. Auto 
touring is arguably the number one recreational activity in 
America. The vast majority of people visiting Yosemite National 
Park do so in private automobiles.
    Some 80 percent of these tourists are day visitors, most of 
whom spend on average only about 4.2 hours in Yosemite Valley. 
Many day visitors stay overnight in lodging and campground 
facilities located in Tuolumne County. Day visitors are 
accustomed to driving their own vehicles on their own time 
schedules to Yosemite Valley. Auto tourists also expect to be 
able to drive to the east end of the Valley where the Park 
Service and concessionaire facilities are located, and where a 
number of Yosemite Valley's most popular natural features are 
to be observed and accessed.
    Day and overnight visitors also enjoy driving the loop road 
system, stopping at various locations during their auto tour. 
These visitor activities are central to the current marketing 
strategy of the tourism industry of the affected region. The 
ability to spontaneously visit and tour Yosemite Valley by 
private vehicle is also frequently cited by the real estate 
industry in its promotion of property sales within the County 
of Tuolumne.
    Tourism is the largest sector of the economy in Tuolumne 
County. It is by far and away the most important segment of the 
economy of southern Tuolumne County, specifically the State 
Route 120 corridor. Adoption of any plan which would disrupt 
the present ability of the traveling public to access Yosemite 
Valley by private automobile would adversely affect businesses 
and communities located along the State Route 120 corridor.
    Proposals to develop out-of-valley parking facilities and 
shuttle day visitors to the Valley floor would inconvenience 
motorists. This inconvenience would serve to reduce visitation 
to Yosemite Valley and, consequently, adversely affect 
businesses located along the State Route 120 corridor.
    Similarly, the inconvenience of riding shuttle buses into 
Yosemite Valley would encourage day visitors to ride tour buses 
into the Valley from locations outside the Park, and this, in 
turn, would reduce tourism in gateway communities if tour buses 
do not stop within those communities. Where an individual in a 
private automobile can stop in a gateway community if he/she so 
chooses, that same individual may lose that option if he or she 
rides a tour bus into Yosemite for the day. This scenario would 
negatively impact businesses in the gateway communities.
    The Tuolumne County Chamber of Commerce has estimated that 
by limiting private automobiles from entering the Park and 
relying on mass transit instead, it would equate to a loss of 
tens of millions of dollars to the businesses located in the 
gateway communities in Tuolumne County.
    In addition, the County of Tuolumne would lose hundreds of 
thousands of dollars in transient occupancy tax from reduced 
stays in hotels and motels located within the County of 
Tuolumne. While these numbers may first appear insignificant, 
in a county like Tuolumne County, that relies on tourism for 
its major source of revenue, the impact to the county and 
businesses is catastrophic.
    Another area of concern for the county is that the process 
followed by the National Park Service in producing the Valley 
Plan was flawed. The public could not provide an informed 
opinion of the merits and demerits of the various alternatives 
found in the draft Valley Plan because too much key information 
was missing. Critical information regarding visitor patterns, 
transportation redesign impacts, and updated cultural resources 
inventories were missing from the draft Valley Plan. Most 
glaring of all was that the Merced River Plan was not finalized 
and released to the public until just shortly before the 
closing of comments on the Valley Plan.
    Yosemite Area Regional Transportation Systems, or YARTS as 
it is known, and the Valley Plan are inextricably intertwined, 
and yet the environmental review for YARTS was prepared 
independent of the Valley Plan. The County of Tuolumne believes 
that a programmatic environmental impact report should have 
been done of the joint Park Service/YARTS bus plan. As National 
Park Service representatives have stated, the transportation 
scheme within the Valley Plan is designed to marry with the 
YARTS plan. Only when the impacts and the mitigation for those 
impacts have been identified and adequately addressed will the 
ultimate cost of this experimental bus system be known.
    The County of Tuolumne recognizes that the Valley Plan does 
contain some elements of benefits. Few would argue that it is 
time to remove the Cascades Dam or redesign the lower Yosemite 
Falls area. However, the County of Tuolumne feels strongly that 
at the foundation of any land management plan should be the 
ideals of equity and environmental benefit. The process that 
produced the Valley Plan was warped by special interests with 
shortsighted goals. The Valley Plan is, indeed, fatally flawed 
because none of the applicable scientific theories were 
considered when the plan was written, and it was not properly 
explained to the public.
    It is time to return to the National Park Service's 
founding authorities and regain the high ground of resource 
protection. It is also past time to remember that our national 
parks are for the people and we must carefully plan our 
strategies around equality of access.
    The County of Tuolumne requests that this Subcommittee send 
the Valley Plan back to the Yosemite National Park area for 
further comment to address the concerns of the County of 
Tuolumne and others that have not yet been heard on the 
Yosemite Valley Plan.
    The County of Tuolumne also requests the Subcommittee hold 
hearings in Yosemite National Park and the surrounding 
communities to obtain comments from the people and communities 
in and around Yosemite National Park who would be affected by 
the adoption and funding of the Yosemite Valley Plan. The 
County's comments on the Valley Plan also apply to the Merced 
River Plan. The County also requests that the Merced River Plan 
be returned to the park in order to allow for the required 
public input.
    Again, thank you, Mr. Chairman, for this opportunity to 
address your Committee.
    [The prepared statement of Mr. Oliver with attachments 
follows:]

    Statement of Gregory J. Oliver, Esq., County Counsel, County of 
                          Tuolumne, California

    Mr. Chairman and members of the subcommittee. My name is Gregory 
Oliver and I am the County Counsel for the County of Tuolumne in 
California. I would like to begin by thanking Chairman Hefley for the 
invitation to speak today. I would also like to thank Congressman John 
Doolittle for securing my opportunity to address this subcommittee.
    With over fifty-seven percent (57.27%) of Yosemite National Park 
located within the boundaries of the County of Tuolumne, the County 
obviously has a major stake in the outcome of the Yosemite Valley Plan. 
The County appreciates the subcommittee soliciting comments on the 
implementation of the Valley Plan. The County's comment is simple: 
please do not implement the Yosemite Valley Plan until the County's 
concerns have been adequately addressed.
    One of the most fundamental areas of concern to the County is how 
conversion from traditional, family orientated private vehicles auto 
touring to mass transit tourism will affect the natural and 
socioeconomic environments of the County of Tuolumne. Auto touring is 
arguably the number one recreational activity in America. The vast 
majority of the people visiting Yosemite National Park do so in private 
automobiles. Some eighty percent (80%) of these tourists are day-
visitors, most of whom spend on average only about 4.2 hours in 
Yosemite Valley. Many day-visitors stay over night in lodging and 
campground facilities located in Tuolumne County. Day-visitors are 
accustomed to driving their own vehicles on their own time schedules to 
Yosemite Valley. Auto tourists also expect to be able to drive to the 
east end of the valley where the Park Service and concessionaire 
facilities are located, and where a number of Yosemite Valley's most 
popular natural features are to be observed and accessed. Day and 
overnight visitors also enjoy driving the ``loop road'' system stopping 
at various locations during their auto-tour. These visitor activities 
are central to the current marketing strategies of the tourism industry 
of the affected region. The ability to spontaneously visit and tour 
Yosemite Valley by private vehicle is also frequently cited by the real 
estate industry in its promotion of property sales within the County of 
Tuolumne.
    Tourism is the largest sector of the economy in Tuolumne County. It 
is by far and away the most important segment of the economy of 
southern Tuolumne County, specifically the State Route 120 corridor. 
Adoption of any plan which would disrupt the present ability of the 
traveling public to access Yosemite Valley by private automobile, would 
adversely affect businesses and communities located along the State 
Route 120 corridor. Proposals to develop out of Valley parking 
facilities and shuttle day visitors to the Valley floor would 
inconvenience motorists. This inconvenience would serve to reduce 
visitation to Yosemite Valley and consequently, adversely affect 
businesses located along the State Route 120 corridor.
    Similarly, the inconvenience of riding shuttle buses into Yosemite 
Valley would encourage day visitors to ride tour buses into the Valley 
from locations outside the Park and this in turn would reduce tourism 
in gateway communities if tour buses do not stop within those 
communities. Whereas an individual in a private automobile can stop in 
a gateway community if he/she so chooses, that same individual may lose 
that option if he/she rides a tour bus into Yosemite Valley for the 
day. This scenario would negatively impact businesses in the gateway 
communities.
    The Tuolumne County Chamber of Commerce has estimated that by 
limiting private automobiles from entering the Park and relying on mass 
transit instead, it would equate to a loss of tens of millions of 
dollars to the businesses located in the gateway communities located in 
the County of Tuolumne. In addition, the County of Tuolumne would lose 
hundreds of thousands of dollars in Transient Occupancy Tax (TOT) from 
reduced stays in hotels and motels located within the County of 
Tuolumne. While these numbers may first appear insignificant, in a 
county like Tuolumne County that relies on tourism for revenue, the 
impact to the County and businesses is catastrophic.
    Another area of concern for the County of Tuolumne is that the 
process followed by the National Park Service in producing the Valley 
Plan was flawed. The public could not provide an informed opinion of 
the merits and demerits of the various alternatives found in the draft 
Valley Plan because too much key information was missing. Critical 
information regarding visitor patterns, transportation redesign 
impacts, and updated cultural resources inventories were missing from 
the draft Valley Plan. Most glaring of all was that the Merced River 
Plan was not finalized and released to the public until just shortly 
before closing the comments on the Valley Plan.
    Yosemite Area Regional Transportation System (YARTS) and the Valley 
Plan are inextricably intertwined, and yet the environmental review for 
YARTS was prepared independent of the Valley Plan. The County of 
Tuolumne believes that a programmatic environmental impact report 
should have been done of the joint Park Service-YARTS bus plan. As 
National Park Service representatives have stated, the transportation 
scheme within the Valley Plan is designed to ``marry'' with the YARTS 
plan. Only when the impacts and the mitigation for those impacts have 
been identified and adequately addressed, will the ultimate cost of 
this experimental bus system be known.
    The County of Tuolumne recognizes that the Valley Plan does contain 
some elements of benefits. Few would argue that it is time to remove 
the Cascades Dam or redesign the lower Yosemite Falls area. However, 
the County of Tuolumne feels strongly that at the foundation of any 
land management plan should be the ideals of equity and environmental 
benefit. The process that produced the Valley Plan was warped by 
special interests with shortsighted goals. The Valley Plan is indeed 
fatally flawed because none of the applicable scientific theories 
(i.e., Forest Management theories, Species protection theories, etc.) 
were considered when the plan was written, and it was not properly 
explained to the public. It is time to return to the National Park 
Service's founding authorities and regain the high ground of resource 
protection. It is also past time to remember that our National Parks 
are for the people, all the people and we must carefully plan our 
strategies around equality of access.
    The County of Tuolumne requests that this subcommittee send the 
Yosemite Valley Plan back to the Yosemite National Park area for 
further comment to address the concerns of the County of Tuolumne and 
others that have not yet been heard on the Yosemite Valley Plan. The 
County of Tuolumne also requests that this subcommittee hold hearings 
in Yosemite National Park and the surrounding communities to obtain 
comments from the people and communities in and around Yosemite 
National Park who would be affected by the adoption and funding of the 
Yosemite Valley Plan. The County's comments on the Yosemite Valley Plan 
also apply to the Merced River Plan. The County also requests that the 
Merced River Plan be returned to the park in order to allow for the 
required public input.
    Again, thank you Mr. Chairman for this opportunity to address the 
subcommittee. If anyone has any questions, I would be happy to answer 
them. Thank you.
    (Letters and exhibits attached to Mr. Oliver's prepared 
statement follow:]

March 22, 2001

The Honorable Joel Hefley, Congressman
Chairman Subcommittee on National Parks, Recreation, and Public Lands
Committee on Resources
U.S. House of Representatives
Washington, D.C. 20515

    Re: Implementation of the Yosemite Valley Plan

Dear Congressman Hefley:

    The County of Tuolumne wishes to publicly thank Congressman John 
Doolittle for securing us an opportunity to address the Subcommittee on 
National Parks, Recreation, and Public Lands on the issue of 
implementation of the Yosemite Valley Plan. This plan will not only 
have a significant impact on the future of Yosemite Valley, but all of 
Yosemite National Park and the gateway communities surrounding the 
Park. With over fifty-eight percent (58%) of Yosemite National Park 
located within the boundaries of the County of Tuolumne, the County 
obviously has a major stake in the outcome of the Valley Plan.
    We appreciate the subcommittee soliciting input on how to implement 
the Valley Plan and how the Valley Plan will impact such things as 
transportation, parking, visitor services, employee housing, and the 
wild and scenic river. The County's comment is simple: please do not 
implement this Plan until these concerns have been adequately 
addressed.
    Several issues were raised during the scoping on how the redesign 
of the Valley's infrastructure was going to impact the natural 
environment, the cultural environment, and the visitor experience both 
within and outside the Park. Central to the Valley Plan is access 
conversion from private vehicles to buses, and the National Park 
Service was asked repeatedly what the design limits were for mass 
transit tourism, and how impacts associated with mass transit tourism 
would be mitigated. Unfortunately, these questions went unanswered.
    While the theory of mass transit tourism has been discussed widely 
and defended strenuously by its supporters, the test of this theory 
appears to be intended for Yosemite National Park. Indeed, Park Service 
representatives have stated their intent is to ``experiment'' with 
Yosemite National Park. They have- openly advocated that 
experimentation is the best way for implementation. No true protector 
of the environment would take this position, and neither does the 
County of Tuolumne. Again, our comment is simple: please do not 
implement this Plan until these concerns have been adequately 
addressed.
    The County of Tuolumne has many concerns about the adverse impacts 
implementation of the Valley Plan will cause. Enclosed as Exhibit ``A'' 
is a copy of a letter dated June 28, 2000, which was Tuolumne County's 
Response to the Draft Yosemite Valley Plan. In addition, these concerns 
were outlined in the County's response to scoping on the Valley Plan. 
The entire text of the letter is submitted to the committee as Exhibit 
``B''. In short, there are impacts that will occur far beyond the 
boundaries of the Park if the Valley Plan goes forward as adopted.
    Our key concerns are as follows:
    <bullet> LOne of the most fundamental areas of concern is how 
conversion from traditional, family orientated private vehicle auto 
touring to mass transit tourism will affect the natural and 
socioeconomic environments of the County of Tuolumne. The National Park 
Service has made clear their intent to limit private vehicle access to 
Yosemite National Park. They contend that they cannot handle the 
vehicle traffic loads that occurred in the mid-1990s without having 
chronic gridlock and congestion or causing unacceptable resource 
impacts. However, it should be noted that in 1997 the Park Service 
demonstrated that it could handle those traffic levels with relatively 
simple traffic management techniques and no appreciable resource 
impacts.
    <bullet> LA common myth has been that Yosemite Valley is 
chronically plagued with gridlock and congestion. This is blamed on day 
visitors in private vehicles exceeding the capacity of the Valley's 
parking space inventory. In reality, the lack of restraint is a bigger 
threat. A carefully managed auto plan will bring about far greater 
equity and superior environmental benefits than the poorly thought out, 
open ended mass transit tourism plan.

      LThe County of Tuolumne is on record asking for the National Park 
Service to provide information on the people carrying capacity of 
Yosemite Valley. Carrying capacity or occupancy limits is not just a 
matter of parking space inventory. There are a number of infrastructure 
constraints in Yosemite Valley. Before launching upon an undefined mass 
transit bus system, the National Park Service should research and 
divulge the design limits of Yosemite Valley. The National Park Service 
should identify what the ``people per hour'' limits are at the most 
popular viewing stations, trail heads, trails, and visitor contact 
points. Capacity should also be divulged regarding food services, 
restrooms, sewage system, water supply, and electrical loads. A Valley 
Plan alternative based upon known infrastructure limitation is the most 
practical and environmentally sound approach, which has not been 
considered by the Park Service.
    <bullet> LAccording to the National Park Service over a third (1/3) 
of day visitors enter the Park through one gate and exit through 
another. By restricting private vehicle access for day visitors at 
least thirty-three percent (33%) of the existing tourism market will be 
affected. The proposed bus plan does not fit this visitor pattern. Over 
the past eighty (80) years the gateway communities have built their 
tourism economy around private auto touring. A potential loss of 
thirty-three percent (33%) or more of this market will have a 
significant economic impact on the gateway communities. In addition, 
the bus plan favors one corridor over the others as the distances 
traveled from staging areas to the Valley are far less. With shorter 
distances, travel times by bus are less, and fares are lower. There is 
a real potential that travelers will be aware of this and tend to 
patronize the Highway 140 corridor to the detriment of businesses on 
the other routes. With traditional auto touring there was more equity 
in the Yosemite tourism market. In light of the tremendous economic 
impact on surrounding communities, our comment remains: please do not 
implement this Plan until these concerns have been adequately 
addressed.
    <bullet> LThe process followed by the National Park Service in 
producing the Valley Plan was flawed. The public could not provide an 
informed opinion of the merits and demerits of the various alternatives 
found in the draft Valley Plan because too much key information was 
missing. Critical information regarding visitor patterns, 
transportation redesign impacts, and updated cultural resources 
inventories were missing from the draft Valley Plan. Most glaring of 
all was that the Merced River Plan was not finalized and released to 
the public until just shortly before closing the comments on the Valley 
Plan.

      LYosemite Area Regional Transportation System (YARTS) and the 
Valley Plan are inextricably intertwined, and yet the environmental 
review for YARTS was prepared independent of the Valley Plan. The 
County of Tuolumne believes that a programmatic environmental impact 
report should have been done of the joint Park Service-YARTS bus plan. 
As National Park Service representatives have stated, the 
transportation scheme within the Valley Plan is designed to ``marry'' 
with the YARTS plan. Only when the impacts and the mitigation for those 
impacts have been identified and adequately addressed, will the 
ultimate cost of this experimental bus system be known.

      LThe National Park Service was fairly clear in the 1980 General 
Management Plan (GMP) about private vehicle capacities in the Valley 
floor. In stark contrast, the information on bus limitations has been 
vague at best. In fact YARTS insists that buses will ``guarantee 
access'' to all that come and that the bus system will bring ``more 
people'' to Yosemite. They are correct about one thing, buses can bring 
more people per hour into the Park than private vehicles.
    <bullet> LIn the Merced River Plan, one of the obvious entitlements 
is mass transit tourism. The evidence that the plan was manipulated to 
usher in mass transit tourism can be found no more clearly than in the 
plan's deletion of air quality as an outstanding resource value. 
Obviously, the bus technology currently available and proposed for the 
Valley will severely damage air resources.

      LThe question must be asked how does the Valley Plan and YARTS 
comply with the Federal Clean Air Act, as both the County of Mariposa 
and the County of Tuolumne have been identified as future nonattainment 
areas. Although both the National Park Service and YARTS have stated 
they will use alternative fuel buses, it is clear that for the 
foreseeable future diesel buses will be the mainstay of the proposed 
regional bus plan. The emissions impacts associated with this plan are 
unacceptable especially when the superior technology of the private 
vehicles is displaced by diesel buses with low ridership. The National 
Park Service and YARTS representatives propose that technology will 
solve this problem in the future. The County of Tuolumne believes that 
all development projects must mitigate impacts with current technology 
instead of being approved with the hope that in the future we will find 
a cure.

      LIt should be made very clear that the introduction of electric 
buses and shuttles into the Valley may not be possible if Pacific Gas 
and Electric cannot provide the infrastructure to support, or deliver 
the energy needed to recharge, a large electric fleet.
    <bullet> LEquity is a key issue with the Valley Plan. During the 
peak visitation years of 1995-97, less than twenty percent (20%) of the 
development footprint of Yosemite Valley was solely attributable to day 
visitor needs. The Yosemite Plan targets nearly ninety percent (90%) of 
the day visiting auto touring market for removal from Yosemite Valley. 
More than sixty percent (60%) of the development footprint of Yosemite 
Valley is dedicated for the overnight market and its supportive 
services. Considering the $441 million price tag of the Valley Plan and 
with less than six (6) cents on every dollar going to natural resource 
restoration, that equates to far too much of the $441 million going 
into the construction and rehabilitation of overnight lodging. The 
Valley Plan appears to be weighted toward intensification of 
commercialization. Simply put, the city of 2,500 located at the east 
end of Yosemite Valley is there to service the overnight guest not the 
day visitor. It is the position of the County of Tuolumne that day 
visitor auto touring is far less of an impact to the environment of 
Yosemite National Park than the open ended mass transit tourism that is 
codified in the Valley Plan. It is also the opinion of Tuolumne County 
that even though currently up to eighty percent (80%) of the Yosemite 
tourism market is comprised of day visitors using private vehicles to 
visit Yosemite Valley, the vast majority of resource impacts in the 
Valley are caused by overnight visitors and their supportive services. 
Overnight visitors can be accommodated with less environmental impacts 
in gateway communities.
    <bullet> LThe overnight market for the Valley consists primarily of 
campers and lodgers. Despite the fact that lodgers have a greater 
impact on the environment than campers, it is the campers that are 
called to sacrifice more accommodations in the Valley Plan. As a rule, 
lodgers pay more per night than campers therefore, campers will tend 
toward the lower income groups. There is real concern that the Valley 
Plan is practicing economic discrimination.
    Certainly the Valley Plan does contain some elements of benefit. 
Few would argue that it is time to remove the Cascades Dam or redesign 
the lower Yosemite Falls area. However, the County of Tuolumne feels 
strongly that at the foundation of any land management plan should be 
the ideals of equity and environmental benefit. If the subcommittee 
truly wants to leave a legacy worthy of the traditions of the National 
Park Service then you must agree with us that the Valley Plan and the 
Merced River Plan must be pulled back. The process that produced these 
plans was warped by special interests with shortsighted goals. The 
products are indeed fatally flawed because they are not science based, 
and they were not properly explained to the public. It is time to 
return to the National Park Service's founding authorities and regain 
the high ground of resource protection. It is also past time to 
remember that our National Parks are for the people, all the people and 
we must carefully plan our strategies around equality of access.
    The County of Tuolumne requests that this subcommittee send the 
Yosemite Valley Plan back to the Yosemite National Park area for 
further comment to address the concerns of our County and others that 
have not yet been addressed in the Yosemite Valley Plan. The County of 
Tuolumne also requests that this subcommittee hold hearings in Yosemite 
National Park and the surrounding communities to obtain comments from 
the people and communities in and around Yosemite National Park that 
would be affected by the adoption and funding of the Yosemite Valley 
Plan.
    The County of Tuolumne wishes to thank Congressman Joel Hefley for 
the opportunity to comment on the Yosemite Valley Plan and the 
invitation to our County Counsel, Gregory J. Oliver, Esq., to speak 
before the subcommittee hearing.

Very truly yours,

      

DON RATZLAFF
Chairman
Tuolumne County Board of Supervisors

Enclosures
                                 ______
                                 
                               EXHIBIT A
[GRAPHIC] [TIFF OMITTED] T1353.007

[GRAPHIC] [TIFF OMITTED] T1353.008

[GRAPHIC] [TIFF OMITTED] T1353.009

[GRAPHIC] [TIFF OMITTED] T1353.010

[GRAPHIC] [TIFF OMITTED] T1353.011

[GRAPHIC] [TIFF OMITTED] T1353.012

                               EXHIBIT B






January 12, 1999

Stan Albright, Superintendent
Yosemite National Park Valley Plan
P.O. Box 577
Yosemite, CA 95389

Dear Superintendent Albright:

    The Tuolumne County Board of Supervisors thank you for the 
opportunity to comment on the drafting of your ``new comprehensive 
plan'' for Yosemite Valley. However, we note that the announcement of 
the scoping period took place on December 18, 1998, just ahead of a 
two-week holiday break for many people and organizations. We also note 
that the scoping period closes on January 15, 1999, less than 30 days 
after your press release. We wonder if the notice and the duration of 
the scoping period meets the legal requirements of the National 
Environmental Policy Act (NEPA). We don't believe we have to remind you 
of the criticism that occurred when the Draft Valley Implementation 
Plan (VIP) was released in 1997 just ahead of the holiday period. In 
response to those concerns the National Park Service did extend the 
comment period for the VIP. Likewise, we believe that the timing of the 
scoping period is not conducive to gaining complete public awareness 
nor garnering broad-based input and Tuolumne County requests that the 
scoping period be extended an additional 30 days. In addition to this, 
we have the following comments and concerns.
    The merging of the four existing documents (Draft Yosemite Valley 
Housing Plan/EIS, Yosemite Lodge Development Plan/EA, Draft Valley 
Implementation Plan/EIS, Lower Yosemite Falls Corridor Project) with 
public comments on these plans, is the focus of this scoping. The 
National Park Service has stated that these plans are all ``rooted'' in 
the 1980 General Management Plan (GMP). Therefore, the proposed ``New 
Yosemite Valley Plan'' does not constitute a ``new'' comprehensive plan 
for Yosemite Valley. The four individual plans were all predicated on 
the assumption that they are to implement the nineteen year old, 1980 
GMP.
    The 1980 GMP is an outdated plan which does not address changes 
that have occurred in the last nineteen years in environmental 
regulations and federal regulations. The 1980
    GMP does not address the changes that have occurred in the last 
nineteen years to the natural environmental conditions, the cultural 
resources conditions and to other physical conditions in the Valley 
floor. The 1980 GMP does not address the tremendous change that has 
occurred in the past nineteen years in the social expectations of the 
traveling/visiting public. The four implementation plans cited above 
also do not address these innumerable changes.
    The National Park Service's Organic Act states in part that the 
National Park Service's purpose is to ``conserve the scenery and the 
natural and historic objects and the wildlife'' in the park ``by such 
means.as will leave them unimpaired for the enjoyment of future 
generations''. Under the terms of the National Historic Preservation 
Act, the 1980 GMP would only have addressed historic objects that were 
fifty years of age or older at the time the GMP was adopted. Within the 
last nineteen years, many objects in Yosemite Valley have passed their 
50th anniversary, objects which would not have been addressed in the 
1980 GMP. The four implementation plans have proposed significant 
alterations to historic objects that have not had complete 
environmental review, such as bridges, roads, and parking areas 
constructed in the 1930's and `40s. This seems to be a clear violation 
of NEPA, the National Historic Preservation Act of 1966 as amended, and 
the 1997 National Park Service Cultural Resources Strategic Plan 
(CRSP). The CRSP Section 1.A requires that ``Cultural Resources are 
protected, preserved, and maintained in good condition.''
    It is the opinion of several cultural resources specialists that 
the Yosemite Valley floor constitutes an historic district as defined 
by the National Historic Preservation Act and therefore, each 
individual historic object, structure, or building contributes 
significantly to the overall historic district which is eligible for 
the National Register of Historic Places. In essence, Yosemite Valley 
is a highly prized cultural landscape and your Organic Act charter 
mandates sensitive environmental protection of the Valley's cultural 
resources.
    Federal wetlands regulations have become more stringent in the past 
nineteen years. This is due to changes in the Clean Water Act and in 
Army Corps of Engineers Regulations. These changes could not have been 
addressed in the 1980 GMP.
    Another significant change in environmental regulation is air 
pollution control regulations. In the last nineteen years the State of 
California has adopted tighter regulations on emissions for private 
vehicles, while buses have not had the same level of restrictions. 
Recent studies have shown that buses add 30 to 40 times the pollutants 
to the air than private vehicles in California. The changes in 
regulations and emissions were not addressed in the 1980 GMP.
    In discussing transportation options, the various implementation 
plans as well as the 1980 GMP appear to only focus on private passenger 
vehicles, bicycles and shuttle buses. There needs to be a comprehensive 
analysis on how various forms of transportation could be accommodated 
and/or treated separately. For example, tourists traveling to Yosemite 
Valley via motorcycle pose a significant difference in environmental 
impacts than tourists arriving on diesel fuming buses. The National 
Park Service should address all forms of transportation including, 
equestrian, bicycle, motorcycle, small passenger vehicles and trucks, 
large recreational vehicles and trailers, shuttle and tour buses, and 
rail.
    Traffic patterns and usage levels that existed in 1980 have 
substantially changed in the last nineteen years. While these changes 
were partially considered in the visitor transportation study conducted 
by Yosemite National Park in 1992-93, there are significant components 
to traffic patterns and usage that have not been documented by the 
National Park Service. Some of these significant changes have occurred 
in the ``gateway communities'' surrounding Yosemite National Park. The 
National Park Service's incomplete and outdated traffic analysis fails 
to meet the NEPA requirements to address the entire environmental 
impact associated with the various alternatives proposed by the four 
implementation plans nor those impacts associated with the ``conceptual 
alternatives'' for the new plan.
    The Central Sierra Nevada has been classified by the California 
Department of Forestry and Fire Protection (CDF) as an extreme wildland 
fire hazard area. In 1987, 1990 and 1996, major event fires closed all 
or part of the access roads leading into Yosemite Valley. Profound 
changes to the environment have occurred because of these fires. 
Federal and State fire, health and safety regulations have 
substantially changed in the last nineteen years. The proposed changes 
to the physical infrastructure of the Valley floor that are predicated 
on the 1980 GMP could not have addressed these regulatory changes. 
There needs to be an analysis of how variously proposed transit 
programs will address fire, health and safety issues. For example, 
private vehicles are easier to evacuate from the Valley and pose less 
interference to incoming emergency vehicles than buses. Also, buses 
would have to wait for all of their passengers to board before leaving 
a threatened area, putting larger groups of people at risk in an 
evacuation situation.
    There is a significant absence of quantified and quality data on 
cultural resources, natural resources, and visitor experience. In 
particular, there is no clear information provided in the various 
Yosemite plans on how one area is weighed against another in arriving 
at management decisions. For example, management decisions to reduce 
private vehicles and increase buses in an attempt to ``improve'' 
visitor experience may actually decrease the quality of the visitor 
experience by increasing total numbers of visitors at popular stops
    and vistas which would be to the detriment of the visitor 
experience, cultural resources and natural resources. Buses can 
actually bring in more people per hour than private vehicles and there 
has been no limit proposed on buses. Furthermore, buses will 
concentrate people and vehicles around staging areas, stops and 
schedules creating concentrations of environmental impacts both within 
and outside Yosemite Valley.
    Any general management plan that seeks to eliminate private day 
visitor vehicles and/or restrict day visitor activities would have a 
profound impact upon the gateway communities' economies, especially 
those communities which depend primarily on private vehicle based 
visitor traffic for tourism dollars. Neither the 1980 GMP, nor the four 
implementation plans address socio-economic impacts beyond Yosemite 
National Park's boundary.
    The Sierra Nevada Ecosystem Project (SNEP) underscored the inter-
relation of resource decisions being made by land management agencies 
throughout the Sierra Nevada. Even John Muir spoke of the connection 
that all resources have to one another. Specifically, the various 
Yosemite plans have yet to relate themselves to the SNEP report. Nor 
does the National Park Service take into account how Yosemite National 
Park policy changes will impact the surrounding National Forest lands.
    In the last nineteen years, there has been a tremendous change in 
the demographics of the State of California. These changes have been 
mirrored in the changes in the socioeconomic climate of visitation to 
Yosemite National Park, tourism in general, and in the population of 
the United States as a whole. The presumption that the general public's 
response today on the Valley's desired condition is the same as it was 
in 1980 is dubious. A summary analysis of what the public responses 
were for the 1980 GMP should be provided along with a summary of the 
planning assumptions that were circulated in preparation of the 1980 
GMP.
    We note that in the Yosemite National Park's January 1999 
newsletter, a summary of the public responses for the four draft 
implementation plans is provided. The newsletter requests that the 
reader review these summaries to see if there are any issues not 
covered. The summary provided on public input for the VIP appears to 
not include certain key concerns raised by Tuolumne County in its VIP 
response. Therefore, we are resubmitting our VIP response letter into 
this scoping process (see attachment).
    The National Environmental Policy Act, Section 101(42 USC 
Subsection 4331) states that Congress declares that it recognizes ``the 
critical importance of restoring and maintaining environmental quality 
to the overall welfare and development of man, declares that it is the 
continuing policy of the Federal Government, in cooperation with State 
and local governments, and other concerned public and private 
organizations, to use all practicable means and measures, including 
financial and technical assistance, in a manner calculated to foster 
and promote the general welfare, to create and maintain conditions 
under which man and nature can exist in productive harmony, and fulfill 
the social, economic, and other requirements of present and future 
generations of Americans.''
    We ask the National Park Service to cooperate with our local 
government by honoring its social, economic and environmental 
commitments to the public, to serve the needs of the public, and to 
honor its Federal regulations and statues which are in place today, by 
readdressing all aspects of the 1980 GMP and its management decisions 
of the past. Parks are for people and Yosemite Valley is a park, not a 
wilderness area.

Sincerely,
      
Mark V. Thornton
Chairman
Tuolumne County Board of Supervisors
                                 ______
                                 
February 10, 1998

Stanley T. Albright, Superintendent
Attn: VIP Planning
Yosemite National Park
P.O. Box 577
Yosemite National Park, CA 95389

    LRe: Draft Yosemite Valley Implementation Plan/Supplemental 
Environmental Impact Statement

Dear Mr. Albright:

    The Tuolumne County Board of Supervisors has reviewed the Draft 
Yosemite Valley Implementation Plan/Supplemental Environmental Impact 
Statement (VIP). Below is a summary of key points followed by a general 
discussion of our principal concerns. Attached to this correspondence 
is a proposed fifth alternative which is essentially a list of measures 
we ask the National Park Service to consider when implementing any 
actions.
Tuolumne County's key concerns:
     1) LBecause the reduction in camping sites and lodging rooms may 
be targeting lower cost accommodations, which would impact lower income 
visitors; and because proposed restrictions on vehicle access falls 
primarily upon day-visitors, which may be comprised largely of working 
class Americans who cannot afford the luxury of staying overnight in 
Yosemite Valley, the issue of economic discrimination should be 
addressed.
     2) LIn-park revenue losses due to permanent campground space 
reductions is said to be off-set by revenues generated from 
construction activity. However, construction revenue will last from 5 
to 10 years, campground reductions are permanent so why is this 
considered off-setting?. Furthermore, those working in construction are 
generally not the same as those engaged in catering to tourists.
     3) LA socio-economic analysis needs to be provided on impacts to 
the ``affected region'' because of a decline in day-visitors (including 
both ``local overnighters'' and ``day excursion visitors'') to Yosemite 
Valley due to reductions in private vehicle capacity and/or increases 
in the expense of visiting the valley.
     4) LAn environmental and economic analysis needs to be provided on 
impacts that.might occur to the surrounding National Forest lands due 
to increased numbers of excluded Yosemite day and overnight visitors.
     5) LA technical analysis of in-valley environmental impacts needs 
to be provided, including establishing direct links between natural 
resources restoration and day-use vehicle capacity reductions, cultural 
resources impacts, and facility remodeling, relocation, and new 
construction. Percentages of reclamation by habitat type and area 
should be correlated with losses in cultural resources and changes in 
visitor experiences. These connections need to be clarified and 
quantified.
     6) LBecause YARTS is integral to the VIP an economic and 
environmental analysis needs to be conducted on impacts associated with 
the implementation of a regional transportation system.
     7) LA technical analysis of an integrated regional transportation 
system should be included in the VIP, including the consideration of 
offering the public an optional rather than mandatory system.
     8) LAn analysis should be provided of how special groups such as 
senior citizens, young families with small children, people with 
disabilities, and those with special recreational equipment will be 
accommodated by a public transportation system or unduly hindered by 
private vehicle reductions.
     9) LAn analysis of trail capacity, occupancy limits and visitor 
behavior patterns (for both overnight and day visitors) should be in 
the VIP with the intent of establishing clearly defendable population 
limits for the valley and the park.
    10) LA discussion and an alternative should be provided that 
addresses the congestion issue on a seasonal or peak demand basis. .
    11) LAn analysis of a day use reservation system or periodic quota 
closure policy should be provided.
    12) LThe National Park Service needs to correct the misinformation 
that most of Yosemite National Park is in Mariposa County (page 1 I5). 
Of Yosemite Park's 747,956 acres approximately 435,847 acres (58%) are 
in Tuolumne County.
    13) LSince the State of California once held title to Yosemite 
Valley and the Mariposa Grove of Redwoods, a legal opinion should be 
provided on the applicability of the conditions attached to the 
transfer of title to these lands from the State of California to the 
Federal Government in 1906.
    The Tuolumne County Board of Supervisors, in governing their 
jurisdiction, is charged to protect and enhance the economic and 
environmental climate of the County of Tuolumne. Two principal concerns 
have arisen out of our review of the VIP. These concerns are centered 
on: (a) private vehicle accessibility to Yosemite National Park; and 
(b) the impacts associated with the building of a regional public 
transportation system. A significant component of Tuolumne County's 
economy is dependent on tourism. Much of the County's tourism industry 
consists of small businesses built upon the seasonal arrival of 
customers in private vehicles bound for Yosemite National Park. The 
National Park Service's proposed actions could significantly reduce the 
total numbers of these customers. The building of a regional 
transportation system will shift visitor travel patterns leaving 
``winners and losers'' in the restructured pattern of visitor spending. 
While the VIP does provide some information on the affected region's 
economic output, the analysis of potential impacts is incomplete. 
Furthermore, the figures presented in Table 25 of the VIP (page 119) 
for Tuolumne County, in the aggregate, may be understated by as much as 
$5O million. Our following comments focus on the connected issues of 
private vehicle accessibility and regional public transportation.
    The VIP is a draft land management plan which presents four 
alternatives for redesigning the infrastructure of Yosemite Valley. 
Costs associated with the four alternatives are primarily a result of 
remodeling, refining and/or reconstructing National Park Service and 
concessionaire facilities. Many of these proposed construction projects 
have little direct impact on the County of Tuolumne. However, central 
to all the alternatives are proposed changes in the traditional 
vehicular accessibility of Yosemite Valley. Specifically, the VIP 
proposes to reduce the current inventory of day use private vehicle 
parking spaces and restrict private vehicle movement within Yosemite 
Valley. These two proposals equate to a radical change in the 
traditional auto touring experience now being afforded both day and 
overnight visitors. These proposed changes are large in scope, 
permanent in design and portend a major impact on the tourism economy 
of Tuolumne County. These actions are also linked to regional 
transportation strategies, which will also impact the County of 
Tuolumne.
    Auto touring is arguably the number one recreational activity in 
America. The vast majority of the people visiting Yosemite National 
Park do so in private automobiles. Some 80% of these tourists are day-
visitors, most of whom spend on average only about 4.2 hours in 
Yosemite Valley. Many day-visitors stay over night in lodging and 
campground facilities in the ``affected region'' of Madera, Mariposa, 
Merced, Mono and Tuolumne Counties. Still others are residents of the 
affected region, or central California in general, who pay repeat 
visits to Yosemite Valley during the course of the year. Day-visitors 
are accustomed to driving their own vehicles on their own time 
schedules to Yosemite Valley. Auto tourists also expect to be able to 
drive to the east end of the valley where the Park Service and 
concessionaire facilities are located, and where a number of Yosemite 
Valley's most popular natural features are to be observed and accessed. 
Day and overnight visitors also enjoy driving the ``loop road'' system 
stopping at various locations during their auto tour. The National Park 
Service plans to change these visitor experiences. These visitor 
activities are central to the current marketing strategies of the 
tourism industry of the affected region. The ability to spontaneously 
visit and tour Yosemite Valley by private vehicle is also frequently 
cited by the real estate industry in its promotion of property sales 
within the affected region.
    The Park Service has reported that its decision to reduce private 
vehicle capacity and eliminate auto touring is based on the 1980 
General Management Plan (GMP). The GMP states: ``Increasing automobile 
traffic is the single greatest threat to enjoyment of the natural and 
scenic qualities of Yosemite. In the near future, automobile congestion 
will be greatly reduced by restricting people's use of their cars and 
increasing public transportation. And the day will come when visitors 
wilt no longer drive their private automobiles into the most beautiful 
and fragile areas of the park. The ultimate goal of the National Park 
.Service is to remove all private vehicles from Yosemite Valley. 
[emphasis added] The Valley must be freed from the noise, the smell, 
the glare and the environmental degradation caused by thousands of 
vehicles.'' The GMT was developed in the 1970s as a 10 year plan. It is 
a dated document based on an out-dated environmental analysis. The VIP 
acknowledges that noise and air quality issues associated with private 
vehicles is decreasing as automotive technology continues to advance. 
Furthermore, noise and emissions caused by public transportation 
probably is more adverse to the environment than those associated with 
private vehicles, as the emissions tables in the VIP suggest. Perhaps 
the only major issue remaining from 1980 is that of traffic congestion 
in the valley floor.
    The VIP uses the word ``congestion'' throughout the document but it 
does not define, qualify or quantify its use. The VIP does indicate 
that traffic congestion, as in private vehicles, is the issue. In 
addressing this, all four alternatives in the VIP recommend reducing 
the day use parking space inventory. The alternatives also recommend 
curtailing or limiting auto touring on Northside and Southside Drives. 
It is also recommended that day-use parking be consolidated into a 
limited number of staging areas. The VIP does not analyze all aspects 
of traffic and congestion, and specifically doesn't indicate where or 
when traffic congestion is a problem. Consequently, it is difficult to 
determine the merits of the various alternatives. However, it seems 
dubious to suggest that congestion will be cured by significantly 
decreasing private vehicle capacity in the valley unless a day use 
reservation system or quota closure policy is also to be enacted. The 
VIP does not address either of these policies which is a serious 
omission. The VIP also does not provide a complete picture concerning 
congestion as it relates to overnight visitors, resident employees, 
commuting employees, service and delivery personnel, and tour bus 
passengers. All of these groups are traffic generators. The VIP should 
define objectives regarding traffic congestion, and establish 
benchmarks. Furthermore, the National Park Service should spread the 
vehicle reduction burden across all categories of traffic generators, 
with employees being the first target group and day-visitors being the 
last. The VIP also provides an incomplete analysis of how a public 
transportation system would be utilized to reduce traffic congestion. 
And, the VIP does not address any limit to total bus numbers, which 
could rise substantially over current levels and introduce 
exponentially more people into Yosemite Valley as compared to private 
vehicles.
    If the ultimate goal of the National Park Service is for public 
transportation to replace private vehicle access to Yosemite Valley, 
then why is the National Park Service promoting Alternative 2 as their 
``preferred alternative''? Under this scenario there would be one in-
valley staging area for day-visitors at Taft Toe. Once day-visitors 
arrive at this location further travel in the valley would be by foot, 
bicycle, or public transportation. However, there is no basis of 
support for an in-valley staging area (i.e. parking lot) in the GNP. 
The GNP's stated goal was to remove all vehicles from the entire 
valley. The Taft Toe concept, as well as the idea of limiting traffic 
movement and consolidating day use parking, apparently stems from the 
findings of a 1994 transportation study conducted in Yosemite Park. A 
summary of the study is found in Appendix D of the VIP. This study 
concluded that an ``in-valley staging area strategy'' would be the most 
effective way of addressing the increasing number of automobiles that 
are crowding into Yosemite Valley. The reasons for selecting an in-
valley staging area strategy are also set forth in the summary.
    Those reasons came about as a result of considering two plans for a 
remote staging area strategy. Under one plan, staging areas (i.e. 
parking lots) would be located at Crane Flat, El Portal, and Badger 
Pass. The other plan considered constructing staging areas near the Big 
Oak Flat Entrance Station, El Portal, and the South Entrance Station. 
The reasons against building either network of parking lots were the 
same. Two major factors were that from 40 to 62 more buses would be 
needed for a remote vehicle staging system than for an in-valley 
staging system and, secondly, the remote system would cost from $10.8 
to $16.5 million more annually than an in-valley system. Another 
significant finding was that only 21 % of the visitors enter and exit 
Yosemite National Park via the same gate. The pattern of travel for the 
other 79% would be greatly challenged by a remote staging system. Other 
findings included: ``Remote staging areas would limit visitors' ability 
to stop at features along the park roads for sightseeing and other 
activities. Potentially higher levels of particulate and nitrogen oxide 
emissions would be generated by buses. Increased noise levels would be 
associated with high volumes of bus travel. Complex visitor 
communications and management systems would be necessary at many sites 
to sort nonvalley, valley day use, and valley overnight traffic. 
Similar functions would need to be accommodated at the entrance to the 
valley as well as the remote staging areas.'' In short, the National 
Park Service abandoned the idea of establishing a remote private 
vehicle staging network because of high costs, adverse environmental 
impacts, and negative impacts to the visitor experience. Thus, the 
National Park Service's preferred alternative in the VIP promotes an 
in-valley staging area strategy centered on the construction of the 
Tart Toe facility.
    The factors that led to the rejection of an in-park remote staging 
area strategy will also serve as serious impediments to constructing a 
regional transportation system. The building of a regional 
transportation service is the focus and purpose of the Yosemite Area 
Regional Transportation Strategy (YARTS). The VIP briefly addresses the 
interrelationship between Yosemite Park and YARTS. Specifically, the 
VIP states that the National Park Service will ``seek'' to ``complement 
and encourage'' the development of a regional transportation system. 
The VIP also states that the National Park Service ``will implement a 
transit shuttle service in Yosemite National Park and Yosemite 
Valley...'' It is apparently proposed that this would be coordinated 
with the YARTS system and private tour buses. Two points need to be 
considered about YARTS. First, the five counties, and several agencies 
that comprise YARTS are only held together by a memorandum of 
understanding. This is a fairly weak arrangement for a public 
transportation program that promises to cost millions of dollars if it 
is ever constructed. Second, there is no YARTS transportation system in 
place today. Studies on the nature and extent of a regionally operated 
YARTS shuttle bus system have only begun. The current proposal is to 
set up staging areas along the Highway 41, 140, and 120 corridors in 
the vicinities of Oakhurst, Mariposa and Groveland. This concept has 
essentially taken the in-park remote staging area strategy studied in 
1994 and moved it to the ``gateway communities.'' Because of the 
greater distance from Yosemite Valley, the negative factors associated 
with the in-park remote staging strategy will be exponentially more 
severe. No doubt this is why the VIP contains the following statement: 
``In the event that the YARTS process leads to a determination that a 
regional transportation system is not feasible, the National Park 
Service will proceed with projects consistent with the Draft Valley 
Implementation Plan that will reduce traffic congestion yet ensure 
visitor accessibility.''
    Evidence is mounting that the YARTS system will not be feasible. If 
the system of travel to Yosemite Valley to replace private vehicle 
access is a full service, year-round gateway-community-based shuttle 
bus system, the costs will be enormous. The price to build such a 
system is currently estimated by the YARTS consultant to be upwards of 
$200 million. Annual operating costs could run as high as $17.5 
million. At this time no funding source has been secured to build, much 
less operate, the YARTS bus service. If funding is based on bus fares, 
the cost for going to Yosemite National Park in the future will be far 
greater than it is today via private automobile. On the other hand, if 
entry fees are raised for private vehicles to subsidize the bus system, 
a drop in private vehicle entries will result, thus negating any 
potential revenue increases. In either case, these actions would damage 
the tourism industry of Tuolumne County, which raises questions about 
economic discrimination. If a regional revenue system is adopted, the 
surrounding counties will be severely impacted. If YARTS applies for 
existing state and federal grant programs it will be competing with the 
affected region's other transportation needs. Costs will not be the 
only deterrent to establishing and operating a regional transportation 
system.
    Another area of concern is the issue of visitor experience. Private 
vehicles offer a degree of flexibility and convenience which is very 
difficult, if not impossible, for buses to mimic. Returning to Yosemite 
National Park's 1994 transportation study, the report listed several 
reasons why an in-park shuttle system could not readily accept 
overnight visitors. One reason was the expense attendant to maintaining 
a bus fleet capable of carrying luggage and camping gear. The study 
also stated that overnight visitors would resist being separated from 
their additional luggage and equipment left behind in their cars. 
Another concern was providing security and protection for remotely 
parked vehicles. These concerns no doubt played a role in formulating 
the VIP. All four alternatives allow overnight guests to drive to their 
lodging or camping areas at the east end of the valley. These and other 
factors will weigh against overnight visitors riding into Yosemite 
Valley aboard a regional bus system. But the transporting of belongings 
is not exclusive to overnight visitors.
    From anglers to photographers, from picnickers to rafters, most 
day-visitors have a myriad of things in tow when heading for a day in 
Yosemite Valley. In addressing impacts on recreational activities the 
VIP states: ``Private cars would be unavailable for transporting and 
storing picnic food and equipment. This could make picnicking more 
difficult for some visitors and would change the experience for 
others.'' Later the VIP states: ``Photographers would have to carry 
equipment and supplies with them on the transit system and while 
walking to sites. Reduced mobility would seduce and restrict the 
ability of photographers to respond quickly to changing conditions.'' 
The VIP adds: ``Transport of hang gliders, skis, and other equipment 
would be a challenge.'' Other equipment could include bicycles, rock 
climbing gear and kayaks, to name just a few items. The VIP also 
states: ``Day excursion visitors are expected to be most discouraged 
from visiting Yosemite due to constraints on private vehicle access.'' 
This statement is buttressed by these additional comments: ``Auto and 
bus touring are common ways of exploring and enjoying Yosemite 
Valley...'' ``While some people access picnic areas with backpacks, 
most rely on automobiles to transport families, food, and 
paraphernalia. Frequently, picnic sites become a base for exploring the 
park.'' The VIP's response is: ``Shuttles would be equipped to handle 
recreational equipment.'' It should be clarified that the YARTS buses 
will also be challenged to accommodate the stuff day-visitors bring. 
But this isn't the worst of it, the VIP does not allow for YARTS buses 
to have access to the east end of the valley under Alternatives 2 and 
3. This means YARTS passengers would be faced with the major 
inconvenience of transferring to the in-valley shuttles. Finally, 
neither the National Park Service nor YARTS has convincing evidence 
that the proposed public transportation systems will be as user 
friendly as private vehicles for such special groups as young families 
with small children, senior citizens, or visitors with disabilities. 
All of these factors may very well lead to a decline in annual 
visitation to Yosemite Park if the proposals in the VIP are 
implemented. This equates to a major impact upon the tourism economy of 
the affected region, including Tuolumne County.
    The National Park Service apparently recognizes that public 
transportation will create hardships for many day visitors. The VIP 
states: ``Visitors might respond to changes in park facilities and 
operations by altering their demand for park access, their spending 
behavior, their use patterns, and their length of stay. Changes in 
visitor spending patterns represent an important potential impact on 
the region's economy. Yosemite visitor spending patterns could be 
affected by factors such as increased spending opportunities, changes 
in the visitor experience, and shifts in the visitor population if 
current visitors are displaced by others with different spending 
habits.'' In spite of the uncertainty of these statements, they do hint 
at a change in the demographics of the tourist population brought about 
by restrictions in private vehicle access and the implementation of a 
public transportation system. However, the VIP gives no insight into 
what the anticipated final outcome will be, something that an 
environment impact statement should address.
    Although many of the proposed actions in the VIP deal with non-
transportation issues, a principal focus continues to be on private 
vehicles in Yosemite Valley. This is based on the anti-private vehicle 
philosophy found in the GNP. The GMP cited the issues of noise, 
emissions, visual impacts, environmental degradation, and congestion. 
Technological improvements for private vehicles continues to reduce 
noise and emissions far faster than for public transportation vehicles 
(as indicated in the VIP). Visual impacts can be addressed by proper 
screening of parking areas with natural vegetation (the strategy 
proposed for hiding the Taft Toe facility). Environmental degradation 
includes the specific issues of cars being parked in ``out-of-bounds'' 
areas because parking lots are full and to the problem of cars being 
driven onto road shoulders. These can be addressed by public education 
and enforcement (something the VIP agrees must be done to mitigate 
impacts associated with all the proposed parking strategies and in 
addressing the ongoing problems of crowded trails and viewing areas 
where people tend to go off trail). Finally, we get to the issue of 
congestion. Traffic congestion in Yosemite. Valley maybe attributable 
to many factors other than simply raw numbers. Improper placement of 
crosswalks and bus stops, buses blocking roads, or pedestrians and 
bicyclists darting in and out of traffic can constrict vehicle movement 
even with relatively few cars on the road. There is also the issue of 
carrying capacity of valley roads and parking areas. If the National 
Park Service has a precise vehicle limit for Yosemite Valley, then a 
quota closure policy for day use visitors to the valley should be 
straight forward and more cost-effective than constructing a' new 
parking facility. However, this information is not included in the VIP.
    The VIP appears to indicate that the day use parking limit in 
Yosemite Valley is 2,300 spaces. However, both the VIP and GMP state 
that the day-visitor capacity of the valley is 10,530 people. This 
figure is said to be based upon the day use parking space inventory. If 
we take into account the average occupancy of day use vehicles, which 
the VIP reports as 2.9 per car, and divide this by the population limit 
of 10,530 this would lead to the conclusion that 3,631 spaces exist in 
the valley today. Three of the alternatives in the VIP state that day 
use private vehicle capacity will not exceed 1,800 spaces once the 
valley floor is redesigned. Until a complete disclosure is made on the 
current parking space inventory and road capacities of Yosemite Valley, 
the true impact of capacity reductions for day visitors cannot be 
ascertained.
    Data is also lacking, as the VIP states: ``...on the specific 
conditions and social qualities that visitors seek...'' Without an in-
depth understanding of visitor behavior, the National Park Service 
cannot clearly identify how the redesign of Yosemite Valley will affect 
the visitor experience. Despite this, the VIP states: ``No reductions 
in the number of visitors are expected because any negative responses 
to changes in park facilities and operations are expected to be offset 
by people who didn't visit the park because of congestion and 
overcrowding in recent years.'' This statement is challenged by the 
fact that the National Park Service is offering no alternative form of 
transportation to Yosemite Valley. Therefore, when the private vehicle 
capacity of the valley is reduced, the National Park Service will have 
no choice but to turn greater numbers of Yosemite Park visitors away 
than in previous years. On the other hand, if the intent of the 
National Park Service is to replace private vehicles with buses then 
the total visitation numbers won't change and overcrowding of trails, 
viewing locations, and facilities will continue unabated and many will 
see little improvement in the visitor experience. In either event, the 
prospect grows that more auto-tourists will be turned back at the 
entrance stations to Yosemite Park. Excluded Yosemite-bound tourists 
represent a potential economic and environmental impact to surrounding 
National Forest lands. It should be pointed out that, unlike with the 
Park Service, the Forest Service routinely calls upon county resources 
to assist in certain visitor needs. Thus, excluded Yosemite-bound 
tourists also represent an impact on the surrounding counties, as well.
    To this point our comments have been confined to the issue of 
private vehicle access and public transportation. Our position is that 
the proposed changes to private vehicle access will adversely impact 
the majority of Yosemite Park's visitors. These impacts will probably 
lead to a decline in annual visitation to Yosemite National Park and a 
corresponding decline in Yosemite Park dependent economies. Public 
transportation in the valley will further decrease the quality of the 
visitor experience for many Americans because buses are perceived to be 
noisy, smelly, inconvenient and ugly. Additionally, a regional 
transportation system will have formidable obstacles to overcome to be 
successful. And, it will be costly to operate and it will not provide 
the flexibility, convenience and relatively low cost that private 
vehicle access does today. A regional transportation system will also 
probably result in a decline in Yosemite Park dependent economies. A 
regional transportation system also will cause environmental impacts in 
gateway communities, e.g. noise, congestion and land use conflicts over 
staging area locations. Because of these anticipated effects, the VIP 
as an environmental document is deficient in not providing a complete 
analysis of socio-economic and environmental impacts to the affected 
region of Madera, Mariposa, Merced, Mono and Tuolumne Counties.
    The other topic to address is the completeness and accuracy of the 
environment assessments used to justify the redesigning of the 
developed areas at the east end of Yosemite Valley. Once again, 
conflicting statements, vague reasoning and a serious lack of hard data 
make it difficult to ascertain the benefits and need for the many 
changes being offered. Rather than go at length in dissecting the VIP 
on this issue, a call for further study is.requested coupled with a 
clear analysis of how restoration and preservation of natural resources 
directly relates to impacts on cultural resources. The VIP proposals 
must be clearly correlated to the 1992 Concession Services Plan, the 
1996 Draft Yosemite Valley Housing Plan and the 1997 Draft Yosemite 
Lodge Development Concept Plan/Environmental Assessment. These actions 
also need to be directly linked to visitor experience. Particular 
attention should be paid to the suggestion that lower rent lodging and 
camp sites are targeted for reduction while higher cost accommodations 
are not, thus impacting lower income groups not the wealthy.
    In closing, while flood recovery is what prompted Congress to 
allocate a large appropriation to Yosemite National Park, two concepts 
seem to be driving the VIP. One is ``visitor experience'' and the other 
is ``natural resources restoration.'' In regard to the former, the 
National Park Service and various special interest groups have gone to 
great lengths expressing their opinion that traffic congestion is the 
number one problem facing Yosemite National Park. They assert that many 
people are not going to Yosemite because of this problem. The problem 
has been characterized as chronic, pervasive, and growing. However, the 
VIP states that only in 1995 was the National Park Service forced to 
restrict vehicle access to Yosemite Valley for seven weekends between 
May and July because of ``high'' traffic volumes. August of 1997 saw 
the highest 30-day visitor count in Yosemite Park history. The count 
exceeded previous 30 day totals by nearly 100,000 visitors and yet 
there were no gate closures. This fact plus the reality that peak 
loading in Yosemite Valley is only occurring during the summer months 
appears to be lost on many people. The VIP offers no seasonal or peak-
demand approach to addressing traffic congestion. Nor does the VIP 
address restricting any of the other traffic generators in the valley 
(specifically employees). No one disputes that traffic congestion is 
occurring in Yosemite Valley but this problem has been overstated. If 
cars were degrading the visitor experience then people would not come 
back; just the opposite is happening. Yosemite National Park continues 
to post a gain in annual visitation. Most of this increase is 
attributable to day-visitors in private vehicles, many of whom pay 
repeat trips during the course of the year. Unfortunately, while the 
VIP does address the issue of traffic congestion, it does not confront 
the problem of overcrowding. Ultimately, whether visitors come via 
private vehicles or on public transportation population limits will 
have to be defined and maintained for the valley and the park as a 
whole.
    The other idea driving the VIP is natural resources restoration. 
Part of the National Park Service's mission is the ``...preservation of 
the resources that contribute to Yosemite's uniqueness and 
attractiveness-- its exquisite scenic beauty; outstanding wilderness 
values; a nearly full diversity of Sierra Nevada environments...'' If 
the actions proposed in the VIP were truly centered on natural 
resources restoration it would be difficult to take issue with this 
document. However, there is no base-line data to clearly show what the 
natural conditions should have been in Yosemite Valley if structural 
intrusions had not been installed. Furthermore, the VIP is vague on 
whether the natural conditions sought are pre-Euro-American or pre-
Native American. If we ignore . the failure to substantiate 
presumptions on habitat evolution and river hydrology we're still faced 
with the meager amount of actually proposed natural resources 
restoration. Even under the preferred alternative, only 115 acres of 
upland communities may be restored (out of over 3,100 acres of this 
habitat type in the valley). An additional 21 acres of aquatic, 
riparian, and meadow communities are projected for restoration (out of 
some 506 acres of these habitat types). The VIP gives no clarity on 
whether or not these are ``net gains'' because other actions under the 
preferred alternative, such as the Taft Toe facility and the Tenaya 
Creek Walk-in Campground will impact previously undeveloped areas. 
Furthermore, if aquatic, riparian and meadow community restoration is a 
top priority then the VIP is remiss in not discussing the feasibility 
and benefits associated with other methods of restoration such as 
reconstructing the terminal moraine at the west end of the valley, 
removing trees that are encroaching upon historic-era meadow lands 
coupled with establishing a frequent fire regime, and the curtailment 
of ground water use for the development at the east end of the valley.
    Most of the activity proposed in the VIP (and costs) will not go 
toward natural resources restoration. The majority of the expenditures 
are aimed at new construction, ``refining,'' and rebuilding of National 
Park Service and concessionaire facilities. The retention of two 
grocery stores, a pizza parlor, and gift shops indicates that the de-
commercializing of Yosemite Valley is not a priority in the VIP's 
objectives. This is particularly frustrating since so many significant 
cultural resources will be adversely impacted by the redevelopment: 
Besides natural resources and visitor experience, the National Park 
Service is charged to protect and preserve cultural resources. But 
cultural resources seemed to have taken a back seat in the formation of 
the VIP alternatives. The National Park Service should provide a 
complete disclosure on the direct links between natural resources 
restoration and all other proposed actions. Benchmarks and percentages 
need to be provided so that a true assessment can be made of the trade-
offs proposed between natural resources, cultural resources, and 
visitor experience. Meanwhile, it would be a serious mistake to go 
forward with a redesign of the infrastructure of Yosemite Valley if 
only a minority of people will benefit, especially if it is at the 
expense of the majority.
    In summary, the VIP raises far more questions than it provides 
answers in how the various alternatives to redesigning the 
infrastructure of Yosemite Valley will effect natural resources, 
cultural resources, and the visitor experience. The VIP also does not 
adequately address socio-economic and environmental impacts to the 
affected region of Madera, Mariposa, Merced, Mono and Tuolumne Counties 
caused by implementation of any of the proposed alternatives. The 
National Park Service appears to be piece-mealing the NEPA process by 
not providing a comprehensive, integrated plan that correlates all 
previous individual planning documents in a master plan of Yosemite 
National Park. (A master plan of Yosemite National Park should also be 
placed in context with the Sierra Nevada Ecosystem Project). 
Additionally, the support for the VIP's NEPA review is based on an 
outdated General Management Plan and its outdated supporting 
documentation.

Sincerely,
      
Larry A. Rotelli
Chairman
Tuolumne County Board of Supervisors
                                 ______
                                 
                          A Fifth Alternative:
A ``Fifth Alternative'' needs to address the needs of the majority of 
the public over the wishes of the minority. The National Park Service's 
final plan of action for Yosemite Valley shall include these measures:
     
 1) LFlood recovery projects shall proceed where a) previously 
undeveloped areas will not be impacted, b) no significant cultural 
resources will be adversely impacted, and c) popular visitor activities 
will not be overly degraded.
 2) LNational Park Service and concessionaire building projects shall 
proceed where a) previously undeveloped areas will not be impacted, b) 
no significant cultural resources will be adversely impacted; and c) 
popular visitor activities will not be overly degraded.
 3) LFlood recovery and building projects shall be divided into 
appropriate phases. A regular re-assessment of environmental impacts 
shall be made. Such periodic reassessments should occur upon completion 
of specific projects or every year, which ever is most frequent.
 4) LA comprehensive traffic and transportation analysis, as well as a 
technical analysis of trail capacity, occupancy limits and visitor 
behavior patterns (for both overnight and day visitors), shall be 
completed prior to any changes in the existing road system and prior to 
any reductions in the day use private vehicle parking space inventory.
 5) LNo development shall be allowed in areas currently undeveloped.
 6) LNo significant historic buildings, structures, cultural landscapes 
or archaeological sites shall be impacted until further studies are 
conducted, and with consultation of the California State Office of 
Historic Preservation. Of specific concern is the proposal to remove 
three historic bridges, two historic orchards, residence one, and the 
degradation of the historic districts.
 7) LAn analysis of the specifics of a day visitor reservation system 
and/or quota closure policy shall be conducted prior to any road and 
parking lot infrastructure changes being implemented.
 8) LAll previous planning documents, including the 1980 General 
Management Plan shall be revised and updated, and then integrated into 
a comprehensive 10-year master plan of Yosemite Valley.
 9) LThe National Park Service shall establish an ongoing, public 
collaborative process which builds upon the ``Presidio'' meetings.
10) LAll visitors arriving in private vehicles shall be allowed access 
to the east end of Yosemite Valley for both day and overnight visitor 
use. Traffic congestion is a periodic and seasonal problem, and shall 
be alleviated with peak-loading and seasonal remedies.
11) LThe National Park Service shall strive to find a fair and 
equitable balance between the protection of natural resources, cultural 
resources and visitor experience.
12) LThe National Park Service shall undertake further study to locate 
the majority of Yosemite Parks archives, artifacts and collections in a 
centralized facility outside of Yosemite Valley.
                                 ______
                                 
    Mr. Radanovich. Thank you very much, Mr. Oliver. I get to 
question you all by myself.
    Mr. Gilbert, I, too, have expressed frustration with this 
planning process and, again, what has been signed into law, or 
into the Record of Decision, is not something that I support. 
There are some problems to a complete termination of the Plan 
and scrapping it and starting all over again, which would 
result perhaps in nothing being done, as you might have heard 
the Park Service say, and years and years before anything is 
finished.
    Tell me, are you still in that position of starting over 
again, or at least opening public hearings to look into a 
portion of the Plan?
    Mr. Gilbert. Congressman, I think the first thing is you 
have to make the decision of is it a legal plan. When you look 
at some of the documents and how it has been formalized, I 
believe it would be shown in a court of law that it would be 
illegal. But that's a decision that somebody else is going to 
get to make.
    If the decision is made that it is a legal plan and has to 
be implemented, then I believe you need to reopen those public 
hearings if you're proposing some kind of implementation here.
    Mr. Radanovich. And you may have learned during the course 
of this hearing that all of the flood money that's available, 
$106 million plus another 40 from gate receipts, is available 
to spend on projects. You probably were exposed to some of the 
projects.
    Although I don't want to hold you exclusively to that, it 
seems like there is somewhat of a consensus on those projects 
going forward, that are implemented already, to the exclusion 
of perhaps the campgrounds. Would you support spending that 
money on what you might know to be available projects right 
now?
    Mr. Gilbert. I believe there is $30 million that was 
identified in that 1997 report back to this Committee. The 
actual numbers was probably over $100 million. But of that 
balance, there is at least $30 million in there identified for 
transportation, and I believe that should be returned and 
completely be looked at, to what is the transportation study, 
what is the system that the Yosemite National Park is going to 
apply, and how does all that come together. But I would 
definitely hold that $30 million back on transportation.
    Mr. Radanovich. In discussions with the Park Service, is 
there a collaborative effort on the part of Madera County with 
the Park Service to address issues perhaps within Madera County 
but outside the Park, with regard to housing and some of these 
other issues, visitor stations in Oakhurst, those types of 
things?
    Mr. Gilbert. In our comments back to the Park Service, one 
of our comments was, you know, they have to address their 
outside housing. We are in the process in eastern Madera County 
of redoing a general plan update, which is really an area plan 
for Oakhurst.
    At this point in time the Park has shown no interest or 
come forward on any of those items, but if they were interested 
in a joint visitors center or additional housing, now would be 
the time to put that into our area plan. If they were looking 
at high density housing in some of our downtown area for a 
certain kind of housing, we would be more than happy to have a 
partnership because we would definitely need that assistance.
    We do need more Federal assistance there because we are 
addressing many of those concerns on lodging and the 
restaurants and things. We have a wastewater treatment plant 
that we're going to have to update, and I believe that would be 
an excellent partnership for the Federal Government to assist 
in.
    Mr. Radanovich. In that management plan, Mr. Gilbert, there 
was a housing issue in Wawona that is of some controversy in 
Wawona. There are some folks that don't want that there.
    Has the Park Service made any overtures to you or Madera 
County to discuss the possibility of relocating that housing 
element outside the Park and perhaps in Oakhurst or 
thereabouts?
    Mr. Gilbert. There has been no contact on that. The 
community of Wawona, I know there has been--outside of our 
country--there has been community meetings with Wawona. I think 
their biggest concern was with--There was a report done by the 
National Park Service on the type of people who were going to 
be living in those houses, and there were some concerns there.
    Mr. Radanovich. All right. Thank you.
    Mr. Balmain, thank you for testifying here today. Mariposa 
County, as well as Madera, has a long relationship with 
Yosemite, and there has been issues such as in your planning 
processes by--you know, with communities of El Portal, Wawona, 
and Foresta. There are some current issues that need some 
collaborative work, in addition to past issues. These are 
employee housing, administrative relocation and solid waste 
management.
    Is there anything the Federal Government needs to do to get 
those cooperative programs underway, and is there any kind of 
assistance that we in the Congress can provide, or from the 
Park Service, that can help advance or obtain progress in each 
one of these areas?
    Mr. Balmain. Thank you, Mr. Chairman. Obviously, the first 
thing that comes to mind is funding. We can certainly use 
funding on our compost management plan, you know, that we're 
working in partnership with the Park and also the State of 
California.
    The general plan update that involves the communities of El 
Portal and Wawona Foresta, I believe financial help would help 
there, and also working in partnership with the Park Service to 
make those things happen that are both good for the Park and 
the county both.
    The Park refers to rules a lot. They say we can't do this 
with the country because it's against the rules, and the county 
is not privy to those rules. We don't understand the rules. If 
the Committee and Congress could make those rules flexible 
enough so that the Park could work with the gateway 
communities, it would certainly help.
    Mr. Radanovich. All right. Thank you.
    Mr. Balmain, YARTS was created in 1991, and the bus service 
has been operating at various levels since then--of course, 
more diligently this last year or so.
    What is the commitment of Mariposa County toward YARTS, and 
how would you like to see YARTS operate over the next couple of 
years?
    Mr. Balmain. Well, Mariposa County is committed to YARTS. I 
would have to tell you that my commitment has been --I've kind 
of been like an anchor on the YARTS program. I was insistent it 
be voluntary. I don't think the American public is ready to be 
mandated to ride a bus, particularly in places like Yosemite.
    I think a bus ride can be a real advantage in Yosemite if 
it fits your needs. It can diminish your pleasure of that 
magnificent valley if you had small children, cameras, back 
pack equipment. There is all kinds of different needs for 
transportation in that Valley. So, from my point of view, it is 
most important that it's a voluntary system.
    I think, in order for a voluntary system to be successful, 
it has to be attractive to a certain degree. For example, right 
here, you know, I ride a mass transit system right here because 
it's must more convenient than your own automobile. But until 
it becomes a reality in Yosemite Valley, it ought to be a 
voluntary system.
    Mr. Radanovich. Also, one last thing, Mr. Balmain. You had 
mentioned that Mariposa County has begun a land use planning 
process. Yosemite certainly has impacts on your planning 
efforts.
    What impacts do you see that you would like to have and 
what kind of impacts in that planning process would you like to 
avoid?
    Mr. Balmain. Well, obviously, it would be a great advantage 
to our socioeconomic condition in Mariposa County if, in fact, 
the Valley Plan is implemented and they do move employees and 
administrative headquarters and visitor centers outside the 
Park. Mariposa County certainly would address that in their 
general plan and plan for that. I think we're obviously the 
area that could plan for it and we have the facilities, the 
utilities and infrastructure. We also have private industry 
that's willing to work with the Park on that.
    The thing I would not want to see is that we aren't at the 
table and aware of those impacts that are going to come to the 
county, so that we can prepare for them. We really don't want 
mandates.
    Mr. Radanovich. Right. Thank you.
    Mr. Oliver, I appreciated your comments. I agree with you. 
I think that busing should be an alternative choice for people 
who want to go to Yosemite. It shouldn't be the sole choice and 
it shouldn't be used to limit people in the Park. So I want to 
thank you very much, all three of you, for coming here today. I 
would like to excuse you and move on to the next panel.
    Thank you very much.
    The next panel is Mr. Ed Hardy, who is the owner and 
operator of Bass Lake Lodge, Bass Lake, California; Mr. Dennis 
Szefel, who is President of Delaware North Parks Services, the 
concessionaire to Yosemite from Buffalo, New York: Mr. Jay 
Thomas Watson, who is the Regional Director of the California-
Nevada Wilderness Society in San Francisco; and Mr. George 
Whitmore, who is Chairman of the Sierra Club's Yosemite 
Committee, from Fresno, California.
    Welcome, gentlemen, and thank you so much for coming. I 
appreciate your patience as this has gone on a little bit 
longer than what we thought.
    Mr. Hardy, if you would like to start, we will start from 
right to left. Please give us your statements, or summaries of 
them, and then we will open it up for questions. I'm glad to 
see I'm joined by my friend from Indiana, who can help me out 
with some of these.
    Welcome.

  STATEMENT OF ED HARDY, OWNER AND OPERATOR, BASS LAKE LODGE, 
                     BASS LAKE, CALIFORNIA

    Mr. Hardy. Thank you, Mr. Chairman, and distinguished 
Member and staff. It is a pleasure to be here, especially to 
talk about beautiful Yosemite Valley.
    My family has been involved with the Valley since my mother 
first went there in 1908, and I have been there every year 
except for World War II, and had the privilege of living and 
working in it as the president of the Yosemite Park & Curry 
Company for 20 years.
    Having been through the master planning process and dealt 
with the various parts of balance of preservation and use, I'm 
not going to read my testimony, which you already have. I 
thought I would cut right to the chase and talk about some 
fine-tuning.
    I think, overall, the master plan and document was done in 
good faith by the Park Service. I think it needs some fine-
tuning. I was present in the spring of 1974 when Undersecretary 
Nathaniel Reed walked into Camp 6, tore up a master plan and 
threw it in the wind as a media event, and the present process 
commenced. During that time, our operations moved many things 
to Fresno, such as warehousing and freight lining and repairs, 
laundries and so forth.
    I live on the perimeter of the Park now at Bass Lake, but 
as I go into the Park, I am disappointed in the lack of 
friendliness, the lack of the ability for the Park to welcome 
us as Park owners, as taxpayers. I draw that conclusion from 
several things. First of all, someone traveling today or going 
to the Park and wants to get information as early as possible--
weather, roads, activities--they can bring their right wearing 
apparel, they're aware of what's going to happen, they know 
what roads are open, what areas they can get to, and whether 
camping, hiking or horseback riding and so forth are going to 
be available. So information is a major thing for me.
    Also, staff friendliness. I find an aloofness amongst the 
people I interact with in the Park. I think along the way it 
has been forgotten that the visitors are the reason the 
employees are there, and that they really need to address 
friendliness.
    Camping really needs to be restored. You know, I heard John 
Reynolds briefly mention 4,000 feet, but if you know Yosemite, 
the only two flat areas that are friendly to people and can be 
retained as friendly are Wawona and Yosemite Valley at 4,000 
feet. From there it goes up.
    As you spread out into this seasonal parts of when it can 
be used, to take campsites away from Wawona, which is part of 
the Plan, which is a very popular place for RV family camping 
and so forth, and upper and lower river campgrounds, you really 
move away from the majority of the year of when people want to 
camp, plus people on vacation like to have available to them a 
water activity, with the Merced River, of course, going right 
alongside upper and lower river. I believe when you take the 
campgrounds away, all you're doing is encouraging another set 
of people, whether it's day users or people from the lodgings, 
to enter the rivers along that same area and still be using it.
    As far as the flood, having been in Yosemite for many 
years, in and around it, the Yosemite Valley has the Merced 
River running through it, which is a flood channel. For many, 
many years it was managed that when logs fell in that flood 
channel, they were taken out. It was cleared. It was kept open 
as a water course.
    In recent years, just before the flood, that channel was 
not maintained. Logs were allowed to accumulate in it, which 
floated, turned sideways, came to the bridges and formed dams. 
That's not a reason to take the bridges out. It's a reason to 
take the logs out and keep the channel open. The water that 
goes over the upper and lower river campground, when it does, 
which is very occasional, is inches of water. Once the water 
subsides, there is an opportunity with a rake and a crew of a 
few people to restore the campgrounds back to their usable 
condition. There is amphitheaters there, there is 
infrastructure, and to move away from those into areas that are 
not friendly to the public, and out of that climate, really is 
a disservice to the owners again.
    Air quality. I heard that discussed quite a bit today. For 
years, we owned the shuttle bus fleet and we drove it, we 
managed it, we operated it, we repaired it, and it ran on 
propane. Propane was relatively quiet and much less polluting 
than diesel.
    We also managed Yosemite Valley for years with fireless 
camping. Most of Yosemite National Park is fireless camping 
today, as soon as you get into any kind of elevation off the 
Valley floor. But Yosemite Valley without fire in the 
campgrounds means that, when you wake up in the morning, you 
look right at Half Dome, the falls, and it's a photographic 
opportunity all day, instead of the campfire smoke hanging in 
the Valley.
    The transportation issues I think have resolution that do 
not have to be nearly as expensive and need to recognize that 
there's only a few days a year that there's any real 
transportation concerns if you have a couple of thousand 
parking places besides the lodging, but for day use parking in 
Yosemite Valley. Those days are Memorial Day, the 4th of July, 
Labor Day weekend, and the second Saturday in August, which 
most people forget about. It's the most heavily traveled time 
by private automobiles because, for some reason, tour buses 
don't operate that week as much. California schools and 
businesses are on break, and that's when the majority, the 
biggest number in quantity of automobiles, want to enter 
Yosemite Valley.
    YARTS has been discussed, and transporting people in and 
out of Yosemite Valley at 4,000 feet at Mariposa does make some 
sense. I think an experiment--my light is on.
    Mr. Radanovich. That's not your buzzer.
    Mr. Hardy. It says stop, so I--
    Mr. Radanovich. You're at stop, but if you want to close 
up, Ed, we will have time to come back and get comments.
    Mr. Hardy. Anyway, I believe a joint agency center between 
the Federal, the State, the county and private sectors should 
be built 45 miles west of Yosemite Valley, at the intersection 
of historical Highway 49 and 140, the low entrance road into 
Yosemite Valley.
    In that center there would be a museum, which I happen to 
work with the California State Mine and Mineral Museum, but 
also offices and shops, food services, visitor services, 
parking and a bus area for volunteer bus passengers, can be 
there.
    I request that the Federal Government make available for 
that project--it's a $9 million project. We would like to see 
you fund $3 million of it. The State is working on $3 million, 
and the local people are raising $3 million.
    Thank you.
    [The prepared statement of Mr. Hardy follows:]

Statement of Ed Hardy, Owner and Operator, Bass Lake Lodge, Bass Lake, 
                               California

    Mr. Chairman, Distinguished Members and Staff, it is a pleasure to 
appear before you to speak about one of the most beautiful places on 
earth which I had the privilege of living in for 20 years.
    In the spring of 1974 Undersecretary of the Interior Nathaniel Reed 
held a media event in camp 6, which I attended. At that ceremony he 
tore up the Yosemite Master Plan that had been in development since 
1965 and declared a new planning effort will begin. After 15 years of 
planning the 1980 General Management Plan was signed. Throughout this 
period and until 1993, I was President and Chief Operating Officer of 
the Yosemite Park & Curry Company, the principle concessionaire 
operating inside this great National Park.
    Many planning ideas have been suggested and some modeled. A model 
was built in the 1880's with full size visual aids that remained in 
place for several years. The project was to build an aerial tram from 
Happy Isles to Glacier Point. The 196 Yosemite plan included a bridge 
styled similar to the Golden Gate Bridge that would span the Merced 
Gorge from the area known as the Rostrum south of the Wawona Tunnel on 
Highway 41 to Highway 120 west of the third tunnel. Obviously each of 
these proposals and many others had their champions and critics. 
Fortunately neither of these two projects was built.
    The reason I mention a little of the past is to demonstrate that 
professional park planners and managers have prevailed in the past to 
protect the balance of preservation and use. In recent years Yosemite 
Valley has become a less friendly place for people, tax-paying owners 
are being made to feel unwanted. The 2000 Yosemite Valley plan was done 
by professional park planners and is basically a good plan which needs 
to be fine tuned to make Yosemite Valley a little more people friendly.
Congestion
    Yosemite Valley is only busy about 10 days per year [Memorial Day 
weekend, 4th of July, the second weekend in August and Labor day 
weekend]. Traffic directors in six locations can expedite the flow of 
traffic. Management can make the valley friendlier.
    Since 1970 thousands of automobile parking places has been removed 
from Yosemite Valley with out NEPA requirements being met. Hundreds of 
parking places can be relocated in the Valley with minimum impacts. 
Small satellite day use parking areas that are only needed on busy 
days, that park 30 to 80 cars, can be located along the free shuttle 
bus route. These lots can be covered with pine needles and should be 
inexpensive to create or maintain. They are not needed in bad weather 
periods so mud and snow management are not required. The Curry dumpsite 
is presently used for long term parking with proper design this lot can 
easily be enlarged. Camp 6, the mall and the Village parking areas all 
need organization and beautification. Visitors staying in campgrounds, 
lodging and employee housing should park as near to their destination 
as possible. Commuters should ride a bus. Expanding the valley shuttle 
bus system will help decongest the valley 10 days a year. Planning for 
10 days should be just that. Bus service along highway 140 is 
appropriate with the Yosemite Area Regional Transportation System 
[YARTS] type service.
    Upper and lower river campgrounds must be restored. These areas are 
necessary for the mental health of the tax paying park owners. Families 
bond in this desirable climate. Bike, hike and equestrian trails need 
to be expanded.
    Matinee style fees will help to spread park use through the year. 
Charge higher entrance and camp fees on the busiest days like your 
lodges do.
    One-way roads in Yosemite Valley presently are operating with an 
entrance road on the south side and an exit on the north side of the 
valley. This traffic flow system allows for emergency exits; roads do 
close from avalanche, tree fall, accidents, fire and swollen 
watercourses. Visitors stop in the roads to view animals and majestic 
scenes, two lanes each way greatly enhances the visitor experience. 
More viewing turnouts will improve the experience.
    Today's traveling public expects to make contact with their 
destination before arrival. Joint agency visitor centers that can 
provide general information about Parks, Forests. State and County 
facilities, educate the visitor making their experience ``more people 
friendly''.
    Facilities are needed outside the park to support vehicles that 
choose not to enter the valley. The staging area that will serve the 
most visitors to the Yosemite region and reduce commutes is a joint 
agency project in Mariposa County 45 miles west on highway 140 the only 
all year entrance road to Yosemite Valley. This is the intersection of 
Historic Highway 49 that travels through California's Mother Lode and 
scenic highway 140.
    The National Park Service, California's State Parks, Mariposa 
County and the private sector are jointly developing a staging center 
that includes a visitor center, State Park Mining & Mineral Museum, 
educational interpretive theater, food and beverage service, offices, 
retail shops and vehicle parking for staging the YARTS transportation 
system. This $9 million project needs $3 million from the federal 
government; the state and local contributors make up the difference. A 
similar joint agency center must be developed on highway 41 in the 
Oakhurst area.
    Thank you, it is a pleasure to be here. I am happy to take 
questions.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Hardy.
    Mr. Szefel, welcome.

  STATEMENT OF DENNIS SZEFEL, PRESIDENT, DELAWARE NORTH PARKS 
               SERVICES, INC., BUFFALO, NEW YORK

    Mr. Szefel. Good morning, Mr. Chairman, and members of the 
Subcommittee.
    My name is Dennis Szefel. I am the President of Delaware 
North Parks Services, which through our Yosemite Concession 
Services Corporation unit operates lodging, food, beverage, 
retail, interpretive programs, recreational activities, and 
transportation services for the National Park Service at 
Yosemite National Park.
    We also provide services at Sequoia National Park, Grand 
Canyon National Park, the Kennedy Space Center Visitors 
Complex, and several other notable parks across the country.
    I want to thank you for this opportunity to testify today 
on the issue of the Yosemite Valley Plan, particularly as it 
relates to our role as park concessionaire and our ability to 
provide quality services to guests of the Park.
    Our precedent-setting contract with the National Park 
Service began in 1993, a contract based on the assumptions and 
provisions present in the 1980 general management plan. In the 
time we have been there, we have seen some of the most unusual 
and traumatic events in the Park's history. Challenges we could 
have predicted--catastrophic floods, rock slides, government 
shutdowns that closed the park, four different superintendents, 
attendance that has ebbed and flowed from record levels to 
precipitous declines, and murders outside the Park that 
generated intense negative publicity--all have contributed to 
our understanding of the Park from a perspective shared by few. 
Without the slightest hesitation, we can say that we have seen 
the Park at its best and at its worst.
    Throughout the term of our contract, and despite these 
challenges, we have remained committed to our goal of enhancing 
the experience and exceeding expectations of those who visit 
Yosemite. And we have done this in full partnership with the 
National Park Service, together seeking to add long-lasting 
value to the Park. At the conclusion of our contract, not only 
will we have left behind over $100 million in buildings and 
other infrastructure, we also have established a new and higher 
standard for what is expected from Park concessionaires.
    Despite the challenges we have faced, or perhaps because of 
them, as I look back on the past eight years, I can honestly 
say that for Delaware North our work in the Park has been among 
the most professionally satisfying assignments we have had the 
pleasure to undertake. As the largest employer and taxpayer in 
Mariposa County, we take great pride in being both a good 
corporate citizen and contributing to the educational, social 
and cultural life of the county and the gateway communities.
    What's more, the keen sense of responsibility we feel as a 
steward of the park has had its own influence. Our award-
winning environmental practices in Yosemite have been a source 
of pride for the entire company and now serve as a model for 
all of our business lines. The spirit of Yosemite has, in many 
ways, transformed our company, affecting us in the same 
profound way as it has millions of Park visitors.
    As I have said, our history at Yosemite gives us a unique 
perspective through which to view the Valley Plan. We, more 
than most, understand just how daunting a task was the 
development of this document. The remarkable treasure that is 
Yosemite serves many constituents, some of whom have 
conflicting interests, yet the Plan had to be developed in such 
a manner as to address a wide variety of needs without 
compromising the integrity of the Park. Yosemite Concession 
Services Corporation served as just one of many resources 
available to the National Park Service in the process of 
developing the Valley Plan, and we were proud to do so.
    Our role in the Park is to provide goods and services to 
Park guests, with the goal of enhancing their overall 
experience, all while performing as a steward of the Park. In 
this testimony, I will not attempt to look beyond that scope, 
but limit our comments to those issues related to our role as 
concessionaire.
    First, let me say that we are supportive of the Plan and 
recognize the value it provides in protecting Yosemite National 
Park. We fully understand are in total agreement with the need 
to preserve this resource for future generations and limit our 
impact on the ecosystem that has made Yosemite such a wonder. 
That notwithstanding, we do have some concerns that merit 
further discussion and review, concerns that we believe can be 
resolved without compromising the integrity of the Park.
    Perhaps our biggest concern involves employee housing 
within the Valley. Our ability to deliver guest services at a 
level consistent with our mission in Yosemite is highly reliant 
on being able to assemble a quality workforce. Relocating a 
majority of our employees to areas outside the Valley will 
remove the highly desirable incentive of living in the Park and 
jeopardize our ability to recruit and retain the type of 
individual we need to give our guests the level of service 
consistent with the stature of the Park.
    What's more, we believe that relocating employees outside 
the Valley will have another unintended negative consequence. 
Considering that most of our employees commute to work by 
walking, bicycling or riding on the existing Valley shuttle, 
the final Plan will have the unwanted effect of placing a 
significant new demand on transportation systems. Over 1,000 
employees will need to be transported to and from the Park on a 
daily basis during the peak season, adding to congestion on 
roads that are already prone to closure and rock slides.
    We also have concerns with the amount of lodging called for 
in the final Plan. Representing a dramatic reduction from 
existing conditions, such reduction does more than limit our 
potential as a concessionaire. It limits the opportunity of 
many who wish to experience Yosemite. We believe that 
revisiting certain elements of the Plan, such as the 
configuration of Yosemite Lodge and Housekeeping Camp, could 
present opportunities to provide more sustainable 
accommodations and further the guest experience, without 
placing additional stress on the Park's environmental balance.
    Finally, we are concerned that the Plan as currently 
communicated is giving rise to a perception that Yosemite 
National Park is not open and accessible to private vehicles. 
We suggest that a comprehensive signage and communication 
program be implemented to help clear up this confusion.
    While we are not yet able to quantify the consequences of 
the Plan on our business, we can anticipate that there will be 
some significant financial impacts under the terms of our 
existing contract. It is fair to assume that reduced lodging 
and camping facilities, increased operating costs, union issues 
with respect to new employee work requirements for travel and 
housing, increased costs relating to recruitment and retention, 
and circumstances yet unforeseen, will continue to produce a 
negative financial effect on our operations.
    Does that mean that we view our position as untenable? No, 
we don't. Absolutely not. We have an outstanding relationship 
with the National Park Service and are confident that we can 
work together to ensure that our ability to make a fair profit 
on our operations is not compromised by the necessary actions 
that comprise the Valley Plan.
    Our confidence is born, in part, by our previous 
experiences. After the devastating flood in 1997, for example, 
we were able to work with the National Park Service to 
restructure certain elements of our contract to create an 
equitable solution for all parties. What's more, we have 
already seen that the National Park Service is open to 
modifying elements of the Plan in response to sound thinking.
    An excellent example is the medical/dental clinic. 
Originally scheduled for relocation, the clinic was restored to 
its place in the Valley when several interested parties pointed 
out that removal of the facility would compromise the safety of 
a wide range of guests and residents, many whose association 
with outdoor activities carries a risk of injury.
    We also believe that a key to this Plan will be in the 
nature of its implementation. How the individual elements of 
the Plan will be phased in is critical. In our view, it is 
absolutely essential, absolutely vital, that any new 
infrastructure is completed before that which it is intended to 
replace is demolished. Equally vital is consistent and reliable 
funding for the implementation program. And lastly, we cannot 
stress how important we feel an ongoing outreach program will 
be toward combating public perception that the Park is not 
open, or at least not accessible.
    It is our contention that a plan that is not enacted is not 
a benign thing. Plans meant to define direction produce 
paralysis, or worse, when set aside or delayed. In the spirit 
of partnership that has always been a strong point of our 
relationship with the Park Service, we again state our 
willingness and desire to contribute to the ongoing 
implementation of this Plan.
    Our mission in the Park has always been characterized by 
the respect we hold for the singular beauty and grandeur of 
Yosemite. From the very beginning, we have been aware of our 
responsibility to protect this special place. We understand 
what a privilege it is to be a part of the Yosemite National 
Park and are profoundly grateful for the opportunity.
    We thank the National Park Service for its efforts in 
restoring and safeguarding the Park through the development of 
this Plan and look forward to being a part of its successful 
implementation.
    Thank you.
    [The prepared statement of Mr. Szefel follows:]

 Statement of Dennis Szefel, President, Delaware North Parks Services, 
                                  Inc.

    Good morning Mr. Chairman and Members of the Subcommittee. My name 
is Dennis Szefel. I am the president of Delaware North Parks Services, 
which, through our Yosemite Concession Services Corporation unit, 
operates lodging, food, beverage, retail, interpretive programs, 
recreational activities, and transportation services for the National 
Park Service at Yosemite National Park. We also provide services at 
Sequoia National Park, Grand Canyon National Park, Kennedy Space Center 
Visitors Complex and several other notable parks across the country.
    I want to thank you for this opportunity to testify today on the 
issue of the Yosemite Valley Plan, particularly as it relates to our 
role as park concessionaire and our ability to provide quality service 
to guests of the park.
    Our precedent-setting contract with the National Park Service began 
in 1993, a contract based on the assumptions and provisions present in 
the 1980 General Management Plan. In the time we have been there, we 
have seen some of the most unusual and traumatic events in the park's 
history. Challenges we could never have predicted-catastrophic floods, 
rockslides, government shutdowns that closed the park, four different 
superintendents, attendance the has ebbed and flowed from record levels 
to precipitous declines, and murders outside the park that generated 
intense negative publicity-all have contributed to our understanding of 
the park from a perspective shared by few. Without the slightest 
hesitation, we can say that we've seen the park at its best and its 
worst.
    Throughout the term of our contract, and despite these challenges, 
we have remained committed to our goal of enhancing the experience and 
exceeding expectations of those who visit Yosemite. And we have done 
this in full partnership with the National Park Service, together 
seeking to add long-lasting value to the park. At the conclusion of our 
contract, not only will we have left behind over $100 million in 
buildings and other infrastructure, we also will have established a new 
and higher standard for what is expected from park concessionaires.
    Despite the challenges we have faced, or perhaps because of them, 
as I look back on the past eight years, I can honestly say that for 
Delaware North Parks Services, our work in the park has been among the 
most professionally satisfying assignments we have had the pleasure to 
undertake. As the largest employer and taxpayer in Mariposa County, we 
take great pride in being both a good corporate citizen and 
contributing to the educational, social and cultural life of the county 
and the gateway communities.
    What's more, the keen sense of responsibility we feel as a steward 
of the park has had its own influence. Our award-winning environmental 
practices in Yosemite have been a source of pride for the entire 
company and now serve as a model for all of our business lines. The 
spirit of Yosemite has, in many ways, transformed our company, 
affecting us in the same profound way that has been felt by millions of 
park visitors.
    As I have said, our history at Yosemite gives us a unique 
perspective through which to view the Valley Plan. We, more than most, 
understand just how daunting a task was the development of this 
document. The remarkable treasure that is Yosemite serves many 
constituents, some of whom have conflicting interests, yet the plan had 
to be developed in such a manner as to address a wide variety of needs 
without compromising the integrity of the park. Yosemite Concession 
Services Corporation served as just one of many resources available to 
the National Park Service in the process of developing the Valley Plan, 
and was proud to do so.
    Our role in the park is to provide goods and services to park 
guests with the goal of enhancing their overall experience, all while 
performing as a steward of the park. In this testimony, I will not 
attempt to look beyond that scope, but limit our comments to those 
issues related to our role as concessionaire.
    First, let me say that we are supportive of the plan and recognize 
the value it provides in protecting Yosemite National Park. We fully 
understand and are in total agreement with the need to preserve this 
resource for future generations and limit our impact on the ecosystem 
that has made Yosemite such a wonder. That notwithstanding, we do have 
some concerns that merit further discussion and review, concerns that 
we believe can be resolved without compromising the integrity of the 
park.
    Perhaps our biggest concern involves employee housing within the 
valley. Our ability to deliver guest services at a level consistent 
with our mission in Yosemite is highly reliant on being able to 
assemble a quality workforce. Relocating a majority of our employees to 
areas outside the valley will remove the highly desirable incentive of 
living in the park and jeopardize our ability to recruit and retain the 
type of individual we need to give our guests the level of service 
consistent with the stature of park.
    What's more, we believe that relocating employees outside the 
valley will have another unintended negative consequence. Considering 
that most of our employees commute to work by walking, bicycling or 
riding on the existing Valley shuttle, the final plan will have the 
unwanted effect of placing a significant new demand on transportation 
systems. Over 1,000 employees will need to be transported to and from 
the park on a daily basis during the peak season, adding to congestion 
on roads that are already prone to closure and rockslides.
    We also have concerns with the amount of lodging called for in the 
final plan. Representing a dramatic reduction from existing conditions, 
such reduction does more than limit our potential as a concessionaire, 
it limits the opportunity of many who wish to experience Yosemite. We 
believe that revisiting certain elements of the plan, such as the 
configuration of Yosemite Lodge and Housekeeping Camp, could present 
opportunities to provide more sustainable accommodations and further 
enhance the guest experience, without placing additional stress on the 
park's environmental balance.
    Finally, we are concerned that the plan as currently communicated 
is giving rise to a perception that Yosemite National Park is not open 
and accessible to private vehicles. We suggest that a comprehensive 
signage and communication program be implemented to help clear this 
confusion.
    While we are not yet able to quantify the consequences of the plan 
on our business, we can anticipate that there will be some significant 
financial impacts under the terms of our existing contract. It is fair 
to assume that reduced lodging and camping facilities, increased 
operating costs, union issues with respect to new employee work 
requirements for travel and housing, increased costs relating to 
recruitment and retention, and circumstances yet unseen will combine to 
produce a negative financial effect on our operations.
    Does that mean that we view our position as untenable? It does not. 
We have an outstanding relationship with the National Park Service and 
are confident that we can work together to ensure that our ability to 
make a fair profit on our operations is not compromised by the 
necessary actions that comprise the Valley Plan.
    Our confidence is born, in part, by our previous experiences. After 
the devastating flood in 1997, for example, we were able to work with 
the National Park Service to restructure certain elements of our 
contract to create an equitable solution for all parties. What's more, 
we have already seen that the National Park Service is open to 
modifying elements of the plan in response to sound thinking. An 
excellent example is the Medical/Dental Clinic. Originally scheduled 
for relocation, the clinic was restored to its place in the valley when 
several interested parties pointed out that removal of the facility 
would compromise the safety of a wide range of guests and residents, 
many whose association with outdoor activities carries a risk of 
injury.
    We also believe that a key to this plan will be in the nature of 
its implementation. How the individual elements of the plan will be 
phased is critical. In our view, it is absolutely vital that any new 
infrastructure is completed before that which it is intended to replace 
is demolished. Equally vital is consistent and reliable funding for the 
implementation program. And lastly, we cannot stress how important we 
feel an ongoing outreach program will be toward combating public 
perception that the park is not open or at least is not accessible.
    It is our contention that a plan that is not enacted is not a 
benign thing. Plans meant to define direction produce paralysis or 
worse when set aside or delayed. In the spirit of partnership that has 
always been a strong point of our relationship with the National Park 
Service, we again state our willingness and desire to contribute to the 
ongoing implementation of this plan.
    Our mission in the park has always been characterized by the 
respect we hold for the singular beauty and grandeur of Yosemite. From 
the very beginning, we have been aware of our responsibility to protect 
this special place. We understand what a privilege it is to be a part 
of Yosemite National Park and are profoundly grateful for the 
opportunity.
    We thank the National Park Service for its efforts in restoring and 
safeguarding the park through the development of this plan and look 
forward to being a part of its successful implementation.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Szefel.
    Mr. Watson, welcome.

  STATEMENT OF JAY THOMAS WATSON, CALIFORNIA-NEVADA REGIONAL 
  DIRECTOR, THE WILDERNESS SOCIETY, SAN FRANCISCO, CALIFORNIA

    Mr. Watson. Thank you, Mr. Chairman, and staff. On behalf 
of The Wilderness Society, thank you for the chance to testify 
on the Yosemite Valley Plan.
    My name is Jay Watson, and as California/Nevada Regional 
Director for The Wilderness Society, I have also been asked to 
represent at today's hearing the National Parks Conservation 
Association,. the American Alpine Club, and the Central Sierra 
Environmental Resources Center, located in Twain Harte, just 
north of Yosemite.
    More than four years ago, the floodwaters of the Merced 
River presented the National Park Service with a historic 
opportunity--the chance to transform into reality what had long 
been an elusive, yet majestic vision for Yosemite. The central 
question was whether or not the Park Service was up to the 
task. The Valley Plan answers that question with a resounding 
yes. It is a grand plan that strikes an elegant balance between 
protecting natural values in the Park, and allowing people to 
use and enjoy Yosemite.
    Yosemite Valley has limits. For years, a cacophony of 
development was stuffed into its 4,480 acres. As a result, 
sensitive habitats and ecosystems were damaged, while a summer 
visit became an exercise in frustration and not a restorative 
visit to a crown jewel of the Park System.
    The Plan was produced through an exhaustive and open and 
honest planning process, and it enjoys considerable public 
support. I have appended to my testimony 34 editorials from 
around California from 14 different newspapers that support the 
plan and/or YARTS.
    The legitimacy of the process is borne out by changes made 
in the Plan as it progressed from draft to final, changes that 
unequivocally show that the Park Service not only welcomed 
public comment, but that they listened to it. Nowhere is this 
more observable than in overnight accommodations, camping, and 
parking.
    When the draft plan was released, there was an outcry about 
the types of overnight stays possible in Yosemite Valley. 
Simply stated, they cost too much. In response, under the final 
Plan, camping and rustic units account for 50 percent of all 
overnight stays in the Valley. If you include ``economy'' 
cabins, it jumps to 81 percent.
    Therefore, assuming a two-night stay during the four months 
of June through September, almost 71,000 families or groups of 
friends can camp in a campground or stay in a tent or economy 
cabin in the Valley at costs ranging from $15 to $80. The Park 
Service listened.
    As for camping, under the plan there will be 500 campsites 
in Yosemite Valley. Again assuming a two-night stay over the 
same four months, 30,000 families will be able to camp in 
Yosemite Valley, and there are another 1,060 campsites outside 
the Valley but still in the Park. That is enough for another 
64,000 families to camp in Yosemite during those four months.
    The final Plan also recognizes the historical value of Camp 
4, the undisputed birthplace of American rock climbing. The 
Plan protects Camp 4 by ensuring that the reconstruction of 
Yosemite Lodge will not encroach on it or its historical 
values.
    On day-use parking, the Plan provides 550 sites in a 
centralized location, a decrease that is of elemental 
importance if the reductions in the overall vehicle congestion 
that so degrades the human experience in the Valley are to be 
realized.
    The draft plan allowed this parking facility to be built at 
Taft Toe. The Wilderness Society and many others questioned the 
need to turn a pristine area into a parking lot and, in 
response, the Park Service shifted parking and transit to Camp 
6 in Yosemite Village, locations that are already heavily 
impacted. Again, the Park Service had listened.
    Reductions in overnight accommodations at Yosemite will 
only serve to increase occupancy levels at places of lodging 
outside the Park. Moving employee housing into the community 
will lead to new, additional home sales and rentals, and moving 
Park Service and concessionaire offices into local communities 
will provide new commercial real estate opportunities.
    The adoption of the Yosemite Valley Plan makes the 
beginning of the all-important implementation phase for the 
grandest of plans for Yosemite. But the Plan's promises will 
only be fulfilled if it is put in place on the ground. Only 
then will the millions of people who visit each year forever 
remember the Park for its waterfalls, its granite, and it's 
vibrant meadows, and not for a cacophony of development, 
gridlock and asphalt.
    But actions speak louder than words, so we call on the 
United States Congress and the administration to make the 
resources available to actually do what the Plan calls for. 
Failure to implement the Plan will put at risk the very things 
that bring millions of visitors to Yosemite and through gateway 
communities every year. In other words, Yosemite's time has 
come and it's time to get the job done and put an end to 
planning.
    Thank you.
    [The prepared statement of Mr. Watson follows:]

 Statement of Jay Thomas Watson, California/Nevada Regional Director, 
                         The Wilderness Society

    On behalf of The Wilderness Society, thank you for the opportunity 
to testify on the Yosemite Valley Plan. Please note that I am also here 
on behalf of the American Alpine Club, and the Central Sierra 
Environmental Resources Center located in Twain Harte, California, just 
north of Yosemite.
    Almost four years ago, the floodwaters of the Merced River 
presented the National Park Service with a once-in-a-lifetime 
opportunity--the chance to transform into reality what historically had 
been an elusive, yet majestic vision for Yosemite Valley. The central 
question at the time was whether the Park Service was up to the task. 
The Final Yosemite Valley Plan answered that question with a resounding 
yes!
    The Yosemite Valley Plan is a grand plan that will protect the 
natural values of Yosemite Valley and allow the American people to use 
and enjoy the park. The plan sets forth a vision for Yosemite that is 
as strong as the park's legendary granite and as clear as the waters of 
the Merced River.
    The time has come to realize that at 4,480 acres, Yosemite Valley 
is a finite place with real limits. For years, Yosemite Valley was 
expected to be all things to all people, with a cacophony of things 
stuffed into the Incomparable Valley--parking lots, roads, pizza 
parlors, a bank, a beauty parlor, a gas station, campgrounds, offices, 
hotels, snack bars, restaurants, gift shops, a maintenance shop, 
bathrooms, bridges, a museum, a church, hiking trails, bike paths, tent 
cabins, grocery stores, swimming pools, skating rinks, signs, stables, 
employee housing, water systems, sewage systems, and a laundromat.
    As a result, terrestrial and river ecosystems were severely 
altered, while a visit during the summer became an exercise in 
frustration, not a restorative visit to one of the crown jewels of our 
National Park System. Something had to change.
    And that is what the Yosemite Valley Plan is all about--making 
positive changes for Yosemite, its visitors, and for gateway 
communities.
    The Yosemite Valley Plan (YVP) is the product of an open, honest, 
and accessible planning process. It allowed for meaningful public 
comment. Dozens of workshops and public hearings were held throughout 
California. Additional hearings took place in Chicago, Denver, Seattle, 
and Washington, D.C. Every weekend, on-the-ground tours with park staff 
were available in Yosemite.
    Not surprisingly, the plan has been met with considerable public 
support. As an expression of that support, I have appended to my 
statement 34 editorials from 14 different papers expressing support for 
the Yosemite Valley Plan and/or the Yosemite Area Regional 
Transportation System (YARTS). These papers are the: Los Angeles Times, 
San Diego Union-Tribune, San Francisco Chronicle, Fresno Bee, Modesto 
Bee, Sacramento Bee, Contra Costa Times, Santa Rosa Press Democrat, 
Reno Gazette Journal, San Francisco Examiner, Oakland Tribune, Stockton 
Record, New York Times, and USA Today.
    The legitimacy of the planning process was borne out by any number 
of changes made in the plan as it progressed from draft to final. 
Changes that unequivocally demonstrate that the National Park Service 
not only welcomed public comment, but that they listened to it, 
responded by making several very important modifications in the final 
plan.
    Nowhere is this more readily observable than in how the agency 
addressed the issues of overnight accommodations, campgrounds, and 
centralized parking.
Overnight Accommodations
    When the draft plan was released for public comment, there was an 
outcry about the types of overnight stays possible in Yosemite Valley. 
Simply stated, they cost too much.
    However, in response to this criticism, under the final plan, 
camping and rustic units account for 50 percent of all overnight stays 
in the Valley. Include "*economy" cabins, and it jumps to 81 percent. 
Most overnight stays in Yosemite Valley will range in cost from $15.00 
for a campsite, to $45.00 for a tent cabin, and about $80.00 for a 
simple cabin.
    Assuming a two-night stay, during the four months of June through 
September, almost 71,000 families or groups of friends can camp in a 
campground or stay in a tent or economy cabin in Yosemite Valley. The 
Park Service listened.
Campgrounds
    As for camping, under the YVP, there will be 500 campsites in 
Yosemite Valley. Again assuming a two-night stay, over the same four 
months, 30,000 families or groups of friends will be able to camp in 
Yosemite Valley. Moreover, there are another 1,060 campsites outside of 
Yosemite Valley, but still within the boundaries of the park. That is 
enough for another 63,600 families or groups of friends to camp in 
Yosemite over a four-month period.
    The plan also recognizes the unique, historical values of Camp 4--
the birthplace of American rock climbing. Reconstruction of Yosemite 
Lodge will not encroach on Camp 4 and the campground will be slightly 
enlarged.
    Yes, when all is said and done, there will be about 300 fewer 
campsites in Yosemite Valley than before the 1997 flood. The reason for 
this is that those sites are now located in what once was sensitive 
meadow, river, and black oak habitats, which the plan proposes to 
restore. Campgrounds aren't benign, particularly when they erase 
critical habitats.
Parking
    On parking, the plan adopts a proactive approach and limits day-use 
parking to 550 sites. This reduction is of elemental importance if the 
restoration of sensitive habitats is to be realized and reductions made 
in the overall vehicle congestion that so degrades the human experience 
in the valley.
    The draft plan allowed for a centralized 550-car parking facility 
at Taft Toe, an undeveloped area still in its natural state. The 
Wilderness Society, and many others, questioned the need to develop a 
pristine area for a parking lot. In response, parking and transit 
operations were shifted to Camp Six and Yosemite Village--locations 
that are already heavily impacted. Again, the Park Service had 
listened.
Other Issues
    Earlier, I mentioned that the plan makes changes that will benefit 
gateway communities. It goes without saying that reducing the number of 
overnight accommodations in Yosemite Valley will lead to increased 
occupancy levels at places of lodging outside Yosemite. The same can be 
said of employee housing. And, moving Park Service and concessionaire 
administrative offices out of the park and into local communities will 
provide new business opportunities in those communities.
    Some have said the YVP is a sweetheart deal for Yosemite Concession 
Services. This statement is puzzling, when you consider that YCS will 
realize lower revenues under the plan. Dramatic improvements were made 
in the YCS contract as compared with the previous contract--which was 
truly a sweetheart deal.
Conclusion
    The adoption of the Final Yosemite Plan marks the beginning of an 
all important implementation phase for the grandest of plans for the 
park. And yet, the grandest hopes and promises of the plan will only be 
fulfilled if it is put in place on the ground. Only then will the 
millions of people who will continue to visit Yosemite each year 
forever remember the park for its waterfalls, its granite, and its 
vibrant meadows and not for its cacophony of development, gridlock, and 
asphalt.
    At the end of the day, actions speak louder than words. Therefore, 
we are thrilled to see the Park Service commit itself to moving 
aggressively forward with key restoration projects described in the 
YVP. These actions will set an all-important tone for plan 
implementation.
    We now call on the United States Congress and the Administration to 
make the resources available to actually do what the plan calls for. 
Thank you.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Watson.
    Welcome, Mr. Whitmore. We look forward to your testimony.

   STATEMENT OF GEORGE W. WHITMORE, CHAIRMAN, SIERRA CLUB'S 
             YOSEMITE COMMITTEE, FRESNO, CALIFORNIA

    Mr. Whitmore. Good afternoon, Mr. Chair and staff. Thank 
you for this opportunity. I am George Whitmore, Chair of the 
Sierra Club's Yosemite Committee.
    I was born in central California and have been fortunate 
enough to have lived there, near Yosemite, most of my life. I 
have experienced Yosemite intensively and extensively over many 
years, starting as a child in the 1930's, and including many 
memorable years in the 1950's as a rock climber.
    We agree with the stated intent of the Yosemite Valley Plan 
and are pleased that the Park Service did respond to public 
comments on the draft plan, to some extent, by cutting back on 
planned expansion at Yosemite Lodge and softening the draconian 
cuts in lower-cost accommodations.
    However, we still have some very large concerns. Those 
concerns focus largely on transportation issues and on the 
impact which unceasing, infinite growth in day visitor usage 
has on a very finite Yosemite Valley. These two concerns are 
obviously closely interrelated. Former Interior Secretary Bruce 
Babbitt's often stated view that, ``there is room for everyone 
in Yosemite, they just can't bring their cars'' was overly 
simplistic. Unfortunately, it was the mandate the Park Service 
was given and it resulted in a flawed plan.
    The new Valley Plan has abandoned the concept of limits 
which was in the 1980 general management plan. At the same 
time, no program has been put in place to address the 
consequent problem of ever-increasing stress on the visitor 
experience and on the natural resources. The only response to 
more and more day visitors seems to be planning for more and 
more buses, without acknowledging that buses can become the 
problem instead of cars.
    Buses obviously could be part of the solution. Our concern 
is with the excessive focus on them which fails to recognize 
that they are already well on the way to becoming a worse 
problem than the cars.
    There are several different bus systems serving Yosemite 
now--the long distant excursion or tour buses, the regional 
buses, including YARTS, which operate from the gateway 
communities, the in-Valley shuttle buses, and those which 
transport people to other points within the Park. In general, 
our comments apply to all types of buses.
    These existing buses are already having an impact which 
needs to be reduced. They need to be cleaner, meaning fewer 
air-polluting emissions. Quieter, smaller, to reduce the demand 
for wider and straighter roads. And generally, less intrusive. 
There is a serious need to convert from diesel to a less 
harmful technology, and that is one area which probably would 
benefit from increased funding. But especially in the absence 
of cleaner, quieter, smaller and less intrusive, we object to 
the seeming acceptance of buses as being a cure-all.
    Of course, what is driving the demand for more and more 
buses is the given parameter that ``there is room for everyone 
in Yosemite''. The concept of limits is certainly not foreign 
to the public. We encounter it routinely in so many aspects of 
everyday life and we adjust accordingly. To take an extreme 
example, even with an operation such as Disneyland, in which 
large crowds and crowding are accepted, sometimes the demand 
threatens the quality of the visitor experience, so the company 
takes steps to manage the demand. It totally escapes us why 
this is considered not acceptable for Yosemite Valley.
    We believe that if the Park Service would try a reservation 
system for day use, they would find it accepted by most people, 
especially if some of the available space were set aside for 
those who plan to visit at off-peak times or simply choose to 
take their chances. Such a system would eliminate the need for 
degradation of both the visitor experience and the natural 
resources which this Plan would allow--a degradation, 
incidentally, which would be in violation of the Park Service's 
own Organic Act.
    We feel that the concepts employed in this Plan, while 
undoubtedly well-intentioned, have generally been taken too 
far. The zeal to improve the Yosemite Valley has resulted in a 
massive urban redevelopment plan. But this is not a city. It is 
the crown jewel of our National Park System, the incomparable 
valley, a world heritage site, the holy of holy. It deserves 
much better of us.
    I would be happy to take any questions you might have.
    [The prepared statement of Mr. Whitmore follows:]

 Statement of George W. Whitmore, Chairman, Yosemite Committee, Sierra 
                                  Club

    We offer our reactions to the final Yosemite Valley Plan.
    We recognize that changes were made in the final Valley Plan in 
response to comments that we and many others made. We are particularly 
pleased that the Park Service recognizes that ``restoration of highly 
valued natural resources is a priority, especially along the length of 
the Merced River.'' We are glad to see there is now essentially no net 
increase in number of accommodations at Yosemite Lodge. And we welcome 
the decision not to move forward with the idea of constructing a new 
parking facility at Taft Toe.

ASSUMPTIONS

    However, we continue to question many of the assumptions that 
underlie this Plan.
    Because too many sites have already been degraded, we do not 
believe it is wise to shift development to new areas (even if the 
overall footprint were to be reduced). The Plan does not confine 
development to existing sites.
    Moreover, the Plan is far from clear in limiting the factors that 
impose stress upon the Valley's environment. These stresses include 
vehicles, emissions, roads, parking places, facilities, and unlimited 
visitors. While it would limit the space for automobiles, it would 
leave open growth in bus traffic, particularly tour and YARTS busses, 
and satellite parking in other areas of the Park. And after casting 
doubt on the validity of the 1980 General Management Plan's (GMP) 
visitor limit, this plan would look to a future Visitor Experience and 
Resource Protection (VERP) process to define new parameters, which 
might, or might not, be more effective in protecting the visitor 
experience and natural resources.
    We feel it is a serious mistake to have eliminated the 1980 GMP's 
approach to the ever-increasing demand for access to Yosemite Valley 
without having some other mechanism in place to deal with it. Unless 
the problems created by infinite stress on a finite resource are 
resolved, the Organic Act's mandate for enjoyment by the public while 
leaving the resources unimpaired will be violated.
    And the plan for restoration in the Valley is far from clear. The 
Plan does not enable one to see what the aims are for each parcel to be 
restored, nor to what standards these areas would be restored, nor how 
fragmentation would be overcome.
    Furthermore, it appears that much of this restoration should move 
forward regardless of whether other parts of the Plan are ever 
implemented.
    Finally, we are disappointed that this plan was developed in such 
haste, before it was clear that a legally compliant plan for the 
management of the Merced Wild and Scenic River was in place. The River 
Plan, which should stand as the foundation for all planning in the 
Valley, is still under litigation. Questions still exist as to whether 
adequate planning has been done to identify, enhance and protect 
outstandingly Remarkable Values (ORVs) for the river. And the Valley 
Plan seems to confound these ORV values with Highly Valued Resources, 
which seem to stand in their place. We strongly recommend that the Park 
Service recognize the possible need to make relevant changes in the 
Valley Plan if court decisions require revisions of the River Plan or a 
new River Plan.

CHANGES FROM THE DRAFT

    However, we do note changes, some of them for the better, that were 
made in developing the final Plan. We are glad to see that, overall, 
there will be twenty fewer lodging units than in the draft Plan, and 
the number at Yosemite Lodge would go down by 135 (though that would 
still. constitute six more than are there now). And we welcome the 
effort to retain more low-cost units at Curry Village and Housekeeping.
    We also note, however, that some elements in the final Plan are 
less satisfactory than in the draft. More bus trips would be expected 
each day during peak periods (285 instead of 231), while the saving in 
energy use would be less (37% instead of 52%). And more employee beds 
would remain in the Valley (723 in contrast to 683).

VALUABLE GOALS

    But we do recognize that the Plan would be designed to achieve some 
very important goals compared to the existing situation:
    --A reduction of nearly 300 overnight lodging units (with 164 to be 
removed from the flood plain);--A reduction of 554 employee beds in the 
Valley;--And a net gain of 71 acres that would be restored in the 
Valley (though we regret the loss of 75 acres of undeveloped land in 
the process.)
    We applaud plans to remove unnecessary developments and facilities, 
including:
    --The Cascades Diversion Dam;--Rip rap, along the banks of the 
Merced River;--The village garage;-The concessionaire headquarters; 
and--The tennis courts at the Ahwanhee Hotel.

PROBLEMS OF PARTICULAR CONCERN

    But, nonetheless, we see some problems in the Plan that still need 
to be addressed in a satisfactory manner.

(1) DIESEL BUSSES

    While we welcome the pledge to use ``the best available fuel and 
propulsion system technology to minimize noise and air pollutant 
emissions,'' additional busses should not be added until satisfactory 
technology which will reduce air and noise pollution is in hand and 
will be used for existing and any new busses. We recommend immediate 
replacement of existing shuttle buses with new buses with much lower 
emissions. We note in Table 4-31 (p. 4.2-123) that if diesel fuel is 
used that NOx emissions in 2015 would be worse with the shuttle bus 
system to remote sites than under the ``No Change'' alternative. NOx 
emissions would increase by 32%.
    We cannot agree with any change that would increase, rather than 
decrease emissions and produce worse air quality or move impacts to 
new-or expanded areas. The discussion in the EIS of air quality is 
conspicuously silent on the question of whether air quality standards 
would be met with this increase in NOx emissions. Diesel fuels are also 
high in sulfur content. Both NOx are precursors of ozone. Exceedances 
of air quality standards for ozone have occurred in recent years in 
Yosemite Valley. Moreover, diesel fuel emissions contain deadly 
carcinogens as well as dangerous small particulates, and few diesel 
engines are operated with any serious emission control systems. Unlike 
cars, which have gotten cleaner, diesel busses have not.
    We continue to urge that busses bringing visitors into the Valley 
need to use clean fuel technologies. Fuel cells or propane seem to be 
the most promising technologies along this line (see table 4-31). The 
door needs to be closed on the growing number of busses using dirty 
fuels, rather than be opened. We believe that there should be a 
moratorium on the growing number of tour and YARTS busses, and their 
arrivals need to be scheduled at appropriate intervals.
    And busses coming into the Valley need to be less noisy. Some of 
them now produce noise at 16 times the natural sound level (for those 
standing within 50 feet). Moreover, the noise they produce can be heard 
within nearby wilderness areas of the park (on valley cliffs and on the 
rim).
    Finally, such busses need to be smaller so that they fit within the 
design parameters of the existing road system. Otherwise, the growing 
number of such busses will exert constant pressures to build larger and 
larger roads, to the detriment of park values and visitor experience.

(2) UNCONTROLLED GROWTH.

    As indicated earlier, the Plan fails to come to grips 
satisfactorily with the growth in the factors that stress the 
environment of Yosemite Valley. Limits are addressed only indirectly, 
with the question deferred for up to five years while the VERP process 
is pursued, with no conclusion being promised even then.
    This is particularly so with respect to growth in bus traffic. 
Busses can bring far more visitors to the Valley than can cars. Total 
visitation via car is more easily limited by congestion and limited 
parking space. But if busses displace cars, the potential number of 
visitors is far greater. They can suddenly produce crowds that 
overwhelm special places. And as their numbers increase, so also will 
the pressures for more accommodations, facilities, and infrastructure. 
While we suspect that the carrying capacity of Yosemite Valley is 
likely currently exceeded only a few days during the year, without an 
analysis and setting of limits those days could increase rapidly over 
time.
    Once remote parking lots are built, it will be all too easy to 
expand them. New centers of development can all too easily sprawl out 
around these lots. Not enough research or planning has been done to 
determine whether sites can safely be developed at Hazel Green or 
Foresta. One rare plant and one plant of federal concern are found at 
Hazel Green, as well as habitat for the California Spotted owl, which 
is under consideration for inclusion in the federal endangered species 
list. Even Badger Pass is problematic because of its inadequate sewage 
system.
    We are quite concerned with construction of a bus depot with 16 
bays being developed in the heart of Yosemite Valley. This does not fit 
in with the goal of reduction in impacts nor of increasing the quality 
of the visitor's experience of the natural values of Yosemite. The Plan 
assumes that the number of bus bays will de facto limit the number of 
busses arriving from out of the Valley. But pressures will grow from 
tour companies and outside commercial lodge owners to increase the 
number of such bus bays. Such bays might be taken from either the 
allocation for day use auto visitors, or from habitat.
    Once again, we urge the National Park Service to establish a 
moratorium on granting permits for any more tour busses or YARTS 
busses, and to establish limits on the number of busses entering the 
Valley, as well as for automobiles. Under the Plan, at peak periods a 
bus would be expected to arrive at the visitor center every 1.3 
minutes. Busses would be arriving practically in convoys.
    These limits would be the necessary counterparts of limits on 
overnight lodging units, camp sites, parking spots, and employee 
housing. All of these sources of pressure need to be controlled 
simultaneously to prevent pressures from transferring themselves from 
one point to another. Busses can be part of the solution, but unless 
their numbers are tightly controlled, they will also come to be the 
problem.
    Work on satellite parking facilities should not go forward until 
limits have been established on bus traffic into Yosemite Valley, and 
even then only if siting problems have been resolved (in terms of 
limiting environmental impacts and containing sprawl at the sites).

(3) SOUTHSIDE DRIVE AND OTHER ROADS

    We remain concerned about the plan to shift traffic entirely to 
Southside Drive. Closing Northside Drive to traffic will not produce 
any habitat gain, merely seasonal respite from noise. But it will 
result in habitat loss along Southside Drive as all traffic pressures 
focus on it. The EIS informs us that the park does intend to widen it, 
with ``the extension of pavement over strips of habitat alongside the 
road'' [p.4.2-54]. We understand that the plan is to improve it to the 
same level as accomplished in rebuilding the E1 Portal road, which was 
so controversial. Moreover, if the proposed traffic check station is 
built at E1 Capitan crossover, then even more habitat will be lost.
    Moreover, we do not agree with relocating Northside Drive along the 
south side of Yosemite Lodge (closer to the river), and building a new 
bridge across Yosemite Creek. Again, this will produce a needless loss 
of habitat, with little, if any gain in the visitor experience.
    We do not understand how this plan advances the restoration agenda. 
Very little is gained, while a lot is lost.

(4) SEGMENT D

    We understand that attention will not be given to the issue of 
Segment D of the El Portal Road until the Cascades Diversion Dam has 
been removed, the river bed has stabilized, and until compliance with 
environmental laws has been pursued. (We ask that Cascade Dam be 
removed in an environmentally responsible manner, with appropriate 
scientific appraisals of the best manner in which to remove the dam 
completed first.)
    We do want to observe that, while widening of Segment D is not 
necessary, there may be a desire by the Park Service to engage in 
roadbed stabilization, intersection redesign, sewer repair, paving, or 
other types of construction activity. In such an event, compliance with 
environmental laws should be pursued in good faith, with an appraisal 
of the potential impacts of various alternative designs helping to 
guide the Park Service to the least harmful alternative. Because of 
obligations under the Wild and Scenic Rivers Act, that design should be 
aimed at keeping construction out of the bed and off the banks of that 
river. The EIS admits that stabilization materials are now in the river 
channel ``and interfere with the free-flowing condition of the river'' 
[table 4-39, p. 4,2-167].
    We are troubled by the ambiguities of the Plan with regard to 
whether good faith compliance will be attempted. Many comments are made 
that suggest no more than pro forma compliance and a definite intent to 
re-construct regardless of what is found. The EIS actually states that 
the non-conforming material will ``remain in the river channel after 
the-road is constructed'' [table 4-39, p. 4.2-167]. The Park Service 
seems to assume that study, and notice of intent to obstruct a wild 
river's free-flowing condition under Section 7 of the Wild and Scenic 
Rivers Act, will meet the requirements of the Act. But we assert that 
the administering agency has a positive duty to keep obstructions out 
of the bed of such rivers. We share hopes expressed in the plan that it 
will be found feasible ``to design and construct the road in a manner 
that would avoid direct and adverse impacts on the values for which the 
river was designated'' [p. 4.2-175]. We hope that deficiencies in legal 
compliance will not continue to shadow whatever additional work on this 
road may be proposed.
    We note that all the above concerns would be vastly reduced if the 
Park Service would recognize that Segment D does not need to be 
widened. The combination of gradients and curves that were felt to be a 
problem on Segments A, B, and C do not exist on Segment D. The problem 
appears to be one of blind insistence on uniform standards as an end in 
itself.

IN CONCLUSION

    It strikes us that the tasks ahead ought to be tackled in a certain 
order. At the outset, priority should be given to resolution of the 
court case regarding the Merced Wild and Scenic River plan and 
developing a legally compliant River Plan since that provides the basis 
for so much else. Next, we urge that a process be initiated to 
promulgate a moratorium on issuing any more licenses for tour busses 
entering the valley, and any other busses which would create additional 
air, noise, sprawling impacts, or runoff pollution.
    Then various relatively non-controversial tasks ought to be 
pursued: downsizing the level of accommodations in the Valley, 
continuing to move non-essential facilities out, and increasing the 
pace of restoration work. At the same time, efforts should be made to 
clean up the emissions of existing busses that enter the valley through 
establishing a schedule for conversion to cleaner fuels. And upgrading 
and renovating the sewage system for the Valley would seem to-be 
relatively non-controversial, especially if it diverts money from more 
harmful projects.
    Over the next few years, further efforts should be made to set 
limits on all of the sources of stress on the valley's environment. 
Limits should be adjusted based on containing and decreasing, not 
increasing, the existing stress on the Valley's environment after an 
analysis on the capacity of the valley to withstand various stresses. 
We are not entirely clear on whether the contemplated VERP process is 
everything that is needed, but we urge use of a pragmatic process that 
tests various levels of management to see whether desired improvements 
ensue, with adjustments to get needed results.
    Finally, we urge that any further consideration of satellite 
parking lots be placed on hold until clean, quiet, non-intrusive 
alternate transportation is in place, operational, has secured funding, 
and has proven to be successful. And, even then, it should be 
considered only if some mechanism is in place to limit ALL vehicular 
traffic, including busses of all kinds, based on the carrying capacity 
analysis. And that is assuming problem-free sites can be found.
    We look forward to working toward a process of better protecting 
the very special values of Yosemite Valley and the Merced River.
                                 ______
                                 
    Mr. Radanovich. All right. Thank you very much for your 
testimony as well.
    Mr. Hardy, I would love to ask you a couple of questions 
regarding this Plan. You were here and I think heard much of 
the testimony of the Park Service when they were here before. A 
couple of things I would like to ask you about.<plus-minus>
    Two questions with regard to the upper and lower river 
campgrounds. You had mentioned that those campgrounds, as well 
as others, serve the mental health of the public. Can you 
elaborate on that?
    Mr. Hardy. Certainly. The family unites, a chance for the 
family to come together and gather in those areas, has been 
traditional, historic, and it's a respite from coming out of 
the city life or wherever they came from, and gather in a 
family unit. I believe that it truly helps.
    I think Yosemite Valley is really like a giant ``couch,'' 
and the people working there are the ``shrinks'', and the 
chance to send people home restored is important. Those 
campgrounds played a major role in that.
    Mr. Radanovich. You have long been an advocate of the 
reopening of those campgrounds. In fact, in your testimony, as 
you just said a minute ago, it requires a little bit of 
maintenance to go in and get rid of the sand and rocks that 
were deposited by the increased water levels and then move on.
    But we have become aware, or at least you are aware, that 
the Park Service has said both campgrounds are entirely within 
the flood plain of the river and it comes within the Wild and 
Scenic designation. How do you figure overcoming something like 
that in order to get them restored?
    I support reopening the campgrounds. Maybe a barrier of 100 
feet, 150 feet, from the river--the historic edge, not the 
flood edge, but--
    Mr. Hardy. First of all, I think they're kidding 
themselves, anyone is, who think that people aren't going to 
use the river by declaring it a flood plain.
    Secondly, the Congress wrote the law that created the flood 
plain. Let's adapt it, let's make some meaningful adjustments 
and fine-tune the Plan and allow the people that own the Park 
the ability to continue to use it.
    Mr. Radanovich. There are a lot of lawsuits prolonging the 
thing. I mean, that's what you're up against basically, an 
onslaught of lawsuits.
    Mr. Hardy. I really feel that when you leave the 4,000 foot 
level of Yosemite Valley and you go to other parts to impact 
other parts of the Park, you're doing the preservation side of 
the Park management plan a disservice. This is already 
impacted. It gets washed periodically. That's even better. But 
I would stick with trying to find a way to adapt the law to 
reopen those campgrounds, and Wawona the same thing.
    Mr. Radanovich. A lot of the controversy in planning this 
thing is the number of parking spaces in the Valley. Can you 
kind of give us some idea of what has been there historically 
and where we've been heading with the issue of parking spaces?
    Mr. Hardy. Well, if you want to go back far enough, there 
were periods of times when we parked at Mirror Lake. In fact, 
there was a boat dock and boats and Easter service was done out 
on the lake. You could drive all the way there. Of course, 
there was parking in front of the post office for many, many 
years. There was parking in back of the post office for many, 
many years. Both of those are not available at this time.
    The parking throughout the Valley has been diminished by 
thousands. I notice that someone said 3,300. When I was there, 
we counted 6,000 that had been torn out since the 1960's. I 
don't believe you ought to put all those back, but I do believe 
in small satellite parking lots along the shuttle bus route, 30 
to 80 cars in a spot. The areas where you pull in, like where 
the old Chinese laundry was, there are several spots along that 
side of the Valley, you just cover them with pine needles. I'm 
not talking about black top. You don't need them when it's wet 
and sloppy and the weather is bad. The public doesn't come 
anyway. So you don't need mud and snow management or snow 
removal.
    But in the summertime, when the Park is heavily visited, 
they use the Curry dump site, small satellites along the 
shuttle bus route, all managed with pine needles--and, of 
course, Camp 6--and a reorganization of the areas around the 
village store. I believe you could put parking back in very 
nicely without impacting new areas.
    Mr. Radanovich. Thank you, Mr. Hardy.
    Mr. Szefel, as you are well aware, the flood of January 
1997 created some problems. It also impacted your employee 
housing needs. I'm curious to know how you dealt with that and 
how this Plan may affect your ability to house your employees 
and what your concerns are with regard to employee housing in 
this Plan.
    Mr. Szefel. Well, since the flood, we lost quite a number 
of employee housing units. We have had to make do with several 
temporary--actually, they are miner camp portable outlets that 
created small villages. They are temporary at best, and they 
are certainly not the way we would like to be able to house our 
employees for going forward.
    As I stated in my prepared remarks, that's a concern with 
the Plan, the impact on employees. I think there's a lot of 
advantage to having employees live in the Valley. That's a part 
of the allure of the job. Many of them walk to work, bicycle to 
work. So that's an issue that clearly we see as something that 
requires conversation as we go forward with the Park Service.
    I would just reemphasize that our ability to work with them 
throughout all of this process has been terrific. I'm sure 
we'll be able to resolve it. But it's an issue that is 
uppermost in our mind.
    Mr. Radanovich. Do you have involvement with the gateway 
communities? Is there discussion--For example, the 
concessionaire administrative functions being moved to gateway 
communities, or some of your employee housing, especially with 
the opportunity of YARTS being there, is that something you 
have discussed or is in planning?
    Mr. Szefel. We now have our entire central reservation 
system, that does our reservation work not only for Yosemite 
but for all of our other properties, in Fresno. We also do a 
number of our administrative support functions out of that 
building already, and that clearly would be an area that might 
make some sense for us to do. But we do some of it already.
    Mr. Radanovich. Are you concerned about any loss of 
employee housing as a result of this Plan, or--
    Ms. Szefel. Oh, sure. That's one, as I mentioned. Again, we 
have a good experience working with the Park Service, through 
some pretty catastrophic occurrences, and I'm sure we'll get 
through the planning process with them as well. But employee 
housing is uppermost in our mind.
    Mr. Radanovich. Thank you, Mr. Szefel.
    Mr. Watson, you heard the comments that there were probably 
up to as many as 6,000 parking spaces in the Valley, and we're 
looking at a plan that has about 550, and then the idea of 
busing the rest into the park--at least that being the focus 
for day-use visitors.
    Where is your line? Is it 550 spaces, or would you like to 
see zero? Could you accommodate 1,200? What are your thoughts?
    Mr. Watson. I don't believe there were 6,000 parking spaces 
in Yosemite Valley. If there were, that would equate to about, 
I think, 80 acres of asphalt. I don't think 80 acres of asphalt 
has been removed from Yosemite Valley.
    In addition to the 550 car parking lot for day use, you 
know, there are--I'm going to say over 1,000 parking spaces for 
campgrounds and overnight units, that sort of thing.
    I think the reduction to 550 day use parking spaces in the 
Valley itself is of critical importance, but it will only work 
if either YARTS is in operation or, if YARTS isn't in 
operation, then those out-of-valley parking lots are 
constructed at each of the entryways into the Park, each of 
those corridors. Obviously, you have to provide people a way to 
get into the Park, and that's either in their own automobiles 
to their overnight units, to a day use parking lot, or to a 
satellite lot, and then on a clean fuel shuttle into the 
Valley.
    But I think 550, you know, is somewhat of a magic number, 
because it's large enough to accommodate off-season visitation 
levels without any reductions in those. So that's sort of the 
magic number.
    Mr. Radanovich. I see.
    Mr. Whitmore, the Sierra Club has been, I guess, a pretty 
outspoken opponent of the Plan, particularly in the area of 
YARTS. I know Mr. Brower, who is now deceased, prior to that 
had mentioned a real objection to relying on diesel buses or 
relying on a Park plan that requires more people to go on 
diesel buses in order to enjoy Yosemite.
    If I'm accurate in that description, and I think I am, what 
would be your plan, knowing that if you don't rely on a busing 
system, instead looking at 550 spaces, if you're less reliant 
on one, you're looking at more parking spaces in the Valley.
    Mr. Whitmore. Thank you for the question, Mr. Chair.
    I would like to clarify one point. The Sierra Club has 
actually never taken a position on YARTS, as such. We like a 
regional approach to things, and to the extent that YARTS is a 
regional program, we think that it's a good idea to approach it 
that way. So we never--
    Mr. Radanovich. I stand corrected, then.
    Mr. Whitmore. We never endorsed YARTS, as such, even though 
we were asked to, because we didn't know what they would come 
up with. They then came up with a fleet of diesel buses.
    Mr. Radanovich. Were Mr. Brower's comments basically his 
comments?
    Mr. Whitmore. Those were his personal comments, yes. And 
then when they came out with a fleet of diesel buses, this was 
one of the things we had feared. That can be changed, I 
presume.
    As far as what we would like to see to deal with the 
problem, we have limitations on practically everything I can 
think of in Yosemite, except for day use. My impression is that 
this was Mr. Babbitt's fixation, that we are not going to limit 
day use. Well, if you don't limit day use, you're going to end 
up with more people than you can handle at certain times. 
Eventually, maybe that would be a very large amount of days out 
of the year. Currently, it's a rather small number of days out 
of the year.
    So we feel that most of the year you don't have a problem.
    Mr. Radanovich. Right.
    Mr. Whitmore. And during those times that you do have a 
problem, I think you have to accept the idea that Yosemite 
Valley is finite and you are probably going to have to 
implement a partial reservation system. I don't think it should 
be totally reservation, because this is a little too 
restrictive. I don't think people are ready for that. But just 
as with the wilderness permits, there are advance reservations 
for some of it and then some of it is on a walk-up basis. I 
don't know why that couldn't be done with people who drive up 
to the gate.
    Mr. Radanovich. Did the Sierra Club support the concept of 
gate closures, that when there was a certain amount of people 
in the Park, they would shut the gates?
    Mr. Whitmore. I wasn't on the scene at the time, but I have 
seen enough congestion in the Valley at peak times during the 
summer that I can well imagine the problem got out of hand. 
There were too many cars in the Valley at one time, so the Park 
Service had to do something.
    I think their way of handling it left something to be 
desired. They should not have done it so abruptly. I think 
there needed to be more public education, more advance notice. 
It doesn't make sense that you have large lines of cars waiting 
at the gate because it has been closed unexpectedly. That leads 
to the matter of congestion in the Valley itself, not just at 
the gate. But there are a lot of things the Park Service could 
do to relieve congestion in the Valley, simple things that 
would not take a lot of money.
    We find it inexplicable that the Park Service has not done 
a lot of planning for traffic management in the Valley. There 
are some problem intersections that could be redesigned. There 
is too much confusion over this business of, well, is it a one-
way loop, or are we putting the northside traffic back on 
southside temporarily, and if so, at least cover up the signs 
that say get in the left lane if you're going to cross over 
Stoneman Bridge. If you do get in the left lane, you'll have a 
head-on collision. I have run into that personally twice. Just 
the most elementary things that display a certain level of 
adequate management.
    Mr. Radanovich. To me, the obvious example is rerouting the 
road around Yosemite Lodge and getting it on the same side as 
Yosemite Falls, lower Yosemite Falls, where your parking is 
there. You could relieve easily one bad bottleneck in the Park.
    Mr. Whitmore. Yes. I'm not sure that the Plan the Park 
Service is talking about now, for running the road around the 
south side of the lodges, is the best way to go. But certainly 
that intersection is one of the major problems and it needs 
some thought about how to redesign it to deal with that 
situation.
    Mr. Radanovich. Thank you very much.
    Mr. Hardy, would you comment on one thing for me. You know 
that there is already money that is appropriated for the 
implementation of this plan to the tune of about $140-145 
million. By what you've been able to gather from the hearing, 
not holding you to it, do you agree with some of the things the 
Park Service would like to do right now with that money, except 
for the river campground issue?
    Mr. Hardy. I think their utility upgrades are a must, and 
to improve some of the roads and continue to maintain them, I 
think that's going the right way.
    I'm glad there is not money in there to remove the bridges. 
That's a plus. So I'm amazed at that huge pot of money. I mean, 
in all my years working with the Park Service, they never had 
that kind of funding. In the past, the funding that did come to 
the Park Service came through you, as elected officials, and 
now so much of it comes from other routes, such as they talked 
about entry fees, campgrounds, special events, concession 
moneys, Yosemite fund, the Yosemite Association, Yosemite 
Institute. There's millions of dollars coming to the Park 
Service without any elected officials oversight.
    I would say it would be nice to have that instead go to a 
general fund, just the opposite of what the Park Service spoke 
of today, that they're relieved it doesn't go to the general 
fund. I believe it's a public park and it does need elected 
officials oversight on what money and how it's spent.
    Mr. Radanovich. Well, I can rest assured that the rest of 
the $441 million will have to be appropriated, so we're looking 
forward to having some say in how the balance of this might be 
spent, if it's spent at all.
    Gentlemen, I want to thank you for being here and for your 
testimony. With that, I will go ahead and conclude this 
hearing. Before that, people have up to 30 days to submit 
recorded remarks.
    Again, thank you all very much. We are adjourned.
    [Whereupon, at 1: 10 p.m., the Subcommittee adjourned.]

    [A statement submitted for the record by the Natural 
Resources Defense Council follows:]
[GRAPHIC] [TIFF OMITTED] T1353.001

[GRAPHIC] [TIFF OMITTED] T1353.002

[GRAPHIC] [TIFF OMITTED] T1353.003

                                   - 
</pre></body></html>
